<html>
<title> - AFGHANISTAN: IN PURSUIT OF SECURITY AND DEMOCRACY</title>
<body><pre>[Senate Hearing 108-320]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-320
 
            AFGHANISTAN: IN PURSUIT OF SECURITY AND DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                   U.S. GOVERNMENT PRINTING OFFICE
91-915                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001












                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  












                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     6
Durch, Dr. William J., senior associate and co-director, The 
  Future of Peace Operations Project, Henry L. Stimson Center, 
  Washington, DC.................................................    37
    Prepared statement...........................................    40
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    36
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    34
Lindborg, Ms. Nancy, executive vice president, Mercy Corps, 
  member of InterAction, Washington, DC..........................    56
    Prepared statement...........................................    59
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
North, Brig. Gen. Gary L., Deputy J-5 for Political and Military 
  Affairs, The Joint Staff, U.S. Department of Defense, The 
  Pentagon, Washington, DC.......................................    20
Rodman, Hon. Peter W., Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense, The 
  Pentagon, Washington, DC.......................................    15
    Prepared statement...........................................    17
Taylor, Hon. William B., Jr., State Department Coordinator for 
  Afghanistan, U.S. Department of State, Washington, DC..........     8
    Prepared statement...........................................    11
    Responses to additional questions for the record from Senator 
      Feingold...................................................    79
Tomsen, Hon. Peter, former U.S. Special Envoy and Ambassador to 
  Afghanistan, 1989-1992 and U.S. Ambassador to Armenia, 1995-
  1998, McLean, VA...............................................    49
    Prepared statement...........................................    51

                                 (iii)

  










           AFGHANISTAN: IN PURSUIT OF SECURITY AND DEMOCRACY

                              ----------                              


                       THURSDAY, OCTOBER 16, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m. in room 
SH-216, Hart Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding. Present: Senators 
Lugar, Hagel, Chafee, Alexander, Biden, Feingold, Bill Nelson, 
and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    This week, the Senate has been debating the $87 billion 
Emergency Supplemental Appropriations bill for Iraq and 
Afghanistan. Though most of the attention to the bill has been 
focused on funding devoted to Iraq, the bill includes $10.5 
billion to continue military activities in Afghanistan, and 
$1.2 billion in assistance to accelerate Afghan reconstruction. 
About one third of reconstruction funds are targeted for 
bolstering training and support for the new Afghan National 
Army and police force. About $300 million will be devoted to 
infrastructure, including roads, schools, and health clinics.
    It is clear from this supplemental request that President 
Bush is committed to succeeding in Afghanistan. Congress must 
be similarly committed to this goal. American national security 
and prosperity depends on Senate passage of the supplemental 
appropriations bill.
    Some of the debate on the supplemental has attempted to 
juxtapose spending requests for Iraq and Afghanistan with 
domestic spending priorities. Such debate may score some 
political points, but it is shortsighted. The viability of our 
economy and our ability to fund domestic programs in the long 
run depend directly on winning the war on terrorism. We cannot 
leave Iraq or Afghanistan in a condition that breeds terrorists 
or festers as a symbol of American failure in the Middle East. 
Such an outcome would expand anti-U.S. resentment, weaken our 
international influence, undercut prospects for broader peace 
settlements in the region, and possibly encourage other 
governments to pursue weapons of mass destruction or terrorist 
sponsorship. These potential outcomes would make us more 
susceptible to catastrophic terrorist attacks. And if such 
attacks occur, Members of Congress must understand that right 
behind the tremendous loss of life, the next casualties will be 
the future of the American economy and our ability to 
generously fund commitments to our seniors, to the education of 
our children, and to innumerable other important goals on which 
there is a broad consensus in the Congress.
    In this context, we should see Afghanistan as not just a 
problem, but rather as an opportunity. Afghanistan was the 
opening front in the war on terrorism, and visible progress 
there will resonate for an international audience. Moreover, 
our experience in Afghanistan can help us succeed in Iraq. In 
Afghanistan, we have broad international participation endorsed 
by a consensus U.N. Security Council resolution. Now, we are 
already working successfully with an indigenous national 
government, and that government has done thoughtful planning 
for the future of its people. Afghanistan still presents 
tremendous challenges. As in Iraq, security is the chief 
obstacle to achieving our post-conflict goals. The remnants of 
the Taliban regime and al-Qaeda continue attacks on United 
States and allied forces, as well as on civilians and 
international aid workers. The security situation has been 
declining over the last few months, forcing the suspension of 
critical assistance and undermining reconstruction and 
transition efforts. Establishing security is essential to begin 
the process of building a viable economy in Afghanistan, 
encouraging investment, and developing a private sector that 
can generate income and jobs that are not tied to foreign 
assistance or the illicit drug trade.
    Afghanistan's population is far less educated than Iraq's. 
It lacks abundant oil resources that could serve as an engine 
for reconstruction. Many areas of Afghanistan lack even 
rudimentary infrastructure. The infrastructure that does exist 
is often in disrepair.
    The Afghan government will require assistance to ensure 
that basic necessities that we take for granted, such as 
electricity and safe drinking water, are increasingly 
available. These challenges must be undertaken amidst the 
uncertain process of establishing a broadly supported 
constitution and electoral process.
    We must also continue to support efforts to improve 
education and expand the role of women in Afghan society. I was 
encouraged by the progress on these fronts announced last 
Friday in a speech by our First Lady to the National 
Association of Women Judges. Mrs. Bush noted that four million 
Afghan children now go to school, including about one million 
girls. She announced efforts to establish a teacher training 
institute and to establish, or reestablish, the American School 
in Kabul, which had been an important center for education 
before the Taliban. She also highlighted the work of the 
University of Nebraska at Omaha, which has helped to edit and 
print five million textbooks in Pashtu and Dari. I know of 
Senator Hagel's great pride in this program.
    An important step to enhancing overall security in 
Afghanistan is expanding the reach of forces outside of the 
capital, Kabul. We're pleased that our NATO allies took over 
the International Security Assistance Force, the ISAF, in 
August. This week, the United Nations Security Council built on 
this positive development by voting to expand ISAF operations 
beyond Kabul. We thank the United Kingdom, Turkey, Germany, and 
The Netherlands, and others that have led and participated in 
ISAF over the past year, for their commitment to the fight 
against terrorism.
    Another opportunity to enhance security in Afghanistan is 
accelerating the deployment and expanding the capabilities of 
Provincial Reconstruction Teams, the PRTs. These teams have the 
potential to extend reconstruction efforts beyond Kabul in 
conjunction with the ISAF. We need to ensure that they have the 
resources necessary to continue this integrated mission.
    Our hearing today is intended to assess reconstruction 
efforts in Afghanistan and to review what else can be done to 
advance our political, economic, and security goals in that 
country.
    We are joined by two distinguished panels representing our 
government and the private sector. On our first panel, we will 
hear from Ambassador William B. Taylor, the State Department's 
Coordinator for Afghanistan; Mr. Peter Rodman, the Assistant 
Secretary of Defense for International Security Affairs; and 
General Gary North, Director of Politico-Military Affairs for 
South Asia on the Joint Staff.
    On our second panel, we will hear from Ambassador Peter 
Tomsen, former Special Envoy for Afghanistan; Dr. William 
Durch, senior associate and co-director of the Project on the 
Future of Peace Operations at the Henry L. Stimson Center; and 
Ms. Nancy Lindborg, executive vice-president of Mercy Corps and 
spokesperson for the InterAction umbrella group for non-
governmental organizations in Afghanistan.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    This week the Senate has been debating the $87 billion Emergency 
Supplemental Appropriations bill for Iraq and Afghanistan. Though most 
of the attention to the bill has focused on the funding devoted to 
Iraq, the bill includes $10.5 billion to continue military activities 
in Afghanistan and $1.2 billion in assistance to accelerate Afghan 
reconstruction. About one-third of the reconstruction funds are 
targeted at bolstering training and support for the new Afghan National 
Army and police forces. About $300 million will be devoted to 
infrastructure, including roads, schools and health clinics.
    It is clear from this supplemental request that President Bush is 
committed to succeeding in Afghanistan. Congress must be similarly 
committed to this goal. American national security and prosperity 
depend on Senate passage of the supplemental appropriations bill.
    Some of the debate on the supplemental has attempted to juxtapose 
spending requests for Iraq and Afghanistan with domestic spending 
priorities. Such debate may score some political points, but it is 
short-sighted. The viability of our economy and our ability to fund 
domestic programs in the long-run depend directly on winning the war on 
terrorism.
    We cannot leave Iraq or Afghanistan in a condition that breeds 
terrorists or festers as a symbol of American failure in the Middle 
East. Such an outcome would expand anti-U.S. resentment, weaken our 
international influence, undercut prospects for broader peace 
settlements in the region, and possibly encourage other governments to 
pursue weapons of mass destruction or terrorist sponsorship. These 
potential outcomes would make us more susceptible to catastrophic 
terrorist attacks. If such attacks occur, Members of Congress must 
understand that right behind the tremendous loss of life, the next 
casualties will be the future of the American economy and our ability 
to generously fund commitments to our seniors, to the education of our 
children, and to innumerable other important goals on which there is a 
broad consensus.
    In this context, we should see Afghanistan as not just a problem, 
but rather as an opportunity. Afghanistan was the opening front in the 
war on terrorism, and visible progress there will resonate for an 
international audience. Moreover, our experiences in Afghanistan can 
help us succeed in Iraq. In Afghanistan, we have broad international 
participation endorsed by a consensus UN Security Council resolution. 
We are already working successfully with an indigenous national 
government, and that government has done thoughtful planning for the 
future of its people.
    Afghanistan still presents enormous challenges. As in Iraq, 
security is the chief obstacle to achieving our post conflict goals in 
Afghanistan. The remnants of the Taliban regime and al-Qaeda continue 
attacks on U.S. and allied forces, as well as on civilians and 
international aid workers. The security situation has been declining 
over the last few months, forcing the suspension of critical assistance 
and undermining reconstruction and transition efforts. Establishing 
security is essential to begin the process of building a viable economy 
in Afghanistan, encouraging investment and developing a private sector 
that can generate income and jobs that are not tied to foreign 
assistance or the illicit drug trade.
    Afghanistan's population is far less educated than Iraq's, and it 
lacks abundant oil resources that can serve as an engine for 
reconstruction. Many areas of Afghanistan lack even rudimentary 
infrastructure, and the infrastructure that does exist is in disrepair. 
The Afghan government will require assistance to ensure that basic 
necessities that we take for granted--such as electricity and safe 
drinking water--are increasingly available. These challenges must be 
undertaken amidst the uncertain process of establishing a broadly 
supported Constitution and electoral process.
    We also must continue to support efforts to improve education and 
expand the role of women in Afghan society. I was encouraged by the 
progress on these fronts announced last Friday in a speech by our First 
Lady to the National Association of Women Judges. Mrs. Bush noted that 
four million Afghan children now go to school, including about one 
million girls. She announced efforts to establish a teacher training 
institute and to re-establish the American School in Kabul, which had 
been an important center for education before the Taliban. She also 
highlighted the work of the University of Nebraska at Omaha, which has 
helped to edit and print five million textbooks in Pashto and Dari. I 
know of Senator Hagel's great pride in this program.
    An important step to enhancing overall security in Afghanistan is 
expanding the reach of forces outside of Kabul. We are pleased that our 
NATO allies took over the International Security Assistance Force 
(ISAF) in August. This week, the United Nations Security Council built 
on this positive development by voting to expand ISAF operations beyond 
Kabul. We thank the United Kingdom, Turkey, Germany and the 
Netherlands, and others that have led and participated in ISAF over the 
past year for their commitment to the fight against terrorism.
    Another opportunity to enhance security in Afghanistan is 
accelerating the deployment and expanding the capabilities of the 
Provincial Reconstruction Teams (PRTs). These teams have the potential 
to extend reconstruction efforts beyond Kabul in conjunction with the 
ISAF. We need to ensure that they have the resources necessary to 
continue this integrated mission.
    Our hearing today is intended to assess reconstruction efforts in 
Afghanistan and review what else can be done to advance our political, 
economic, and security goals in that country. We are joined by two 
distinguished panels representing the government and the private 
sector.
    On our first panel, we will hear from Ambassador William B. Taylor, 
the State Department's Coordinator for Afghanistan; Mr. Peter Rodman, 
the Assistant Secretary of Defense for International Security Affairs; 
and General Gary North, Director of Politico-Military Affairs for South 
Asia on the Joint Staff. On our second panel, we will hear from 
Ambassador Peter Tomsen, former Special Envoy for Afghanistan; Dr. 
William Durch, senior associate and co-director of the Project on the 
Future of Peace Operations at the Henry L. Stimson Center; and Ms. 
Nancy Lindborg, executive vice president of Mercy Corps and 
spokesperson for the InterAction umbrella group for nongovernmental 
organizations in Afghanistan.
    We welcome all of our witnesses and look forward to their insights.

    The Chairman. We welcome all of our witnesses and look 
forward to their insights. But before hearing those, I 
recognize the distinguished Ranking Member of our committee, 
Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman, and 
welcome all. I'm anxious to hear your testimony.
    Let me begin--Mr. Chairman, you may have done this; I 
apologize for being a few moments late--by complimenting the 
Secretary of State and the President for a very important 
accomplishment at the U.N. today. Ever since the President made 
the U-turn in seeking international support a couple of weeks 
ago, it's been the hope and expectation of many of us that he 
would follow through on that, and he's done it. I think it's a 
very important step. Notwithstanding the fact that initially 
the Germans and the French and the Russians are saying they're 
not going to contribute forces or money, this is--there has 
been now a international ratification of the U.S. presence in 
the region, the U.N. blessing in the process, and the U.N. is 
invested. It took a long time in getting there, in my view, but 
it's there, and they're to be complimented for that.
    And the reason I mention that, it does relate, in my view, 
to the subject of our hearing today, even though that was not 
what the resolution is about. We're very slow learners, it 
seems, because we still have--which I hope this resolution 
reflects an end of--an internecine battle between the civilian 
military commanders and the State Department and others about 
how we should proceed in Afghanistan. We're going to be told 
today how progress is being made, and it's true. There's also a 
bunch of malarkey in what we're going to be told today, because 
these guys have to say what they have to say.
    The fact of the matter is, we've missed an opportunity to 
do what many of us on this committee, including the Senator 
about to sit down, have been pleading be done from the 
beginning. But because there has been this overwhelming 
reluctance on the part of some in the administration to get 
involved in genuine, quote, ``nation-building,'' we essentially 
elected a mayor of Kabul and turned the rest over to the 
warlords, and we're paying a price for it now, and I will not 
go through in any detail, notwithstanding many of the good 
things that are happening.
    Ever since the fall of the Taliban, the Pentagon has been 
pointedly refraining from taking any active, concrete steps to 
support a plan to expand ISAF. Now, you are engaged in an 
incredibly disingenuous undertaking, saying, well, the allies 
won't do it. And we'd come back and say, we spoke to the allies 
in Afghanistan, in Europe, in other capitals, and they said, 
we'll do it if you guys will be part of it. We were saying, no, 
no. No, thanks. We even stiff-armed the Germans and the French, 
who offered to send forces into Afghanistan early on.
    So hopefully this nonsense is about to come to an end and 
there really is a new policy in the making. Civilian leaders 
claim, as I said, none of our allies are willing to supply the 
necessary troops. And, as I said, this is always a cynical 
argument. When ISAF was first set up, I had a long, long talk, 
within months of us getting there, with its first commander, 
Major General John McColl, of Britain. He told me that other 
ISAF commanders, which they have since reiterated, that any 
expansion of the peacekeeping force would have to rely heavily 
upon the United States, not for troops, but for logistics, air 
lift, intelligence, and extractions capability. Every person I 
met on the ground in Afghanistan wearing an American uniform 
said, we must expand ISAF. Every one. You'd meet a single 
person, and I challenge the administration to give me the name 
of any high-ranking official who served in Afghanistan at the 
time on the ground actually shooting and getting shot at, who 
didn't think we had to expand ISAF beyond Kabul.
    But now our allies have come along. The Germans, I think, 
in large--for a number of reasons, not the least of which is a 
genuine attempt to begin to repair the rift that exists in the 
transatlantic relationships here--are already supplying 2000 
more troops to a NATO peacekeeping force, and they'll now 
supply 450 more.
    NATO allies are ready to step up to the plate and take on 
additional peacekeeping duties if we're willing to give the 
support they need. We, in Congress, have already made it really 
clear where we stand. We, last year, passed the Afghan Freedom 
Support Act [AFSA] authorizing a billion dollars for expansion 
of ISAF. So we don't have to tell you where we stand. We think 
it should have been done a year ago.
    So let's remember, with all due respect, the key issue 
here, for me at least, is the expansion of ISAF in a way to 
decrease our own burden of bringing about security in 
Afghanistan and give some prospect, some prospect, that there 
can be a government there that's going to be able to sustain 
itself after we've gone.
    I'll never forget walking into a high-ranking 
administration official and saying, but we have a security 
problem. They said, there's no problem with Afghanistan. And I 
said, what do you mean? Ismail Khan is running the show. She 
said, that's right. There's no problem. There's security. 
Ismail Khan is in charge. We never have been able to have a 
situation in Afghanistan where there are not warlords. Now I'm 
paraphrasing what was said in a meeting with high-level 
American administration officials.
    So our allies seem to be ready to begin to help us lighten 
the load. Every German, French, and Turkish soldier deployed to 
bring security to the Afghanistan countryside potentially frees 
up an American soldier to help fight the Taliban, which is--
they're in a resurgent stage, and hunt down al-Qaeda.
    And so, again, I have a longer statement, Mr. Chairman, and 
I'll ask unanimous consent that it be placed in the record, if 
I may.
    The Chairman. It will be placed in the record.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, in May of last year I voiced my concerns about the 
deteriorating security situation in Afghanistan. ``If current trends 
continue,'' I said in a floor speech, ``we may soon find that our hard-
won success on the battlefield has melted away.''
    I wish I could now report that events of the past year had proven 
my concerns ill-founded. But while our attention has been focused on 
the war in Iraq, we have failed to consolidate our victory in 
Afghanistan. As we consider the President's request for $87 billion to 
fund war and reconstruction operations on two separate fronts, it is 
high time for us to reexamine our policy in Afghanistan.
    The Taliban are regrouping at an alarming pace, and continue to 
mount ever-bolder attacks from bases in the barely-governable border 
region with Pakistan. As recently as March, the Pentagon was still 
describing Taliban action as ``onesies and twosies''--small-scale hit-
and-run assaults by one or two men.
    Well, this summer the enemy moved up to two-hundreds-ies. In 
August, the Taliban launched a series of raids in troop-strength of 
over 200. We're not talking about isolated pot-shots, we're talking 
about a genuine guerrilla insurgency.
    The Taliban and their al-Qaeda confederates roam freely through the 
entire south and southeastern portion of the country. Everywhere they 
go, they use murder, kidnaping, and the threat of even greater violence 
to compel cooperation from the local populace. They target any Afghans 
assisting reconstruction efforts. In September, for example, Taliban 
thugs murdered four humanitarian workers in Ghazni--for the ``crime'' 
of providing their community with drinking water. According to the only 
survivor of the massacre, the killers said, ``we warned you not to work 
for NGOs.''
    There is a vicious logic to such bloodshed. The Taliban uses 
terrorism to send the local population a vivid message: neither the 
Americans nor the central government will protect you.
    Our troops, and those of our coalition partners, are doing a 
remarkable job in combating the Taliban and al-Qaeda--but they're not 
tasked with the mission of providing security for the Afghan people.
    What's been the result? Reconstruction efforts in many parts of the 
country have been brought to a standstill. Humanitarian groups have 
withdrawn from Kandahar and other areas after the assassination of 
their staff.
    One aspect of the Afghan economy, however, has continued to thrive. 
Unfortunately, it's the drug trade. Last year--while the country was 
under U.S. military control--Afghanistan returned to its former 
position as the world's number-one source for opium and heroin.
    In February, at a hearing in the Foreign Relations Committee, I 
highlighted the nexus between drug trafficking and terrorism. 
``Warlords, drugs, and terrorists,'' I said at that time. ``The 
connection is as clear as a bell: Terrorists use drug profits to buy 
safe haven from warlords.''
    A few weeks ago, the U.N.'s top narcotics official made exactly the 
same point: ``The terrorists and the traffickers are the same people,'' 
said the executive director of the U.N.'s Office on Drugs and Crime. He 
said the U.S. had ignored his pleas to crack down on the drug trade in 
Afghanistan, despite the fact that opium and heroin profits are 
believed to enrich anti-American warlords.
    In 2002, Afghanistan produced 3,750 tons of opium. According to the 
UN, this year's harvest will be of a similar size. That's about twenty 
times the size of the harvest in the last year of Taliban rule.
    And the scale of the profits shows just how lucrative the business 
is for narco-terrorists. The drug trade is worth at least $1.2 billion 
annually to Afghanistan--an amount equal to the entire sum spent by all 
donor countries (including the U.S.) on relief and reconstruction last 
year, and more than double the budget of the Afghan government. Other 
estimates place the value of the trade twice as high, at $2.5 billion 
annually. That kind of money buys an awful lot of cooperation--and the 
terrorists know it. In Afghanistan, as everywhere else in the world, 
you get what you pay for.
    Which leads to the President's budget request: Why on earth are we 
STILL nickel-and-diming the effort to fight terrorism by draining the 
swamp in Afghanistan?
    The President proposes spending $1.2 billion on relief and 
reconstruction efforts in Afghanistan in FY 2004. This sum is 
inadequate--and there's even less to the proposal than meets the eye. 
One-third of the sum is recycled money--funds raided from existing 
accounts, and desperately needed elsewhere.
    What remains is a mere $800 million in new money--less than one 
percent of the overall package!
    I say it again: You get what you pay for. If the administration 
isn't willing to make good on President Bush's promise of a Marshall 
Plan for Afghanistan, we run the grave risk of seeing all our hard-won 
military gains evaporate.
    But, as I've said before, this isn't just a question of money. More 
than anything else, it's a question of security.
    ``Anyone knows that without security, very little else is possible; 
humanitarian workers can't move around, internally displaced people 
won't go back to their homes, refugees won't return to the country, the 
Afghan diaspora won't be willing to send money in and send in 
themselves to try to help put structure back into that terribly war-
torn nation.''
    These aren't my words--they're a direct quote from Secretary of 
Defense Rumsfeld [April 22, 2002].
    Everybody who's looked seriously at the issue agrees: the best way 
to bring stability to the country would be to expand the U.N.-mandated 
International Security Assistance Force, or ISAF. Since its creation, 
the force has been permitted to operate only in the capital--and 
because of its presence there, Kabul is now one of the few secure sites 
in Afghanistan.
    On Monday, Mr. Chairman, the U.N. Security Council unanimously 
voted to expand the mandate of ISAF. The impetus for this development 
was the offer, by our NATO ally Germany, to send several hundred troops 
to the city of Kunduz. Ever since the fall of the Taliban, I (along 
with other members of this committee) have been forcefully advocating 
an expansion of ISAF. And ever since the fall of the Taliban, the 
Pentagon has been pointedly refraining from taking any active, concrete 
step to promote such a plan.
    The civilian leaders of the Pentagon claimed that none of our 
allies were willing to supply the necessary troops. This was always a 
cynical argument. When ISAF was first set up, I had a long talk in 
Kabul with its first commander, British Maj. Gen. John McColl. He told 
me, and other ISAF commanders have since reiterated, that any expansion 
of the peacekeeping force would have to rely heavily on the U.S--not 
for troops, but for logistics, airlift, intelligence, and extraction 
capabilities. Without such support, any Pentagon talk of welcoming an 
expansion ISAF is merely empty rhetoric.
    Well, thank God for our allies. The Germans are already supplying 
more than 2,000 troops to the NATO peacekeeping force, and they'll now 
be supplying 450 more. Other NATO allies are ready to step up to the 
plate and take on additional peacekeeping duties--IF we're willing to 
give them the support that they need.
    We in Congress have already made clear where we stand: The 
Afghanistan Freedom Support Act authorized $1 billion for the expansion 
of ISAF. If the administration wants to back up the President's words 
with action, all they have to do is request appropriation of these 
funds.
    Let's remember the key issue here: expansion of ISAF is a way to 
decrease our own burden for bringing security to Afghanistan. Our 
allies are willing to lighten our load. Any additional resources we put 
into this endeavor will be more than matched by the benefit we receive.
    The U.N. peacekeeping effort is a force multiplier: every German, 
French or Turkish soldier deployed to bring security to the Afghan 
countryside potentially frees up an American soldier to fight the 
Taliban, hunt down al-Qaeda, or (God willing) maybe even rotate home 
sooner.
    This is a turning point--a moment of great danger, but also of 
great opportunity. The danger lies in doing nothing--just letting 
current trends continue, idly permitting our victory in Afghanistan to 
turn into a long-term defeat. The opportunity lies in taking action--
actively supporting the expansion of ISAF, using it to stabilize the 
country and lay the groundwork for reconstruction. The President's 
massive $87 billion spending request also provides us with an 
opportunity: if we spend a tiny fraction of this money on Afghanistan's 
recovery--if we provide adequate funding for reconstruction efforts and 
for expanded peacekeeping operations--we can help safeguard our own 
national security.
    You get what you pay for.
    I welcome our distinguished guests, and look forward to hearing 
their thoughts on this vitally important topic.

    Senator Biden. So let me conclude by saying that I really 
am prayerful, as they say, that what we're beginning to see is 
a reflection of a change of policy of this administration 
toward one failed state that we're trying to reconstruct, 
called Afghanistan, and preventing another state from becoming 
a failed state, called Iraq. Because the one thing I assume we 
could all agree on, if we fail in Afghanistan, we are going to 
be talking about, in my view, a country seven times as big, 
with nuclear weapons sitting on one border, and a country that 
is, in its present security leadership, hostile to the United 
States on another border, with more than seven times, 
probably--I guess it's probably 14 to 15 times the population, 
seeking nuclear weapons. And if that is accompanied by the 
bookends of us not succeeding and guaranteeing the peace in 
Iraq, we're in for, as they say on the east side of Wilmington, 
Delaware, a world of hurt that has nothing to do with 
terrorism, that goes far beyond terror, far beyond terror.
    So I hope you're here to tell us the good news about your 
overwhelming enthusiasm supporting expanding ISAF. I hope 
you're about to get in the program. Because if you're not, I 
think we're in trouble.
    I yield the floor.
    The Chairman. Well, gentlemen, you have your challenge.
    And we look forward to your testimony, in this order--first 
of all, Ambassador Taylor, then Assistant Secretary Rodman, and 
Brigadier General Gary North.
    Ambassador Taylor.

  STATEMENT OF HON. WILLIAM B. TAYLOR, JR., STATE DEPARTMENT 
    COORDINATOR FOR AFGHANISTAN, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Taylor. Mr. Chairman, thank you.
    We're up to this challenge. I think there will be more of 
the news that you and Senator Biden have been looking for in 
this discussion. I hope there will be a minimum of malarkey and 
nonsense, that you will----
    Senator Biden. That was a generic assertion. It wasn't 
directed to you.
    Ambassador Taylor. No, we don't--we're not worried.
    But there is good news and bad news coming out of 
Afghanistan, and I don't want to be accused of just giving you 
the good news. I'll start off with the bad news.
    The bad news is--we read about all the time, the security 
situation, in particular in the south and southeast, is not 
good. In fact, it's getting worse. Poppy is being grown in 
ever-broader fields. The violence against civilians, the 
violence against the military, the violence against Afghans, 
the violence against our aid workers is increasing, in 
particular in the south and the southeast, along that belt, 
along that border with Pakistan.
    The central government is more than a mayoralty in Kabul, 
but it doesn't have full control over the entire country. There 
are strongmen--some people call them warlords--out in the 
countryside that are causing trouble, are harassing Afghans, 
that are extorting money from businesses, that are fighting 
each other, that are stealing from the government. An example 
of that, of course, we were just seeing in Mazar, has been in 
the past week, we've seen these kinds of problems.
    There's good news, however, coming out, as well. And this 
is just the straight--these are the facts. This is not to gloss 
it. Women are more free to participate in public life than 
they've ever been before, I believe is a fair statement. As 
they appear in public, they are increasingly appearing in 
scarves, not in burqas. I was there for 9 months, and in the 
beginning of my 9-month period, about a year ago now, I would 
bet--this is in Kabul, but at--other places will be a little 
different, but in Kabul 90 percent of the women in public were 
in burqas. When I left last summer, in July, it was down to 
about 60 percent, an improvement. And I'm told--I was there a 
couple of months ago--it continues to come down. There is 
progress here on the social front.
    Afghanistan is now governed by a President and an 
administration that, although a coalition, not all from the 
same party, not all seeing exactly the problems and the 
solutions in the same way, but, nonetheless, a government that 
has held together for 18 months. It has held together, and it 
continues to govern. We're not worried about fighting within 
the government. We are seeing politics in Kabul. This is, I 
think, an advance over where it had been before.
    They are about--the Karzai government is about to publish a 
constitution. The constitution has been in the making for 
months. It is, by most accounts, a good constitution. It will 
respect human rights, equal treatment for women. There are 
provisions in there that--at least in the earlier drafts, that 
we have problems with, we continue to work with them on. 
President Karzai and others on the commission drafting the 
constitution listened to these. But our sense is that this is 
going in the right direction. It will establish elections for 
next summer, for next June.
    On this business of the mayoralty of President Karzai in 
Kabul, he has taken steps over the past couple of months, 
really since the summer, to expand the influence of his 
government. He's done this in a couple of ways. One is, he has 
fired some Governors. He has switched some Governors. He pulled 
some Governors from provinces back up into Kabul. He sent some 
of his trusted ministers, people who are clearly loyal to him, 
to take the Governor's mansions in several of these provinces. 
He has stripped the Governor of Herat of his military title. He 
has demanded that the Governors in these various places that 
imports come in, that those Governors send in the revenues to 
the central government, which they had not been doing. That's 
what I was talking about earlier, on stealing from the 
government. This has been the demand, and he has now enforced 
that demand.
    Senator Lugar indicated at the beginning--he actually has 
enabled me to shorten my remarks dramatically, because he went 
through some of the good things that are going on on the 
Provincial Reconstruction Teams, as an example. These small 
military teams are in four places around the country right now. 
They will be in another four or five over the next 2 or 3 
months. These are having a great effect already in the areas 
that they are. Do they need more resources? You bet. Or should 
we have more of them? Absolutely. And I'm sure we can talk 
about that. But the point is, we are getting forces, military 
forces, together with civilians, USAID and the State 
Department's representatives, in these PRTs, out into the 
field, and they are having a good effect.
    You both mentioned ISAF and the expansion of ISAF into 
other provinces. This could happen in a couple of ways. And the 
German PRT is an example of that ISAF expansion. There could be 
other models that we ought to talk about.
    Disarmament is about to start. Later on this month, on the 
25th of October, in Konduz, no coincidence that that is one of 
our PRT locations, a pilot program to disarm militias will 
start. So in less than 2 weeks. This will be a pilot program 
that will be followed with other pilot programs in Mazar, also 
a site of a PRT, and in Gardez, one of the first PRTs that we 
have. Again, the ability for the United States and Coalition 
partners to get out into the regions, out into the provinces, 
to improve the security, to improve the ability to provide 
reconstruction support, and to demonstrate to the people of 
Afghanistan that the Government of Afghanistan is not confined 
to Kabul, I think is a major accomplishment of these PRTs.
    Reconstruction is accelerating after a slow start, I will 
say. The headline of our reconstruction effort is a major road 
from Kabul to Kandahar. The President has committed the United 
States to completing this road, to paving this road, by the end 
of this year. Now, this will connect the capital in the 
northern part of the country, if you will, to the second 
largest city in the Pashtun Belt. This will have political 
benefits, it'll have economic benefits, it has security 
benefits if you can drive quickly on this road, if you can go--
right now, in the worst parts of this road, you have to average 
about 15 kilometers--about ten miles an hour. It's not hard to 
stop a car going ten miles an hour to ask for money; and these 
illegal checkpoints up and down this road, that happens. If, on 
the other hand, you are able to drive 60, 70, 80 miles an hour, 
as the Afghans will, on this road, and are on the paved 
portions of this road, security is better, medical care is 
better, the benefits of this road are dramatic, and this is a 
major commitment of the United States to Afghanistan, from 
President Bush to President Karzai.
    Failure is not an option in Afghanistan, as you've both 
said, but it's still possible. We need to do more. We need to 
accelerate what we are doing. As you have both indicated, the 
President is asking, in the supplemental that you're debating 
right now, for another billion dollars. On top of a billion 
dollars, it's $920-some-million that we are now putting in, and 
this money will go for security, for reconstruction, for 
democratic development. Senator Lugar has already gone through 
a lot of this. I won't go through the details, but that's in my 
prepared text, Mr. Chairman, which I hope can be entered into 
the record.
    So, first, resources; second, personnel. You're about to 
receive the President's nomination for the new Ambassador to go 
out there, and that will be before your committee very shortly. 
In addition, there will be a small team of senior advisors who 
will go out with the new Ambassador to help move forward, to 
help accelerate these programs that we've been talking about. 
We've got the resources. Now we're going to talk about adding 
people to help move this thing forward, move this 
reconstruction work forward.
    And, finally, a new focus. So in addition to new resources 
and new people, a new focus. Unity of effort, which is very 
important in Afghanistan, will be improved very shortly as the 
commander of forces, who's been in Bagram, moves down to Kabul. 
And this will enable the military commander, the Ambassador, 
USAID efforts, the entire embassy work to be all co-located. 
This, I think, will also contribute to an acceleration and a 
coherence of a policy.
    Mr. Chairman, I will stop there, leave it to my colleagues 
to--and we look forward to your questions.
    [The prepared statement of Ambassador Taylor follows:]

  Prepared Statement of Hon. William B. Taylor, Jr., State Department 
         Coordinator for Afghanistan, U.S. Department of State

    Mr. Chairman, we have the opportunity to help the government of 
Afghanistan succeed this year. Afghanistan is about to adopt a 
constitution in December and is preparing for elections next summer. 
But there are forces that are determined to block that success. For us, 
failure is not an option. But it is unfortunately still possible. That 
is why we need to refocus on Afghanistan, provide adequate resources 
and support this Afghan government.
    Your hearing today is a welcome opportunity to discuss these goals.
    One can focus on the bad news coming out of Afghanistan or the 
good. There is plenty of both.
    Mr. Chairman, Afghanistan remains a desperately poor country, with 
tattered infrastructure, a deteriorating security environment in the 
south and east, an unacceptable level of poppy cultivation and a 
central government whose authority is resisted in the some of the 
provinces.
    Increased violence against international security and development 
personnel and against innocent Afghans is also a cause for real 
concern. The security situation all along the border with Pakistan has 
clearly worsened recently. It is particularly worrisome that Taliban 
units appear larger and better organized. The deterioration has led 
some humanitarian organizations to curtail important aid programs, 
jeopardizing key development goals in affected areas.
    The central government continues to have difficulty extending its 
authority and providing services due to financial and other 
constraints. Too many regions remain under the sway of local strongmen 
supported by private armies that have sometimes only limited loyalty to 
the central government; these men terrorize the local Afghans, extort 
money from businesses, steal from the government and fight one another. 
The fighting in Mazar-e Sharif last week is only the most recent 
example.
    Poppy production and narcotics trafficking have continued within 
Afghanistan since Operation Enduring Freedom began in late 2001. We 
estimate that some 30,000 hectares were under cultivation last year and 
that the crop this year may be even larger.
    But there is good news coming out of Afghanistan as well.
    Women are more free to work and to go to school. Gradually, as they 
appear in public, women are replacing their burqas with scarves. A 
variety of media and press outlets have emerged, representing a range 
of political and social viewpoints. Numerous radio stations are up and 
running.
    Politically, Afghanistan is now governed by a legitimate leader, 
selected by Afghans themselves in a peaceful, representative process. 
That in itself is unprecedented in Afghan history.
    Since the inauguration of his government 16 months ago, President 
Karzai and his government have been actively implementing the Bonn 
Agreement. They have established judicial and human rights commissions 
to try to protect the rights of minorities and women. They have 
established a Constitutional Commission that is now finalizing a draft 
Constitution that should be released to the public within days and 
adopted by a Constitutional Loya Jirga later this year. By most 
accounts the constitution will protect human rights, establish a 
separation of powers and institutionalize democracy.
    The Afghan Government is steadily strengthening the institutional 
capacity of its ministries. It has put a systematic budget process in 
place and overseen the issuance of a new currency one year ago.
    The Government has also established an electoral commission that is 
now working with the UN and international donors to prepare for nation-
wide elections next summer.
    President Karzai has taken strong steps recently to extend his 
government's reach across the country. He has replaced seven governors, 
including the powerful governor of Kandahar. He stripped military 
command from the governor of Herat. He demanded that governors remit 
the customs and other revenues that they collect to the central 
government, and he sent his Finance Minister to each of the major 
provinces to enforce this demand. President Karzai recently reformed 
the Ministry of Defense.
    Meanwhile, the Coalition is deploying small military teams around 
the country to enhance security, extend the reach of the central 
government and help with reconstruction. These Provincial 
Reconstruction Teams (PRTs), established in Gardez, Bamiyan, Kunduz, 
and Mazar-e Sharif, have been well received by the local population and 
have begun to prove themselves to the skeptical NGO community. The U.K. 
and New Zealand are leading two of the PRTs, and the Germans are about 
to take over the PRT in Konduz. The United States is preparing to 
dispatch similar teams to other areas, including Kandahar, Jalalabad, 
Parwan, Herat and Ghazni in the next two and a half months. The British 
PRT in Mazar played an important role in calming the tensions between 
two competing commanders in the region last week.
    In August, NATO took over the International Security Assistance 
Force in Kabul, the alliance's first major deployment outside Europe. 
NATO has given its preliminary approval for an expansion of the ISAF 
mandate beyond Kabul, which could further extend security through PRTs 
or another ISAF mechanism. In New York, the U.N. Security Council has 
just agreed on a UNSC resolution approving the expansion of ISAF beyond 
Kabul to the provinces of Afghanistan. The international community and 
the United Nations are working very well together in Afghanistan.
    The international coalition is building a new Afghan National Army. 
This effort, led by the United States and supported by France, Great 
Britain and many other nations, will by next summer provide President 
Karzai with the single, largest, best trained military force in the 
country.
    Later this month a pilot disarmament project will begin in Konduz. 
This effort will be followed by disarmament pilot projects in Gardez, 
Mazar and Kabul.
    On the economic front, the major cities of Afghanistan are 
experiencing new growth. Shops are full of goods; streets are bustling. 
Legal economic growth last year was 30 percent; it is estimated to be 
20% this year.
    Afghanistan is expected to have the best harvest in 25 years, with 
the more stable northern areas producing a significant surplus.
    The Afghan people are beginning to see the fruits of international 
development programs. The road from Kabul to Kandahar will be paved by 
December 31, this year. This will cut the travel time from the capital 
to the second largest city from 15 hours to five. Schools are being 
built and clinics staffed and equipped.
    The Afghan people are beginning to anticipate a more hopeful 
future. They are tired of war and the politics of extremism that made 
Afghanistan a desperate and dangerous dead end.
    The American and international presence in Afghanistan is welcomed 
by most Afghans. The concern most Afghans express is that we not leave 
too soon, before the job is done. We did that before.
    Last month we marked the act of war that took place on our soil two 
years ago, and this is the point to stress: Afghanistan no longer 
harbors terrorists. It is no longer a threat to the United States and 
the world. On the contrary, it is a country whose leaders and people 
are committed to a new future as responsible members of the world 
community.
    The Afghan people have accomplished a great deal--and Congress, the 
American people and the international community can take pride in what 
we have done to assist them--but the gains to date remain tenuous, and 
much remains to be done.
    That is why the President announced a new initiative to accelerate 
progress in Afghanistan. Let me outline the key components of this 
initiative. It consists of new funds, new people and new focus.
    As part of the Supplemental Appropriation, the President is asking 
for $799 million in additional funding for accelerating success in 
Afghanistan. This sum will be augmented by $390 million that is being 
reprogrammed from existing DOD and State Department resources, for a 
total of almost $1.2 billion to be committed between now and next June. 
This will be on top of regularly appropriated funds, which have totaled 
over $900 million annually in 2002 and 2003.
    This new assistance will be used to address the three major 
challenges we confront in Afghanistan: the need, first and foremost, to 
improve security; the need, secondly, to accelerate reconstruction; and 
finally, the need to support liberal democracy as Afghanistan writes a 
constitution and prepares for elections next year.
    The most significant challenge today is security, especially in the 
south and east along the border with Pakistan, where the Taliban still 
has some support. Continued insecurity risks slowing down the essential 
development efforts now underway, undermines the credibility of the 
central government and threatens prospects for free and fair elections 
next year. Therefore, almost half of this package will be devoted to 
security: accelerate the training and deploying of the Afghan National 
Army, build a new police force, encourage disarmament and 
demobilization of militias, and protect Afghanistan's leaders.
    Developing the Afghan government's own capacity to address security 
threats is in Afghanistan's interests and ours. Afghan National Army 
units are already participating in operations against the Taliban. 
Strengthening Afghan security institutions is the single most important 
step we can take in extending the reach and authority of the central 
government. Afghanistan's legitimate leaders must have the capacity to 
fill the security vacuum now being filled by local militia leaders and 
their forces.

  <bullet> The support for the ANA will help establish and equip the 
        essential core of a multi-ethnic national army, with 
        approximately 10,500 soldiers trained by next summer.

  <bullet> Assistance to the police will enable training of 18,000 
        additional national police by mid-2004 and their deployment 
        throughout the country. It will also provide training, 
        equipment and infrastructure for 4,000 members of a new Afghan 
        Border Police. It will fund a new 2,600-person highway patrol 
        to protect commerce and travelers on Afghanistan's roads and 
        end the unapproved tolling stations that are financing private 
        militias.

  <bullet> Hand in hand with these programs to build the central 
        government's security capabilities, we will provide additional 
        funds for programs to disarm and demobilize members of Afghan 
        militias and reintegrate them into society.

  <bullet> We will also increase funding for measures to provide 
        physical security to Afghanistan's President, which is critical 
        to the stability and progress of that country.

    About 30 percent of the $1.189 billion package will be for 
reconstruction assistance, including roads, schools, health facilities, 
small projects and initiatives to provide the framework for private 
sector growth. These infrastructure projects will also have a broader 
impact, especially roads that will link together the major cities of 
Afghanistan, drawing the country together economically and politically.

  <bullet> A top priority for the new funds will be accelerated work on 
        roads, including the road linking Kandahar and Herat, as well 
        as over 600 miles of secondary roads that farmers use to bring 
        their crops to market.

  <bullet> Funds will also be used to build or rehabilitate 150 
        additional schools--with the target of raising enrollment to 85 
        percent--and to build 60 additional health clinics that could 
        reach an additional 3 million Afghans.

  <bullet> Other areas that will receive additional funding include 
        community-level projects implemented by Provincial 
        Reconstruction Teams, as well as industrial parks, power 
        generation projects and other initiatives to improve the 
        physical and institutional infrastructure for private sector 
        growth.

    The third element of this package, accounting for about 20 percent 
of the total, will be funding for democracy and governance programs, 
including support for the Constitutional Loya Jirga and elections, 
which will give Afghans from every corner of the country a voice and 
stake in the country as a whole, and help strengthen Afghanistan's 
identity as a nation. Some of our planned governance funding will be 
used to help the government pay salaries; that too will strengthen the 
authority of central institutions. We will provide technical experts to 
ministries and will enhance the capabilities of the U.S. embassy to 
support the Karzai government.
    We expect that strengthened security institutions, including the 
border police, will help address the scourge of narcotics trafficking. 
Improved roads will help farmers produce legitimate, perishable crops 
that can be competitive in faraway markets, instead of cultivating 
poppy. Roads will also strengthen the central government's ability to 
respond to reports of poppy cultivation. Other reconstruction and 
development programs will offer alternative livelihoods. But I would 
stress that our most effective strategy in combating narcotics will be 
to strengthen the central government's authority throughout 
Afghanistan.
    In addition to new funds, the President is sending new people to 
Kabul. Your committee will soon consider the nomination of Dr. Zalmay 
Khalilzad to be the U.S. Ambassador to Afghanistan. The embassy will be 
strengthened by a group of senior advisors to the Ambassador who will 
help accelerate the reconstruction efforts. The embassy staff and 
security detail will be increased. USAID is sending new people to 
manage its programs. These new people will require additional space, as 
anyone who has visited Embassy Kabul will attest. The Government of 
Afghanistan is allowing us to build a temporary facility right across 
the street from the existing compound to house these new people.
    Finally, new focus. To enhance unity of effort in Afghanistan the 
military headquarters, previously located an hour north of Kabul, is 
moving to Kabul so the military and civilian authorities can be co-
located. The Combined Forces Commander's office will be ``right down 
the hall from the Ambassadors.'' This will enable us to concentrate our 
military, diplomatic and reconstruction efforts to achieve success.
    Mr. Chairman, we are at a defining moment in Afghanistan. Our 
success in consolidating and building on the progress to date will have 
lasting implications for Afghans and Americans alike.
    This three-pronged strategy, focusing on security, reconstruction 
and democracy and governance is our best opportunity to ensure success.
    There is no question that the challenges are daunting and that much 
remains to be done. But it is equally true that we have much to build 
on, and we have the Afghan people on our side and on the side of their 
many friends in the international community. Afghans are eager to turn 
a new page in their troubled history.
    In February, President Bush and President Karzai reaffirmed

        their common vision for an Afghanistan that is prosperous, 
        democratic, at peace, contributing to regional stability, 
        market friendly, and respectful of human rights.

    With Congress's support, I am confident that we will realize that 
vision.
    After my colleagues speak, we would be pleased to answer your 
questions. Thank you.

    The Chairman. Well, thank you very much, Ambassador Taylor.
    Let me just mention that the full statements that each of 
you have will be made a part of the record, and you will not 
need to ask for permission, but proceed as you wish to either 
summarize or give the statement. We're here to hear from you in 
whatever form would be most helpful.
    Mr. Rodman.

   STATEMENT OF HON. PETER W. RODMAN, ASSISTANT SECRETARY OF 
DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF 
             DEFENSE, THE PENTAGON, WASHINGTON, DC

    Mr. Rodman. Thank you very much, Mr. Chairman, Senator 
Biden. I'll just touch on a few points, if I may, not read my 
whole statement.
    I want to thank you and congratulate you both for holding 
this timely and important hearing, especially in light of the 
President's supplemental request. I agree completely with what 
both of you said about what is at stake here, and that is the 
administration's commitment, as well. I will do my level best, 
Senator Biden, to keep this a malarkey-free zone but I will 
take your advice, if I may----
    Senator Biden. That's all right. You're in the Congress, 
you're allowed to----
    Mr. Rodman. Well, we owe you our best judgment. But I will 
also take your advice, if I may, not to rehash the debate of 
the past. We do have a different perspective on the past. But I 
also see a convergence, a lot of things happening now, which, 
as you said, you're happy with. So we're moving forward in a 
good direction, and that's the spirit in which I think we 
should have this discussion.
    Let me say a little bit about the security situation. This 
is clearly General North's area of competence, but there are 
two kinds of security problems. And one is, of course, the 
enemy, the Taliban and al-Qaeda, who are seeking to disrupt. 
General North will know the facts better. The second challenge 
is the intramural conflicts among the Afghan forces, as we have 
a central government that has not yet established its 
authority. This is the ``warlord'' issue.
    My feeling is that both of these are manageable. The 
Taliban and al-Qaeda will seek to disrupt, but we're ready for 
them. The fact that they will seek to disrupt and whether they 
succeed or not are two different issues. We think we're 
prepared for an offensive that they may be launching, And it 
may be, at the end of the day, after they test the solidity of 
what we are building, that it is the enemy, not we, who have 
hard strategic choices to make.
    The other issue, the warlord issue, is a political problem. 
We believe we have a strategy to deal with that. It is 
essentially President Karzai's strategy, but it has a number of 
elements. It, of course, is building Afghan institutions, like 
the army and police. That's something that we've discussed for 
a long time. We also believe, second, that President Karzai has 
a well-thought-out political strategy to assert his authority, 
and we've seen this since early this year. As Ambassador Taylor 
mentioned, in the spring, the President and his Finance 
Minister said, OK, the customs revenues will flow to the 
central government as they are supposed to do. He replaced 
Governors one after the other, and there are other things I 
suspect he has in mind. He's consulted with us, and we have 
signaled our backing for what he is doing. What we've seen in 
the last several months is a President who is asserting his 
authority and succeeding because he has prepared the ground 
whenever he has undertaken some new step forward.
    The third element of the strategy is the PRTs, and we think 
this has been a success. This is an idea that was conceived of 
about a year ago to advance a number of purposes--to facilitate 
reconstruction, to help extend the authority of the central 
government--to be, in some sense, a surrogate for the authority 
of the central government--and to contribute a little bit to 
security. And we've also succeeded, as we've discussed, in 
internationalizing it. This is yet another vehicle for 
internationalizing the effort. And so we're pleased that the 
British and the New Zealanders and now the Germans are engaging 
in this. We also think that given what the Germans are doing, 
there may be others that will follow along the way they have 
done.
    And that, the internationalization of the effort, is the 
fourth point I would stress. We are very pleased that the 
Germans are taking over the PRT. When they suggested doing this 
under ISAF auspices, we said fine, and we're prepared to work 
out some details. There are issues like deconfliction, which 
become a little different in this circumstance, but they are 
soluble, and that was our attitude as soon as we heard that 
suggestion. And NATO, as you know, in the past week, has 
plunged into this exercise after taking over ISAF earlier in 
the year. So we're now looking at the question of expanding 
ISAF around the country, and the question of how the PRTs fit 
into this. All of this is on the table. NATO is addressing this 
energetically, and we will do our part to make this work.
    So we think this is very positive. It's not as easy as all 
that. One of the concerns we have with PRTs under ISAF is, 
well, where are the troops going to come from? It's great to 
have NATO make this commitment, and we welcome it, but the time 
will come when we want to identify forces, and we hope our 
allies will identify forces to make this a reality. We will do 
our best to encourage this and we welcome it.
    I will conclude right there, and say that we agree with you 
and the committee on the stakes involved. We don't 
underestimate the problems. I agree with Ambassador Taylor on a 
lot of things that are negative in the country. We also think 
that after 25 years of the nightmare that Afghanistan has been 
through, and the fact that even before all of this began 25 
years ago Afghanistan was a poor and isolated country, we think 
that only 2 years after liberation the country is on a good 
track. The American people can look back on the liberation of 
Afghanistan as something very positive, and we can be confident 
that we're moving in the right direction.
    The purpose of the President's supplemental request is to 
invest--in a serious and significant way that has a big 
impact--in some progress that we think is taking place. We 
think the Afghan people deserve that.
    Now, what we did in Afghanistan, we did for our own 
security, not only out of altruistic motives, and the same is 
true of our effort today to ensure that Afghanistan succeeds 
and never again becomes a safe haven for terrorists.
    Thank you.
    [The prepared statement of Mr. Rodman follows:]

  Prepared Statement of Hon. Peter W. Rodman, Assistant Secretary of 
 Defense for International Security Affairs, U.S. Department of Defense

    Mr. Chairman, distinguished members, I am pleased to have this 
opportunity to testify before the Committee about our policy and our 
progress in Afghanistan.
    The Afghan people have been through a terrible ordeal over the last 
quarter-century. Their country was one of the poorest and least 
developed in the world, even before the ordeal began. But then came 
Communist misrule, a Soviet invasion, a war of liberation against the 
Soviet occupation, and then the Taliban. An entire generation of war 
and tyranny left the country's institutions, economy, and social 
structure in shambles.
    In the two years since Operation Enduring Freedom helped Afghans 
liberate their country, we see a nation rebuilding; we also see large-
scale international support for that rebuilding:

  <bullet> The Bonn Agreement filled the political vacuum by bringing 
        Afghan political forces together in a process to build first an 
        interim government, then a transitional government, and soon an 
        elected, permanent constitutional government.

  <bullet> Famine was averted in 2001; tons of hybrid feed were 
        distributed. A new currency was introduced; International 
        Monetary Fund arrears were cleared. International development 
        assistance is flowing in. A national ring road is being built 
        to promote not only economic growth and regional trade but 
        national unity.

  <bullet> Two million refugees have returned home.

  <bullet> New security institutions are being built--Ministries of 
        Defense and Interior, a National Army, national police, and 
        border and highway police.

    This is, overall, a remarkable story. We acknowledge the continuing 
problems; no one can doubt how serious some of them are. But how could 
these problems be unexpected in a country that has been through such an 
ordeal? Recognizing these challenges, the United States is redoubling 
its effort to accelerate the pace of the progress being made. This 
effort is reflected in the President's Emergency Supplemental 
Appropriation request for almost $800 million for Afghanistan and in 
renewed efforts to galvanize international support.
                         the security situation
    Let me focus on the security situation.
    The Afghan people face two sources of insecurity. The first is the 
operations of the enemy--the Taliban, al Qaeda, and spoilers like 
Gulbuddin Hekmatyar. The second is the degree of instability occasioned 
by rivalries among local commanders (or ``warlords'') not yet fully 
responsive to the authority of the central government.
    We take seriously both of these challenges. The Coalition is 
working with the government of President Karzai to address them. We 
think that neither challenge is a threat to the consolidation of the 
political process laid down in Bonn, or to the progress being made.
    We have seen the Taliban step up their military activities in 
recent months. After operating in only small units, the Taliban have 
attempted to graduate to larger-unit attacks, sometimes with more than 
100 fighters. The net result so far, however, has been that CJTF-180--
and Afghan forces--have disrupted enemy operations and inflicted 
serious casualties on the enemy.
    Operations Warrior Sweep (since early August) and Mountain Viper 
(since early September) have driven the enemy out of the sanctuary they 
sought in the south and southeast; this resulted in the capture of over 
800 weapons, grenades, mortars, and rockets, and over 50,000 lbs. of 
ammunition. As many as 200 Taliban and other enemy fighters were 
killed.
    We anticipate that the challenge from the enemy will continue. They 
may attempt a fall offensive of some kind. But the Coalition and the 
Afghan government are ready. The enemy will certainly test us, but we 
expect that this offensive will fail. At that point, the enemy--not 
we--will face hard strategic decisions.
    We are greatly encouraged by Pakistan's recent military operation--
Operation al-Miwan--against the Taliban in the Federally-Administered 
Tribal Areas (FATA). Pakistan's cooperation is crucial.
    The second security concern, as I mentioned, is the instability 
that remains as the central government gradually extends its authority 
over the country. We are working with President Karzai and the 
international community in four principal areas to deal with this 
challenge.
    The first is the development of effective, national, and 
professional security institutions, particularly the Afghan National 
Army (ANA) and the national police and border and highway police.
    This Committee is familiar with our program to build and train the 
ANA. In September the Afghan government appointed the leadership of and 
activated the Central Corps in Kabul. Eleven ANA battalions have now 
graduated from the Kabul Military Training Center, and a twelfth is in 
training. Next year, we hope to accelerate the rate of training from 
6,000 a year to 10,000. Of the eleven graduated battalions, we have 
4,000 soldiers either deployed with Coalition forces or completing more 
advanced or specialized training.
    ANA battalions have ably conducted presence patrols and combat 
operations. The reaction of the Afghan public to ANA presence patrols 
has been uniformly positive. As one local leader said, ``Wherever the 
ANA goes, stability breaks out.'' The ANA has also performed well in 
combat.
    The two greatest challenges are attrition--a problem that is very 
real but that has recently diminished--and a large gap between the high 
demand for the ANA for a variety of missions and the limited supply so 
far of ANA units.
    In parallel with the building of a truly national army, we have 
also worked to help President Karzai and Defense Minister Fahim reform 
the Ministry of Defense, so that all Afghans will see it as a genuinely 
national institution. In September, President Karzai announced new 
appointments for the 22 top positions, introducing greater political 
and ethnic balance. This reform process, we expect, will continue.
    The Ministry of Interior controls the National Police and the 
Border Police. The Department of Defense hopes to be able to support 
our State Department colleagues in assisting these efforts as well.
    Second: At bottom, the warlord problem is a political problem. 
Since last spring, our government has worked with President Karzai in 
support of his political strategy to extend his national authority. We 
believe he has a well-thought-out strategy, and we have made clear the 
U.S. Government's backing of his reform efforts:

  <bullet> Last May, with our support, the central government concluded 
        an agreement requiring provincial governors who controlled 
        customs posts to turn over revenues to the Ministry of Finance. 
        Virtually nothing had been received before that agreement. 
        Since then, more than $90 million has been turned over, putting 
        the central government ahead of its revenue projections for 
        this year.

  <bullet> In 2003, President Karzai and the Ministry of Interior have 
        replaced about one-third of Afghanistan's provincial governors 
        and about one-half of its provincial police chiefs--all in a 
        concerted effort to improve governance outside of Kabul and to 
        extend the authority of the national government.

  <bullet> In August, President Karzai simultaneously transferred the 
        governor of Kandahar, Gui Agha Shirzai, to a ministry in Kabul; 
        changed the governors of Zabol and Wardak provinces; and 
        replaced Ismail Khan as corps commander in Herat.

  <bullet> This move was a significant assertion of authority by 
        President Karzai. At the time, the United States made an 
        important public declaration that it endorsed President 
        Karzai's reforms to assert the legitimate authority of the 
        central government and to improve provincial governance.

  <bullet> In addition, more recently, we have supported the efforts of 
        President Karzai's commission, led by Minister of Interior 
        Jalali, to find a solution to the frequent military clashes in 
        Mazar-e-Sharif between Generals Dostam and Atta. Special 
        Presidential Envoy Dr. Khalilzad engaged himself in support of 
        this process on his recent visit, and our Provincial 
        Reconstruction Team (PRT) in the area also played a role in 
        defusing tensions.

    The third dimension of our accelerated effort is the further 
deployment of these Provincial Reconstruction Teams (PRTs).
    The PRTs, as we anticipated a year ago when their concept was 
devised, are a flexible instrument for achieving several purposes, 
including: to facilitate reconstruction efforts around the country; to 
contribute to the facilitation of security where needed; to bolster the 
presence and authority of the central government; and to provide 
another vehicle for internationalizing the overall effort.
    PRTs typically comprise 60-100 military and civilian personnel 
representing several agencies in the U.S. Government. Their composition 
is meant to be flexible, adapting to the particular needs of a region; 
they include a civilian led reconstruction team, engineers, security 
and military observer teams, linguists, and interpreters, and a medical 
team. The PRTs work with Afghan government ministries, local officials, 
UN agencies, and non-governmental organizations (NGOs) to facilitate 
their efforts.
    Four PRTs, as you know, are already deployed, and four more should 
be deployed in the next few months. The U.K., New Zealand, and now 
Germany are taking over some of these teams.
    Our fourth line of activity is support for international partners, 
including on security issues where they have the lead. We will work 
with the UN Assistance Mission to Afghanistan (UNAMA) and with Japan on 
disarmament, demobilization, and reintegration (DDR) of militia forces. 
We support U.K.-led program against narcotics. We are supporting German 
efforts in police training and Italian efforts in judicial reform.
    In addition, we welcome the fact that NATO has taken over command 
of the International Security Assistance Force (ISAF) in Kabul, and 
that Germany (as noted) has proposed to take over the PRT in Konduz.
    The Germans, as you know, have proposed that their PRT in Konduz 
come under ISAF. We have agreed to this idea and are working out the 
details. We are open, as well, to expanding ISAF's mandate more 
broadly--as the new UN Security Council Resolution 1510 earlier this 
week now permits. If ISAF's role does expand, some of the issues we 
will need to pay attention to are:

  <bullet> That the new arrangements ensure deconfliction between ISAF 
        and OFF and do not impede OFF operations;

  <bullet> That all these activities support the political strategy of 
        President Karzai that the U.S. is supporting; and

  <bullet> That the new arrangements be backed by real commitments of 
        forces from NATO partners.
                               conclusion
    Let me conclude, Mr. Chairman, with an example of how these diverse 
strands of policy can come together to help win the war against the 
Taliban.
    In 2002, Paktia province in the east was considered one of the 
areas with the highest levels of enemy activity. Since then, the United 
States deployed a PRT near Gardez, the capital, and supported civil 
affairs and reconstruction activity. President Karzai replaced the 
governor, police chief, and sidelined local commanders who had been 
abusing the people. New national police were deployed, and we sent in 
the Afghan National Army on presence patrols. PRT activities--sometimes 
in concert with ANA deployments--have reinforced stability and won the 
confidence of the local population. Together, these reforms and 
deployments have transformed the security situation.
    As we continue our efforts to improve security and to support 
reconstruction, the lesson of Paktia province should inform the work of 
all of the departments and agencies of the U.S. Government. PRT team 
members, through their patrolling and interactions with local Afghan 
elders and officials, have enhanced security. The PRTs are also 
extending the reach of the Afghan central government, which now has a 
representative at each PRT location. And quick-impact projects like the 
building of schools and clinics, or the drilling of wells, have helped 
PRTs to develop close relationships with Afghan communities. Our 
challenge is to expand the geographical impact of these activities, 
both by increasing the number of PRTs and extending their reach through 
satellite locations.
    While the State Department and USAID are the lead agencies for 
Afghan reconstruction, DOD has also gladly supported them. DOD--
primarily through civil affairs teams (300 civil affairs personnel 
deployed) and PRTs--is supporting the rebuilding of over 300 schools 
and 50 medical facilities, installing over 600 wells, and hiring over 
30,000 Afghans countrywide.
    I will conclude as I began, acknowledging the seriousness of the 
challenges that we and the Afghans face in rebuilding a country 
devastated by a quarter century of war. But we have a strategy, and we 
are accelerating our effort.
    Our goals in Afghanistan clearly have bipartisan support. The 
President's Emergency Supplemental request is an opportunity for this 
nation to reaffirm and strengthen its commitment. That appropriation 
can make a significant difference.
    Our nation's role in liberating the Afghan people is a success 
story. All Americans can be proud of what we and our Coalition partners 
helped accomplish. We did it for our own security, not simply out of 
altruism, and that is equally true today of our effort to ensure that 
Afghanistan becomes a successful, modern state and never again a safe 
haven for terrorists.
    Our partnership with the Afghan people continues to grow and 
strengthen. The Administration and the Congress have much to do 
together to complete what we have begun.
    Thank you.

    The Chairman. Thank you very much, Secretary Rodman.
    We'd like to hear now from Brigadier General Gary North.

STATEMENT OF BRIG. GEN. GARY L. NORTH, DEPUTY J-5 FOR POLITICAL 
   AND MILITARY AFFAIRS, THE JOINT STAFF, U.S. DEPARTMENT OF 
             DEFENSE, THE PENTAGON, WASHINGTON, DC

    General North. Mr. Chairman, Senator Biden, members of the 
committee, thank you for the opportunity to come talk to you 
and your colleagues today of these areas of concern of our U.S. 
military operations in Afghanistan.
    Many of the topics have been covered, and so I would like 
to discuss the Afghan National Army [ANA] very briefly and 
address the security situation from a military perspective, and 
then turn to you, sir, for questions.
    In regards to the Afghan National Army, in May 2002 our 
Task Force Phoenix, ably assisted by specialist training teams 
from other countries, began training the Afghan National Army 
to build a multiethnic force under civilian control, which is 
very quickly becoming a symbol of national unity in 
Afghanistan. Over 11 Afghan National Army battalions have 
graduated from the Kabul Military Training Center, with a 12th 
in training and a 13th forming. Our intent is to complete the 
Afghan central corps training by the June 2004 elections with a 
total of 15 battalions.
    In January 2004, we plan to accelerate the Afghan National 
Army training, increasing the capacity graduated per year from 
the current capacity of 6,600 soldiers to 10,000 soldiers per 
year. Of the 11 currently graduated battalions, we have over 
4,800 soldiers that are deployed as operational soldiers who 
have been out alongside with our Coalition Forces or are 
completing specialized training to serve in both armor and 
mechanized infantry or combat service support battalions. Over 
$80 million of donations and pledges of equipment from 
international Coalition members have supported this effort.
    The successes we are experiencing in the ANA, as well, are 
beginning to be reflected in our Ministry of Defense reform 
initiatives in the Afghan Ministry of Defense where over 22 
candidates have been confirmed for top-tier posts. They bring 
strong qualifications to the ministry and adequately reflect 
the Afghan ethnic diversity. And these 22 members just finished 
their first week of full-assistance training. I received an 
out-brief on that today from members in Kabul, and they are 
very excited about the opportunities of the future of the 
Ministry of Defense reform initiatives.
    In regards to the security situation, as Ambassador Taylor 
mentioned, it is somewhat tense at times in the south and 
southeast quadrants. Our Coalition military forces, including 
the Afghan National Army troops, are successfully repulsing 
both Taliban, al-Qaeda, and assorted anti-Coalition Force 
elements. By all reports, the Afghan National Army is 
performing extremely well in combat operations alongside 
Coalition elements.
    The objectives of our two most recent operations, Warrior 
Sweep and Mountain Viper, which have been publicized in the 
open press, in both southern and southeast Afghanistan, were to 
interdict anti-Coalition Forces by infiltration, deny the enemy 
sanctuary, and destroy enemy forces, and these resulted in the 
capture of over 800 weapons--grenades, mortars, rockets--and 
over 50,000 pounds of ammunition, and as many as over 200 
Taliban and other enemy combatants were killed in these 
actions.
    Additionally, we're greatly encouraged by the recent 
Pakistani military activities against anti-Coalition Forces and 
Taliban and part of Operation Miwan in the federally 
administrative areas. Pakistan's success will greatly enhance 
our own efforts along the Afghan-Pakistan border.
    Gentlemen, at this point I'd like to stop and be subject to 
your questions.
    The Chairman. Thank you very much.
    Let me just sketch out provisionally the architecture of 
our hearing today. We have debate on the floor, as you know, on 
the supplemental appropriations bill, and the Chair has been 
advised that approximately at 3 o'clock there will be two 
rollcall votes stacked one after the other. We have good 
participation in this hearing, I hope that will continue, and 
what we will attempt to do is to keep the hearing going. 
Senator Biden and I will depart and return at some point. And, 
likewise, members may wish to stay and ask their questions 
while we are absent. But it's important that we all have 
opportunities to take advantage of this panel. We have another 
very talented panel still to follow. So I would suggest a 7-
minute limit on our first round of questioning.
    I would commence by asking Ambassador Taylor a very 
specific question. Ambassador Tomsen will testify later, as I 
understand, that he recommends that non-military funds for 
Afghanistan be moved into a single State Department account 
under your control, instead of several separate accounts--at 
least at present it appears that way--to improve the efficiency 
and the quality of our aid to Afghanistan. Has the 
administration considered this proposal? And would having the 
funds in a single account improve or speed implementation of 
our assistance?
    Ambassador Taylor. Senator, in my previous job, before I 
went to Kabul, I coordinated assistance going into the former 
Soviet Union and Eastern Europe. And, as you know, in both of 
those accounts there is a single account. There is one line 
item, and it's for the former Soviet Union, another one for the 
East European countries. And that does help, and Ambassador 
Tomsen and I worked together in that time. That's where I met 
Peter. And so we know that can work.
    We have examined it, in answer to your question. Very 
specific question, very specific answer. Yes, we've examined 
it. There are pros and cons to this. I see some pros, and 
others see some cons. And we will continue to talk about this 
within the government. We think it's a good idea.
    The Chairman. Well, let me just ask, what can our committee 
do, if anything, to accelerate the pros, in this situation? 
Now, I don't want to illustrate excessive bias in my question, 
but, at the same time, it appears to me we should get on with 
it, and I'm just wondering what the problem is.
    Ambassador Taylor. Senator, we are, of course, getting on 
with it. And it turns out that the supplemental that you're 
debating right now will essentially go into four main accounts. 
It will go into the police account, into the FMF for the army 
that we talked about, to a larger ESF account, economic support 
fund accounts, and that has a lot of flexibility within it, as 
well. And then, finally, there's an anti-terrorism account that 
we use to protect some of the senior people in Kabul.
    So those are fairly discreet areas--army, police, economic, 
and protection. And so as it stands right now, that is working 
out OK. So I think we are making this thing work, and it's--I 
will take your concern, your interest, your suggestions back 
and we'll continue the pros and cons.
    The Chairman. Please do.
    Now, I think, Secretary Rodman has pointed out that there 
is no profit in rehashing all of the past, and I will not do 
that. I would just say that I think that our activities have 
evolved over the course of a number of briefings that we have 
enjoyed. Some have been with the Secretary of Defense or the 
Secretary of State or others. My general perception at the 
beginning, after the war was essentially fought in Afghanistan 
and before the mopping-up operations continue--they are still 
extremely important--continued, was that Secretary Rumsfeld 
essentially indicated that our job was a military mission. In 
those days, nation-building was really not on the charts. Now, 
it was mentioned occasionally, but often in a pejorative way.
    Now, bit by bit, we came to a conclusion--by ``we,'' I 
think it's the country, the administration--that a successful 
Afghanistan was very important to us, very important to the war 
against terrorism. The fact that a failed state there could be 
an incubator for terrorism again, a recycling of the whole 
problem became very alarming.
    Nevertheless, the resources to do all of that have not 
necessarily followed instantly. We have been preoccupied in 
Iraq, and we have other responsibilities. So these we all 
understand.
    My rationalization of Iraq and Afghanistan is that we are 
getting better at it all the time. I object totally with 
anybody who thinks we really had a good plan to begin with 
anyplace, but I would just add that none of us are that wise, 
and we all benefit by experience.
    In Afghanistan, our experience is that the capital has a 
fair degree of security. We are certainly profiting by having a 
President, President Karzai, a constitutional group, and a 
number of people, as we've heard outlined, now coming into the 
Armed Forces of Afghanistan who fight well and who understand 
the centrality of it.
    When the three of us--that is, Senator Hagel, Senator 
Biden, and I--met with him in Amman, at the World Economic 
Forum, President Karzai, indicated to us that he was collecting 
some customs taxes, some revenues even at the borders. Clearly 
it is a good role for a central government, to have that degree 
of recourse. So this is not one in which entire blobs of 
territory are covered by warlords with a President nearby in 
the capital. There is an extension, but it is tenuous and it is 
different and complex.
    President Karzai also outlined the constitution, which was 
complex. Our committee would like to see the draft of the 
constitution at some point. We've been told it's, out there. 
And if you would be forthcoming, that would be helpful, because 
this is an important constitution to look at in the context of 
constitutions in Iraq and maybe elsewhere.
    As I heard the President discussing this, there are all 
sorts of checks and balances and very unusual clauses. As we 
discovered with our Iraqi witnesses the other day, constitution 
business is going to be even more complex the harder you lay 
down a hand in whatever month you start or try to stop it. But, 
nevertheless, it is proceeding.
    President Karzai said he had a 5-year plan, a financial 
plan. He outlined that. His Finance Minister was with him. 
There are some holes in the plan, and this is where we came in. 
We can help fill in the holes, as you suggested, or others 
could help fill in the holes. But the strength of the fact was 
that he had a 5-year plan. He really has some idea, as did his 
ministers, of where they were going for 5 years.
    I've been troublesome in suggesting the same in Iraq. 
Someday it would be helpful to see that. Someday we will see 
it. Maybe not today. But they have one in Afghanistan.
    Now, are you acquainted with the plan? Obviously. And 
you're acquainted probably with the holes or the suggestions. 
To what extent is our government able to work hand in glove, 
say, with the Finance Minister and with our European allies in 
NATO and with others to make certain that that part of it is 
sound, and that they are able to finance a progressive 
administration?
    Ambassador Taylor. Senator, that Finance Minister was the 
single person that I dealt with the most in my time in Kabul. 
He's very, very good, as you saw. He does have the plan. It's 
well worked out. Even the development of that plan, however, 
was not easy. As I mentioned before, a Coalition cabinet that 
has very diverse representatives in there from a lot of 
different parts of the country, as well as ethnic groups, and 
sitting in powerful positions to be able to affect that plan. 
He was able--and the Finance Minister drove this. President 
Karzai, obviously, was standing behind him, but he drove it, 
and he was able to come up with a budget last year. And that 
budget, as you say, was a 1-year, but then extended out for 
several years, 5 years, and he has a very good plan of how to 
get there.
    So in answer to your first question, we deal very directly, 
hand in glove, with that Finance Minister and helping--part of 
my job there was to help him mobilize the rest of the 
international community.
    Another good thing about Kabul and Afghanistan is that the 
international community is working very well together, as 
you've mentioned. We've got a good U.N. resolution, we've got a 
good U.N. team, frankly. We've got Germans and French and 
Americans and others all working very closely together, not 
just on the army, but certainly on the army.
    So that international community came together and focused 
on the different holes that they've mentioned to you. They're 
not all filled. Part of the President's request in the 
supplemental that you're debating will help fill some of those 
holes. One of the holes was actually payment of salaries for 
civil servants, for bureaucrats, the bureaucracy in the 
government and in the provinces, and those are gradually being 
filled, and that's part of our plan.
    So we appreciate your support on that. We will continue to 
ask, on a regular basis, for funds to enable us to continue to 
help that government move forward.
    The Chairman. That would be great, and some periodic 
reports from you as to how that's going, now that at least 
there is some scheme, some discipline and outline.
    Ambassador Taylor. Senator, one other thing. You mentioned 
the constitution.
    The Chairman. Yes.
    Ambassador Taylor. President Karzai, of course, is in 
Malaysia right now. He has taken a copy with him. It's been the 
subject of a lot of discussion, debate, changes--some steps 
forward, some back, we hear, in those debates. It's within the 
Afghan government. Again, this is a very healthy debate that's 
going on, an important one that will shape their country, at 
least for the foreseeable future.
    He has that draft with him. He also left a committee 
behind, including Dr. Ghani, the Finance Minister, to work the 
final details of that constitution. We have drafts, which I'd 
be happy to share with you, with the committee. The final draft 
should be the one that will go to the constitutional loya jurga 
in December, should be available within days, and we will 
certainly get that to you.
    The Chairman. We would appreciate that.
    Senator Biden.
    Senator Biden. Thank you. Gentlemen, we have a lot of 
questions and there's a lot of interested colleagues here. Let 
me stick to a few specific subjects, if I may, with one short 
preamble.
    I hope as we pass, and I believe we will pass, the $87 
billion appropriation, which I personally will vote for--
although I think we'll see some changes in the accountability 
requirement, the essence of it will pass--I hope the portion 
of--assuming we don't get a single State Department account, 
which I strongly favor; I am biased in that regard--but even if 
it stays the way it is, in essentially four accounts, I hope 
that economic account we will be more fastidious than we have 
been in the past in terms of directing aid, to direct it to 
Karzai so it's through Karzai.
    The idea that you would allow--I'm going to use--let me be 
anecdotal here--a road to be built in Afghanistan and Ismail 
Khan take credit for it, is bizarre. To me, it's absolutely 
bizarre. Why--if Karzai didn't have the military capability of 
controlling the country, which we all know he didn't, and 
hopefully someday will, at last there has--what are the reasons 
anybody needs Kabul for? They need Kabul for money. They need 
Kabul for something. What value is Kabul to Kandahar, or what 
value is Kabul to Herat or any other place, unless they can 
dispense it? And so I strongly, strongly, strongly, strongly 
urge you, if you haven't already done it--and it would be 
helpful, at least to me, possibly the whole committee, for you 
to give us a sense of how these funds are actually distributed. 
A lot of us used to be local officials. This is a local mayor, 
a local councilman. I mean, we understand how--where the dollar 
actually gets disbursed to the contractors to build the road 
and whether it matters. We have councilmen fighting over 
whether or not the money to build the road or the sewer system 
in his district was announced by him or announced by the mayor 
or announced by the Governor. Well, it makes a big difference 
in Afghanistan.
    And so I hope you'll fill us in on that. Not now, but at 
some point. I may draft a formal question for you so I know how 
that works.
    But let me move to the security piece just a second, the 
ANA, general. And, by the way, I know it sounds so trite just 
for us to say it, but you guys do a helluva job. I mean, I've 
watch those kids over there, been over there, I mean--they're 
not--I shouldn't say ``kids,'' they're--you know, I'm just 
getting so old, they seem like kids. They're incredible. 
Absolutely incredible. And they are, to use the other 
expression we overuse, they are in harm's way. They are in 
harm's way. And we've gone down those roads, and at high speeds 
with night-vision goggles to make sure--I wondered where in the 
hell we were going. I was hoping the driver had his goggles on 
as he was going at high speeds to avoid those checkpoints and 
so on at night. So it's still an unsafe place.
    My question is this. We had testimony--again, I don't want 
to go back and rehash who was on first and who was on second. 
This is where we are right now. The goal is a--correct me if 
I'm wrong now, Ambassador Rodman, or you, general--the goal is 
a 70,000-person Afghan army. We initially had--and, again, 
understandably, I'm not--again, not a criticism--we had fairly 
high expectations that we'd be training this force up pretty 
quickly and have--and, by now, it was predicted we would have 
considerably larger Afghan National Army up and running than we 
do now. I hope our--your counterparts in Iraq keep an eye on 
Afghanistan. This malarkey that we're going to have--my word, 
I'm not talking about you guys--this malarkey we're going to 
have a stood-up Iraqi Army of x-thousand people in the next 18 
months is absolutely bizarre, unless it's totally new. It 
hasn't happened any other place we've tried it, including 
Afghanistan. What is the realistic number--and this is a case 
where humility is very much in order. This is a case--my advice 
to you, as your staffer here, is go low so you don't have me 
repeating what you said to me later when you've given me a high 
number and you're embarrassed by it. OK? What is a realistic 
number that we think we can get to to have a trained Afghan 
National Army that can set foot outside of Kabul and function 
without the support, without the support, of international 
security force or American forces? What are we realistically 
looking at?
    Because the American people got it. They figured it out. 
You do one of three things. We supply all the force for 
security, we supply it with our allies, or it gets supplied 
indigenously by trained forces that represent a new army. Tell 
me what we have now and what you realistically look at 12 
months from now.
    General North. Yes, sir. It's an excellent question. And to 
humility, thank you for your comment on our young men and women 
in the military, both in Afghanistan and Iraq.
    I travel quite a bit to Afghanistan, and every time I go 
I'm reminded that we've got the best military in the world--
funded, equipped, trained like no other--and, you know, they're 
just absolutely phenomenal.
    In regards to realism, there is a difference between 
Afghanistan and Iraq. Iraq had a military, and some of those 
people will be able to be trained into a new Iraqi military. 
Afghanistan has over 30 years of militia forces that are, at 
best, what we would call local thuggery, in some regards. They 
are very capable, very tough, very rough individual soldiers, 
but they do not have what we envision to build, which is a 
professional, disciplined, led by leadership, trained, and able 
to operate in something other than small groups of four to six 
people at a time.
    Realistically, what we have built is a three-phased 
approach that started in May 2002, which was phase one, to 
build these initial 15 battalions for a central core----
    Senator Biden. For the record, how many in a battalion?
    General North. Six-hundred is the goal, sir. And so we--our 
plan is to build those, the 15 battalions, by the elections of 
June 2004. That is phase one. And then we have a second phase 
and a third phase, which takes us out to 2008. The number----
    Senator Biden. We're talking about--again, so people 
listening to us--because we get--it's amazing how informed the 
American public is. We leave here, and I'll get in the train, 
and the conductor will ask me, ``Now, how many troops is 
that?'' We're talking about 9,000, roughly.
    General North. That's correct. And with headquarter staffs, 
we look at about 10,000.
    Senator Biden. Gotcha.
    General North. Now, the number 70,000 came out of Bonn II 
from President Karzai and his staff, in concert with our 
leadership in the international community and the discussion of 
what does Afghanistan really need. It's all tied into DDR and--
--
    Senator Biden. DDR?
    General North. That's demobilization, disarmament, and 
reintegration. As you bring down those militia forces led by 
the warlords, the regional leaders, and so the--I can't give 
you what we believe today, on the 16th of October, what we 
envision in the year 2008.
    Senator Biden. I see.
    Last, my time's up, but I don't want to leave one piece out 
here, Senator Sarbanes asked a very interesting question of 
Secretary Rodman last time he was here about the pay rate. Our 
understanding is that--and maybe it wasn't you, Mr. Secretary, 
but it was--the question was asked the last time we had a 
hearing on Afghanistan and discussed the military--it was 
asserted that the sum of pay for the average Afghan soldier was 
about $50, which was less than what it was for the folks in 
there cleaning the barracks. Now, I don't know if that's true 
or not. Can you tell us anything, now or for the record, about 
whether or not the pay is sufficient to attract them out of the 
warlord's band? Because when I spoke to a number of other 
members of the cabinet, including the Tajiks, one of the issues 
was it's awful hard to get these guys to decide they want to be 
in the ANA versus staying with their friendly warlord, both in 
terms of spoils, money, and pay. Can you talk to that just a 
second, about the pay?
    General North. Yes, sir.
    Initially, the pay scale for the young recruits was set at 
$50 a month. Again, this was an issue that those of us who live 
in a society where that's not very much money, we thought that 
might be too low. We worked with President Karzai and his 
leadership, and he agreed that that was the appropriate amount 
at the time. Since then, we have raised the basic pay scale for 
the young recruit to $75, and as they graduate, they start 
getting more, the NCOs get more, the officers get more.
    Senator Biden. For the record, could you submit the pay 
scale as envisioned? It would be very helpful.
    General North. I'd be happy to do that.
    [The following information was subsequently provided:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    General North. There is, of course, a component of the pay 
scale that we should all appreciate. One, we're building an 
army who not only gets a reasonable pay, but we're providing 
for the men of the army--and this is of their own accord in my 
discussions with them in the field, the best housing they've 
ever lived in, a roof that doesn't leak, hot and cold running 
water, and three of the best meals they have ever gotten every 
day, as well as a uniform that is a professional uniform. And, 
on graduation, they get a green beret that they are extremely 
proud of.
    So in the macro sense, that pay is a composite. What we get 
is the disciplined, integrity soldiers who----
    Senator Biden. I wasn't suggesting we're not treating them 
well. My only point is, are we being competitive in the 
marketplace? And that's the only point I'm raising. Is there 
enough incentive under the present system for them to, in 
effect, decommission from where they have been and sign up. As 
you know, there's a lot of other spoils in the system where----
    General North. Absolutely.
    Senator Biden [continuing]. Poppy is grown like wheat in 
this country.
    General North. And it is very tough to compete for those 
people who are on the payrolls of a warlord who can pay them 
much more. But that's not the caliber of soldier we're looking 
for.
    Senator Biden. Thank you very much. I'm sorry, Mr. 
Chairman.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome. 
We appreciate your testimony.
    General, you mentioned, following along with Senator 
Biden's questions, in your testimony, that you graduated 11 
battalions, your objective is to get to 15. Could you give us 
some sense of where those 11 battalions are? You mentioned some 
are special trained now, but the bulk of those, are they in the 
south, southeast? Where are they in Afghanistan?
    General North. Senator, the bulk of those battalions right 
now are barracked in the Kabul area. These are the central core 
battalions in the--from the center part of Kabul out to the 
KMTC training center on the eastern portion of Kabul. We 
currently, today, have two battalions plus a company in the 
field doing training operations in the south and southeast, and 
we rotate a battalion in a rotational manner to Gardez to 
operate in the area of our PRTs, and that Gardez and to the 
southeast of Gardez is well over the July to September 
timeframe this past summer, over a thousand members of the ANA 
took part in their first combat operations. So we put them in 
the field in a rotational basis to upgrade their basic 
training, and then in the Pol-e-Charki area in the east of 
Kabul, we have barrack capacity when the battalions are not in 
the field training to have them in garrison.
    Senator Hagel. Any in the west, western part of the----
    General North. No, sir, not yet. The west is extremely 
stable. If you took a counterclockwise map around the western 
part of the country, there's a stable portion. In the north we 
have incidents, but the majority of our incidents and the 
majority of our focus are in the south and southeast.
    Senator Hagel. Thank you.
    Let's stay in the south and southeast for a moment and go 
to you, Ambassador Taylor. Both you, I believe, and General 
North noted the difficulties we were having in the south and 
southeast reconstitution of the Taliban, other forces. I serve 
on the Intelligence Committee, so I'm sensitive to the other 
issues here. Why is it that they're getting stronger? I think, 
in your words, Mr. Ambassador, ``getting worse,'' things are 
getting worse in the south and southeast as you led with the 
bad news, which we appreciate. Why is that?
    Ambassador Taylor. I think for a couple of reasons, 
Senator. One is, there is no doubt that the Taliban, probably 
supported by some remnants of the al-Qaeda, which you have 
heard about in other briefings, are still active. The second 
is, in the south, along the border with Pakistan, it is very 
difficult for us to--well, it's impossible for us to go across 
the border. And the Taliban and the other people who are 
disrupting and are killing people on the Afghan side of the 
border, can go across the border into Pakistan. So when you 
look at a map of where the problems are, what strikes you is, 
there's about a 20 kilometer swath of red--red is kind of high 
risk, yellow, medium, and blue--the north and the west is 
basically blue, there's a swath of yellow, and the red is 
really along the Pakistan border. So there's clearly a problem 
associated with cross-border operations.
    Senator Hagel. May I ask a question on that? And I 
apologize. You know, we're all under time constraints here. But 
if that's the case, and I'm sure it is the case, you've 
identified it. I know it's imperfect, and it's porous all along 
there.
    I assume, then, you are taking a force structure to match 
those reconstitution of Taliban, al-Qaeda, others, working 
closer with the Pakistanis, which gets us into how we're doing 
there. Give us some assurance that we're doing exactly that, or 
something, that is going to deal with this so that the next 
time you're up here you're not coming to give us bad news again 
that we still have a situation getting worse there, when we 
know, as you say, it's a matter of moving back and forth on 
that border, especially if the Pakistanis are our allies here. 
What are we not doing we should be doing more of? Take all 
those pieces in any order.
    Ambassador Taylor. Senator, let me do a little bit, but I 
know that Secretary Rodman and General North may also have 
comments on exactly----
    Senator Hagel. You're an old West Pointer Ambassador. Don't 
get off on that.
    Ambassador Taylor. No, no. I respect that--we do work well 
together. One of the things you talked about earlier is how 
well the----
    Senator Hagel. They teach you that at West Point.
    Ambassador Taylor. They do. They do. They teach us some 
things.
    But on your questions about working with the Pakistanis, 
this past week we have seen the beginning of some real progress 
that the Pakistani military is putting into the border areas, 
putting into border areas where no military has been, whether 
it be Pakistani, whether it be Indian, whether it be British, 
in 150 years. So they are--the Pakistanis are sending military 
forces and getting some forces killed. They had two soldiers 
killed there in a sweep of Taliban and al-Qaeda. It's 
difficult, as you know, for President Musharraf to go after 
Taliban. It's not so difficult to go after al-Qaeda. But he is 
doing this, and it is--this is the beginning. Secretary 
Armitage--Deputy Secretary Armitage, of course, was just in 
Kabul, Kandahar, but also in Islamabad last week, and he had 
very clear conversations on this topic with President 
Musharraf. And he is very--he is convinced that they are now--
the Pakistanis are now going in the right direction.
    Secretary Rodman and General North can describe to you the 
military operations that the Coalition has undertaken against 
these larger formations of Taliban.
    Before I pass it to them, the other thing that is a 
problem, that is in answer to your question, ``What is the 
problem down there,'' is the slow pace of reconstruction in the 
area where the security is worse. It's difficult for NGOs to 
work. It's difficult for the international community to work. 
It's not impossible. The road that I mentioned, going from 
Kabul to Kandahar, goes right through that swath, and we're 
taking extraordinary measures to secure ourselves. But we get--
our workers, our construction engineers, our security people 
get attacked regularly along that stretch, so--but that just 
means it's difficult to work. It's not impossible. We have the 
PRTs along the--both in Gardez, hopefully in Ghazni, and we 
will in Kandahar, that will provide some security for that. But 
the Coalition Forces, as well, are providing security. But----
    Senator Hagel. Thank you.
    Ambassador Taylor [continuing]. I know that Secretary 
Rodman----
    Senator Hagel. Secretary Rodman.
    Mr. Rodman. Just to add, one of the crucial variables is 
clearly the cooperation of Pakistan, and it's something we 
raise with them constantly. We credit the good faith of the 
Pakistani President and leadership when they say that they have 
the same interests we do in shutting down the Taliban and al-
Qaeda. And as has been discussed, the objective conditions are 
pretty formidable in the border area--the terrain--and the 
populations are sympathetic to some of the terrorists. The 
operation in Waziristan a couple of weeks ago was the most 
important anti-Taliban operation that they have conducted.
    So our sense is that the Pakistani Government is committed. 
There are elements in the Pakistani Government who we suspect 
are sympathetic to the old policy of before 9/11, and that's an 
issue. But it's a subject of constant consultation and 
discussion, and I have to say, again, the trend is in the right 
direction.
    Senator Hagel. You say the trend's in the right direction, 
but the Ambassador came before us, said things are getting 
worse, so I'm a little----
    Mr. Rodman. I would say the operation 2 weeks ago was the 
most positive and significant Pakistani military operation 
against the Taliban, and we consider that a good sign. And I 
think we see other signs that they are--the Pakistanis are 
coming to grips with the fact that they have to make a clear 
decision as a government and enforce it on their own 
government.
    Senator Hagel. Thank you. General North, would--you have 30 
seconds, and I apologize for this. You're worth more than 30 
seconds, but I----
    General North. In my 30 seconds, my sound bite is, our U.S. 
military forces aren't going to match them, we're going to 
over-match them.
    Senator Hagel. All right, thank you. And one last very 
quick answer if you could give it to me, you mentioned the road 
between Kandahar and Kabul. Where are we? You were very 
bullish, and I agree, and that's a vital lifeline. Where are 
we? Are we getting it built? Are we behind schedule, ahead of 
schedule?
    General North. We are on schedule, Senator. The schedule is 
to have it fully paved from Kabul to Kandahar by the end of 
December.
    Senator Hagel. By the end of----
    General North. By the end of this December.
    Senator Hagel. This December.
    General North. Yes, sir.
    Senator Hagel. So you've covered how many miles, then?
    General North. We are probably about 200--150, 200 miles. 
It is going at about five kilometers a day, is being paved. We 
are on schedule to finish that. That's assuming that there is 
not a bad security problem, which, as I indicated, there's--
however, we should be--people should be driving Kabul to 
Kandahar in 5 hours on a fully paved road by the end of this 
year, and it used to--about 2 months ago, when we were there, 
it--three months ago--it was 15 hours. This will be a major--so 
we are on track now. Next year we'll put more layers on that, 
so it lasts 15 years, as opposed to 2 years, but we're going to 
get that one paved by the end of December.
    Senator Hagel. Well, that's a significant accomplishment. I 
congratulate you.
    General North. USAID, sir. I will give them credit. They've 
done good work on this.
    Senator Hagel. Thank you very much.
    [The prepared statement of Senator Hagel follows:]

               Prepared Statement of Senator Chuck Hagel

    I thank Chairman Lugar for holding this hearing on Afghanistan. 
While much of our attention has been focused on Iraq over the past 
year, we cannot lose sight of our interests in helping support the 
transition to stability and democracy in Afghanistan. Afghanistan is 
the first battle in the war on terrorism, a battle that is joined but 
not won, and we cannot fail.
    Afghanistan has come a long way in two years. The Taliban has been 
driven from power and President Hamid Karzai has given the Afghan 
transitional government hope and inspired leadership. But Karzai's 
government does not control security throughout Afghanistan. The 
security situation is volatile and dangerous. And without security, 
there will not be stability and democracy.
    In southeastern Afghanistan, in the Kandahar region, the original 
regional base of the Taliban, political violence is on the rise. The 
Taliban have reappeared and are contributing to these tensions. There 
and elsewhere in the country, regional warlords, many connected to the 
international trade in illegal narcotics, force their will and 
undermine Karzai's authority.
    One option to enhance security in Afghanistan is to expand the 
International Security Assistance Force (ISAF) beyond Kabul, at least 
until a new Afghan army and border patrols are able to do the job. NATO 
took over leadership of ISAF in August. Last week, NATO endorsed 
expanding ISAF beyond the Kabul. We need to support NATO's efforts.
    We are currently debating a supplemental appropriations request 
which includes $800 million in aid for Afghanistan. Hopefully it will 
pass this week. Even with these additional funds, there is still much 
more to do. America cannot shoulder the burden in Afghanistan alone. 
Reconstruction in Afghanistan is estimated to cost at least $15 billion 
over the next decade. The Tokyo pledging conference in January 2002 
produced pledges of $4.5 billion. According to the U.N. Development 
Program Donor Assistance Database, donor countries had committed $3.9 
billion, and disbursed $1.7 billion. We must encourage our friends and 
allies must do more so that the Afghan people experience the full 
benefits of liberation.
    America's efforts in Afghanistan are directly related to our 
interests in winning the war on terrorism, halting the spread of 
illegal narcotics, and promoting stability and democracy in central and 
South Asia.
    I would like to conclude by thanking Senator Lugar for mentioning 
the comments by First Lady Laura Bush last week about the contributions 
of the University of Nebraska's Center for Afghanistan Studies. One of 
our witnesses today, Ambassador Peter Tomsen, was a former faculty 
member of that program. The State of Nebraska, and the American people, 
are proud of the Center's well-established expertise, long-running 
relationship with the Afghan people, and the Center's contributions to 
improving educational opportunities for Afghans.
    I look forward to the testimony of today's witnesses.

    The Chairman. Senator Feingold.
    Senator Feingold. Mr. Chairman, in order to make the vote, 
I'm going to have to ask one question. I regret I couldn't ask 
the others. I'll try to followup in writing. But let me just 
ask Mr. Taylor and Mr. Rodman.
    Why is there such a great disparity, tens of billions of 
dollars worth, between the amount of assistance the 
administration wishes to devote to Iraq's stabilization and 
reconstruction and the amount devoted to Afghanistan? Are 
Afghanistan's needs really so much more manageable?
    Ambassador Taylor.
    Ambassador Taylor. They're not more manageable. They're 
less manageable. The time difference, Senator, I think is 
important. When we were putting together our request--that is, 
the Afghan portion of the supplemental--we were focused, and 
are focused, on the time between now and June. And the reason 
we're focused on that time period is, that's the time when 
we're preparing for elections. We want a moderate government to 
emerge from good, solid elections next June. What we're doing 
in our acceleration of our work, and it's in the supplemental 
appropriation, is to focus on security, improve security, which 
is what General North talked about, in terms of accelerating 
the ability to train ANA troops, to train more police, move 
forward on the DDR, on the disarmament, demobilization, 
reintegration program. So that security is one piece, then 
these roads that we just talked about. Again, we think that 
within 8 months we can put all of that billion dollars to work.
    Now, I don't do Iraq, thankfully, but I can tell you that 
that $20 billion is over a longer period of time than 8 months.
    Senator Feingold. Mr. Rodman.
    Mr. Rodman. Just to add to that, there's a difference in 
absorptive capacity, given that Afghanistan is a much poorer 
country. So to bring it up to an Afghan standard is different 
than Iraq, which was more developed. Iraq has infrastructure, 
which turns out to be, you know, badly in need of restoration 
after years of neglect. So the economic need is different. It's 
not clear that Afghanistan could handle orders of magnitude 
more than we're providing.
    Senator Feingold. I thank the panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I thank Senators Lugar and Biden for holding this important 
hearing, and I thank all of the witnesses for being here today. This 
week it is particularly important for the committee to focus on 
Afghanistan, as the full Senate debates a massive supplemental 
appropriations bill that is devoted, primarily, to Iraq. While some in 
the administration have been claiming that Iraq is the central battle 
in the fight against terrorism--one more justification of dubious 
credibility for a misguided policy--a situation that is unquestionably 
directly related to the campaign against the forces that attacked this 
country on September 11th has, I believe, been neglected. As tremendous 
resources and attention are focused on Iraq, the security situation in 
Afghanistan is getting worse, and I fear that many of our policy goals 
are become more difficult to achieve. So I look forward to this 
opportunity to survey the current situation and to hear from the 
witnesses before us and my colleagues on the committee about what steps 
can be taken to bring our policy onto a firmer footing.

    Senator Hagel [presiding]. May I do this, sir? I just got 
word we've got about 3 minutes left. And I know you've not 
voted, Senator. If you want to run it down a little bit, go 
right ahead, but--and then I will hand over my fleeting 
authority as Chair of the committee, to the gentleman from New 
Jersey, and I will vote. And then the chairman would ask you to 
just recess----
    Senator Corzine. OK.
    Senator Hagel [continuing]. The committee until he comes 
back. We'll all be back eventually.
    Thank you, Senator.
    Senator Corzine [presiding]. Thank you.
    I'd ask how the deliverance of international aid, how the 
follow-through relative to the Tokyo conference has occurred, 
whether pledges have actually--whether the check's in the mail 
or the reality of those efforts is followed through.
    Ambassador Taylor. Senator, one indication of that is the 
Finance Minister, that we talked about earlier, has come to the 
conclusion that of that $5 billion that was pledged at Tokyo, 
actually $4.5 billion plus a couple of more hundreds of 
millions of dollars, to get up to about $5 billion in Tokyo and 
subsequently, that that has been committed about probably 90 
percent. That is----
    Senator Corzine. Committed, but not----
    Ambassador Taylor [continuing]. Committed, and a lot of 
that is actually in play, is actually working, but committed--
when you're talking about absorptive capacity, as Secretary 
Rodman was just talking, it is a matter of beginning the work 
on assessing the road, then getting the people in place, and 
then that's actually--the work actually gets going. So, yes, 
it's in play, it's committed, contractors are moving in.
    The short answer, though, is the international community 
has come through on those initial Tokyo commitments to the 
extent that the Finance Minister Ghani is very concerned that 
he does--he's not looking at additional commitments--he doesn't 
see additional commitments going out over the next 3 or 4 
years. So he would like for us to get back together, as an 
international community, and make pledges in response to a new 
assessment of ``the needs'' that the World Bank is about to do.
    Senator Corzine. OK. I was going to ask whether there were 
any garbage trucks, but we'll leave that for another time.
    Ambassador Taylor. We're not buying garbage trucks.
    Senator Corzine. I think the committee will stand in recess 
until we return from the vote.
    Thank you.
    [Recess.]
    The Chairman. This hearing is called to order again. I 
apologize to the witnesses and those who are with us in the 
hearing for our procedures today, but they're likely to 
continue. This is one of those days.
    Let me indicate that I know of no Senators presently, 
although I could be informed otherwise, who have further 
questions of this panel. Now, if I may ask you gentlemen, 
however, to stand by temporarily, I would like to recognize the 
next panel. We can commence with that testimony; we have the 
benefit of that testimony. Some members may return, but many 
will stay over for the second vote. It's been my experience 
recently that votes often go on well beyond 15, 20, and even 25 
minutes. So rather than have all of us wait in suspense, if you 
could accommodate us in this way, we would very much appreciate 
it.
    And I'd just express the appreciation of our panel, to all 
three of you, for your testimony, for your forthcoming 
responses. So I will excuse you for a moment from the witness 
table. If you would, please stand by at least until members 
return and we ascertain whether they might have one last 
question for you.
    At this point, I will recognize the next panel, and that 
will include the Honorable Peter Tomsen, former Special Envoy 
to Afghanistan, Dr. William J. Durch, co-director of The Future 
of Peace Operations Project, Henry L. Stimson Center, and Ms. 
Nancy Lindborg, executive vice-president of Mercy Corps, member 
of InterAction.
    I'm advised that Ambassador Tomsen will return shortly. 
Meanwhile, I would like to recognize Dr. Durch. If you would, 
please proceed with your testimony. As I indicated to the first 
panel, your full statements will be made a part of the record, 
so please proceed in any way that you wish.

 STATEMENT OF DR. WILLIAM J. DURCH, CO-DIRECTOR, THE FUTURE OF 
PEACE OPERATIONS PROJECT, HENRY L. STIMSON CENTER, WASHINGTON, 
                               DC

    Dr. Durch. Thank you, Mr. Chairman. It's an honor to 
testify before the committee on the question of security in 
Afghanistan.
    I will submit my testimony for the record and summarize it 
briefly here and try not to repeat what's been covered by the 
first panel.
    The United States has been engaged in Afghanistan for over 
2 years now, fighting remnants of al-Qaeda, the Taliban, 
promoting political and economic change, but funding of 
political stability has been at levels insufficient to promote 
rapid recovery. Yet the December 2001 Bonn Agreement is a 
schedule for rapid recovery, and, as we've heard, its most 
important political milestones are moving looming in 2004. The 
people and the peace process both need protection, and we're 
finally moving to accelerate the training and equipping of 
Afghan security forces to help provide it. But even that 
accelerated process is not going to meet the present Bonn 
timelines, and direct assistance is needed from ISAF and the 
PRTs, which is where I'd like to focus on some of the details, 
noting first and briefly some lessons from other conflicts that 
bear directly on Afghanistan.
    First is the need for local faction leaders to buy into the 
peace process. Militia leaders who want to cooperate may not 
demobilize their forces unless some sort of change to security 
systems is in place. Demilitarization of politics is highly 
desirable before national elections to reduce the risk of 
return to warfare. And I say, in Afghanistan's case, this would 
include specifically the demilitarization of Kabul, as provided 
in Bonn.
    Third is the importance of cutting off would-be spoilers' 
access to commodities they can use to fund resistance to the 
peace process. In Afghanistan, that means getting a handle on 
opium production, which was 3,400 tons last year, accelerating 
to 4,000 this year. Three-quarters of the world's heroin is 
sourced in Afghanistan.
    The fourth lesson, the need to get neighboring states 
onboard. If they play local favorites or take a cut from 
illegal commerce, peace and legitimate government most likely 
will not survive.
    Finally, the great powers, and the United States in 
particular, needs to stay engaged. This doesn't guarantee 
success, but without it the transition is almost certain to 
fail.
    In terms of ISAF, in spring 2002 to counter speculation 
that expansion would necessarily entail several hundred 
thousand troops, my project developed a concept of operations 
briefed at the State and Defense offices, to congressional 
staff, and NGOs on an ISAF expansion concept. And the most 
recent update, which we will post on the Web after this 
hearing, calls for an increase to just over 17,000 troops, so 
about another 12,000. About 2,700 to provide security in cities 
where the U.N. assistance mission is deployed, and we are 
deploying PRTs, but the majority, eight- or nine-thousand air 
and ground forces, to provide security for repair and use of 
roads, as we've been talking about. I think road repair, which 
is finally underway, as we have heard, may be the single most 
visible and important investment we can make to Afghanistan's 
unity and economic growth.
    But use of repaired roads will require security. Expanded 
ISAF should operate jointly with the Afghan National Army and 
with the Interior Ministry's new highway patrol force, and hand 
off responsibility to those forces as they gain numbers and 
experience.
    Germany, as we've heard, has agreed to staff the Gardez 
PRT, and prefers, I believe, that it report to NATO ISAF rather 
than to Operation Enduring Freedom [OEF]. So this raises the 
question, should the PRTs remain under OEF command and control, 
or should they be chopped to ISAF now that it's under NATO 
command?
    The PRT concept has been presented, is highly adaptive to 
local conditions. I would suggest that PRTs outside the areas 
of greatest insecurity work under NATO ISAF. PRTs in the three 
most dangerous regions continue to work for OEF, where a single 
chain of command can be crucial. The ISAF highway security 
forces on the Kabul/Kandahar road would need to coordinate 
closely with OEF, or OEF will need to take on this job until 
overall security improves.
    I think the PRTs can and should be a kind of trellis for 
growing a greater regional security presence, international and 
domestic. There's a debate about their functions. The relief 
and development community wants and needs security providers. 
The PRT planners and commanders argue they can and do act more 
effectively on behalf of the central government. However, to 
the extent that the PRTs civilianize, then whatever capacity 
they have for providing security will probably be limited to 
force protection. If ISAF does expand, as suggested, its forces 
can assume the principal community security burdens from the 
PRTs. I think it would be a good match.
    PRTs should usefully emphasize, I think, two sets of 
activities--networking and support of law enforcement 
infrastructure. PRT commanders need topnotch communications, 
not just for themselves, but for the Governor and for his 
district officials, and they should be building structures that 
civilian aid providers are reluctant or unable to build--
courts, jails, police stations--for use by the police officers 
and rule-of-law officials that could be trained at the new 
facilities that would be co-located with the PRTs, which I 
think is a great idea. They need more ground mobility, probably 
some air assets, maybe small unmanned vehicles for 
reconnaissance in their areas, and discretionary spending.
    The PRTs and their officers are the cutting edge of U.S. 
influence at the local level, the avatars of the central 
government, and we like to think, since we trust them with the 
job, we should trust them with some of the money, provided what 
they do is consistent with the Kabul government's development 
objectives.
    Finally, they need to have public-affairs officers, maybe a 
radio broadcast capability, and a small dedicated engineering 
team to help them with their work.
    Turning to local training, the training program for the 
Afghan National Army is going to have 9,000 troops by mid 2004. 
As we saw, the national goal is 70,000. Even if training is 
accelerated, the nominal force will reach its goal by 2010.
    There's welcome acceleration of police training of all 
types. These rates will help government goals for police 
staffing be achieved by 2006. We might have some trained forces 
in the field by the time of the elections. I hope that, if the 
supplemental passes, the training facilities can be set up at 
breakneck speed so that we might have some trained police in 
the field by late winter 2004, because there's a need for 
security for the census and for voter registration months and 
months before the actual election. And I'm worried that we 
won't have sufficient security for that process.
    Acceleration of police training is quite welcome, but other 
elements of rule of law also need help. There are funds in the 
supplemental, but the requested funds for rule of law amount to 
36 cents per Afghan. The request for elections and government 
support amount to $2.75, roughly speaking, per potential voter. 
We plan to pay the national police and soldiers less than $900 
a year to provide vital security services, but we're planning 
to spend $125,000 per head for expatriate technical advisors, 
which may be necessary, but this is a rather great disparity in 
compensation.
    In the current supplemental, 5 percent less construction 
funding for Iraq could more than double the amount of new money 
available for reconstruction in Afghanistan. Absorptive 
capacity may be constrained, and I do appreciate that, but I 
would bet it could absorb more than 36 cents per head for rule 
of law. Stability in the country is of vital interest to the 
United States. Since time is money and we don't have all the 
time in the world, I'd suggest that we use money.
    Thank you, sir.
    [The prepared statement of Dr. Durch follows:]

Prepared Statement of Dr. William J. Durch, Senior Associate, The Henry 
                   L. Stimson Center, Washington, DC

    Mr. Chairman, Members of the Committee, it is an honor to have been 
invited to testify before the committee on the question of security in 
Afghanistan and the international community's potential contributions 
to it. Since American military operations began just over two years 
ago, this Committee has been at the forefront of thinking and action, 
in the best bipartisan tradition, to promote America's vital interest 
in post-conflict security and stability in Afghanistan. In these 
situations we tend to say that ``failure is not an option'' but it's 
still a possibility unless we work very hard to avoid it.
    The Pashtun-majority half of the country that shares a border with 
Pakistan is presently so unstable, for example, that civilian aid 
providers cannot access much of it. The United Nations Security 
Coordinator has recently declared a substantial part of the South and 
Southeast off limits to UN personnel. Attacks on US and allied forces 
and aid providers in this part of the country have accelerated sharply 
since last spring (see figure 1), as have US and Afghan forces' 
engagements of Taliban and Taliban supporters. The border with Pakistan 
is porous and many of the Taliban supporters who cross the border to 
engage US and Afghan forces are residents of Pakistan's border 
provinces. Most rocket and mortar attacks against friendly forces since 
the June 2002 Loya Jirga that launched the present transitional 
government of Afghanistan have occurred in the Southeast (table 1). 
Most of the bomb-related incidents, however, have occurred in or near 
Kabul.
    The United States has remained engaged in Afghanistan, fighting 
remnants of al Qaeda and the Taliban and promoting political and 
economic change, but funding the latter at levels insufficient to 
promote rapid recovery. The December 2001 Bonn Agreement, however, laid 
out a schedule for rapid recovery and its most important political 
milestones are now looming: new constitution, census, voter 
registration, and elections. The people and the peace process both need 
protection and, having stressed that such protection needs to be home-
grown, the United States and the international community are finally 
moving to accelerate the training and equipping of Afghan national 
forces, army and police. Even that accelerated process will not keep 
pace with the present Bonn timelines, however. Direct international 
help is required: some combination of expanded presence for the 
International Security Assistance Force (ISAF) and rapid evolution of 
the Provincial Reconstruction Team (PRT) concept. I would like to focus 
my remarks here today on these two security tools. I would like to 
start, however, by placing Afghanistan in the context of other post-
conflict peace operations and the lessons that consistently arise from 
those operations.
Lessons for Afghanistan from other war-to-peace transitions
    Close examination of more than a dozen other internal conflicts and 
efforts to help countries make the transition back to a stable peace 
yields five important lessons: First, local faction leaders' buy-in to 
the peace process is critical; they must be willing to shift their 
power struggles from military to political channels and to risk loss of 
power in elections. Militia leaders who want to cooperate and become 
politicians within the new governing structure may not agree to 
demobilize their forces, however, unless some sort of change-to 
security system is in place that they consider effective and fair. At 
the moment, there is no ``change-to'' security structure for most 
localities in Afghanistan. Ad interim, that role may need to be filled 
by international peacekeepers, but the faster and more effective are 
the training programs for national forces, the more likely will our 
friends and allies be to volunteer for such peacekeeping duties because 
they will be able to see their relief forces already forming.
    The first lesson is closely tied to the second, that 
demilitarization of politics is highly desirable before national 
elections. If factions' heavy weapons have been cantoned and their 
military formations demobilized, there is not much they can do to 
promote a rapid return to warfare. That lesson was bitterly learned in 
Angola, where more than 300,000 civilians died in a resumption of 
fighting after elections that the main rebel leader failed to win.
    In the case of Afghanistan, the most urgent case of 
demilitarization involves Kabul itself. Only the United States is in a 
position to press for the demilitarization of Kabul as provided in the 
Bonn Agreement. It should build barracks for Northern Alliance forces, 
perhaps at Charikar, between Kabul and the Panjshir Valley, and canton 
heavy weapons at Bagram Air Base under American supervision.
    The third lesson is the importance of cutting off would-be 
spoilers' access to highly portable, high-value commodities that they 
can use to fund resistance to the peace process. In Afghanistan, that 
means getting a handle on the exploding opium poppy crop (3,400 tons of 
opium gum produced last year and more than 4,000 tons expected this 
year).\1\ In the past two years, Afghanistan has resumed its former 
position as the source of three quarters of the world's heroin, which 
now feeds half a million addicts in the immediate region and much of 
Europe's heroin consumption, and funds organized criminal cartels and 
most likely al Qaeda. Note that, unlike Iraq's main marketable 
resource, Afghan heroin is self-aggrandizing (that is, if outsiders and 
the government do nothing to hinder it, the market takes off, generates 
a narco-criminal economy, provides resources for fundamentalist and 
terrorist organizations, and causes major damage locally, regionally, 
and globally).
---------------------------------------------------------------------------
    \1\ United Nations Office on Drugs and Crime, Global Illicit Drug 
Trends 2003 (Vienna, Austria: UNODC, March 2003), pp. 170-180. Owais 
Tohid, ``Bumper Year for Afghan Poppies,'' Christian Science Monitor, 
July 24, 2003.
---------------------------------------------------------------------------
    The fourth lesson is the need to get neighboring states to support 
the peace process in Afghanistan. If they play local favorites, look 
away as contraband crosses their borders or take a cut from that 
commerce, peace and legitimate government in Afghanistan most likely 
will not survive.
    Fifth, the great powers, and the United States in particular, need 
to stay engaged in the peace process. Such engagement does not 
guarantee success--the record of difficult transitions with great power 
engagement is mixed--but the historical record elsewhere suggests that, 
without it, Afghanistan's transition from war to peace is almost 
certain to fail.\2\
---------------------------------------------------------------------------
    \2\ For complete discussion see Stephen John Stedman, Donald 
Rothchild and Elizabeth M. Cousens, Ending Civil Wars (Boulder, Colo.: 
Lynne Rienner Publishers, 2002), pp. 1-66.
---------------------------------------------------------------------------
Implementing Peace in Afghanistan: the role of ISAF and the PRTs
    The International Security Assistance Force (ISAF), now under NATO 
command, and the Provincial Reconstruction Team (PRT) concept are the 
primary quick impact tools at the disposal of the international 
community for helping the Afghan government provide security in key 
locales during this critical transitional period, while national 
security forces are trained.
ISAF Expansion
    The Afghan government, the UN Assistance Mission in Afghanistan 
(UNAMA), and most of the NGO aid providers in the country have 
advocated expansion of ISAF beyond Kabul since early 2002. In spring 
2002, to counter speculation that such expansion would necessarily 
entail several hundred thousand troops, and to give the ISAF debate 
some reasonable analytical underpinnings, my project at the Stimson 
Center drafted a concept of operations that replicated ISAF-Kabul in 
seven other cities, taking into account their population and security 
situation relative to Kabul. We briefed the results to key offices in 
the Departments of State and Defense, to congressional staff, and to 
NGOs, and have posted them on the web, with periodic updates. The 
concept calls for an increase in ISAF personnel from the present 5,000 
to just over 17,000 troops (for results of the latest update, see 
figure 2 and tables 2 and 3). Some of these troops (about 2,700) would 
provide security in cities where UNAMA has its regional offices and the 
initial PRTs have been deployed. Note that each of these urban areas of 
operation would be fairly circumscribed, drawn to encompass the town, 
its adjoining airport, and a modest buffer zone, amounting to 1,000-
1,500 square kilometers.
    The majority of expanded ISAF forces (8-9,000 air and ground 
forces) would provide security for the repair and use of the roads 
linking those cities together. The numbers needed for this task were 
derived from standard NATO models for protecting lines of 
communication, with added air support for surveillance and rapid 
reaction. As national forces come on line, the US/international 
contribution to this task could increasingly revert to tactical air 
cover and intelligence (helicopter mobility and reinforcement, 
helicopter reconnaissance, Unmanned Aerial Vehicle [UAV] surveillance 
assets). Expanded ISAF should operate jointly, to the extent possible, 
with the Afghan national army and the Interior Ministry's highway 
patrol force, and with the Afghan national police, and hand off 
responsibility to those forces as they gain numbers and experience.
    In mid-2002, the US government lifted its objections to the 
expansion of ISAF; in August 2003, NATO formally assumed command of the 
force; and, on Monday, the UN Security Council unanimously agreed to 
expand its mandate to permit operations outside Kabul. It is now up to 
the North Atlantic Council to do so. Germany would like to send 450 
troops to the northeastern city of Kunduz, where the UN's pilot militia 
demobilization and disarmament effort, the Afghanistan New Beginnings 
Program, is slated to start soon. It would prefer that deployment be 
under the aegis of NATO and the UN mandate for ISAF.
PRT Command and Control
    Since Germany has also agreed to staff the Kunduz PRT, this raises 
an interesting question of command and control. Should the PRTs remain 
under the command of Operation Enduring Freedom (OEF) or should they 
perhaps transfer to ISAF, now that NATO provides a standing framework 
for ISAF planning and operations? What will better facilitate tie-ins 
to central government development plans, to UNAMA, to the training and 
equipping of Afghan security forces, and to the extension of the 
central government's authority, in fact and in perception? As the PRTs 
in the northern tier of the country internationalize (British in Mazar, 
New Zealanders in Bamiyan, Germans in Kunduz), are they better viewed 
as extensions of OEF or as elements of a separate post-conflict 
peacekeeping and reconstruction effort?
    Because the PRT concept has been presented as highly adaptive to 
local conditions, I would suggest that PRTs outside the areas of 
greatest insecurity--that is, outside the South, Southeast, and East--
work under NATO/ISAF but that PRTs in the three most dangerous regions 
continue to work for OEF, because a single chain of command can be 
crucial where combat is a daily risk. NATO and OEF should be able to 
work out cross-support arrangements for NATO's PRTs, although if the 
force structure sketched above were to be implemented, ISAF could 
provide its own cross-support in most circumstances.
PRT Needs and Priorities
    The PRTs' primary goals are local reassurance and extension of 
central government influence. They can and should also be a trellis for 
growing a greater security presence, both international and local. 
There is debate about the details of their functions, however. The 
relief and development community wants and needs security providers, 
not competing provision of assistance, but they themselves may or may 
not be seen locally as acting in the name of the Afghan government--as 
opposed to their home government, agency, or organization. PRT planners 
and commanders argue that they can and do act on behalf of the central 
government, although it is not clear how local actors actually credit 
PRT activities--as support from the central government or from 
Washington. I sympathize with both sets of arguments, make just two 
points: First, to the extent that the PRTs civilianize, with 
development experts, agronomists, veterinarians, and the like, then 
whatever capacity they have for providing security--which averages one 
or two platoons of troops per PRT--will necessarily be directed to 
force protection and not community security. Second, if ISAF does 
expand as suggested, its forces can assume the principal community 
security burdens in their defined areas of operation.
    The PRTs can usefully emphasize two sets of activities in any case: 
networking and support of law enforcement infrastructure. PRT 
commanders need top-notch communications, not only for reachback to OEF 
in dangerous circumstances but to promote communications within their 
areas of operations. That means satellite phones for use by the 
governor and his district officials, in the absence of landlines or 
commercial cellular service (which will appear as soon as security is 
good enough to protect its relay towers). It means building structures 
that civilian aid providers are reluctant or unable to build: courts, 
jails, and police stations for use by the officers trained at the new 
facilities to be co-located with several PRTs.
    To facilitate their work, the PRTs also should be given better 
ground mobility and spending authority. Equip them with Humvees instead 
of commercial 4X4s. Give them some air assets (small Unmanned Aerial 
Vehicles would be ideal). Give them discretionary spending authority up 
to some ceiling amount, say, $25,000 per project. The PRTs and their 
officers are the cutting edge of US influence at the local level and 
the avatars of the central government. Since we trust them with the 
job, we should trust them with the money to do the job, provided what 
they do is consistent with the Kabul government's development 
objectives.
    Finally, each PRT should have a public affairs officer to keep the 
public and local government informed of what they are doing and where 
they are headed. Consider giving each a radio broadcast capacity--
shortwave or FM as indicated by terrain and local listening habits. 
Give them each a small, dedicated engineering team, if reconstruction 
is to remain in their portfolios.\3\
---------------------------------------------------------------------------
    \3\ I am grateful for a number of these ideas and observations to 
Lt. Col. Christopher Allen, former commander of the Gardez PRT. Cited 
with permission.
---------------------------------------------------------------------------
Rebuilding Afghanistan's security sector
    The 18 month old training program for the Afghan National Army 
(ANA) will have produced ten battalions, about 6,000 professional 
troops, by the end of 2003 and aims to have another 3,000 trained by 
mid-2004 when national elections are presently scheduled. The national 
goal, set last year at the ``Bonn II'' meeting, is 70,000 soldiers. If 
training is accelerated, as proposed by the Administration, to around 
10,000 recruits per year, the nominal force goal will be reached in 
2010.
    There is welcome acceleration of police training of all types in 
the Administration's plans. Police training courses are designed to 
last about 16 weeks, meaning that each of eight training centers co-
located with a PRT should be able to train between 1,500 and 2,700 
police candidates per year (at 750-900 officer candidates per class). 
The justification for the supplemental suggests a breakout of 18,000 
national police, 4,000 border police, and 2,600 highway patrol officers 
trained annually. These rates will meet government goals for police 
staffing by 2006 and provide a baseline force to help secure 
Afghanistan's electoral process. That process must get underway soon in 
preparation for the scheduled June elections, however. By late winter 
2004, the training program may have graduated its first class, assuming 
that the facilities can be set up at breakneck speed this fall. So we 
are looking at perhaps 6,000 newly trained national police to secure a 
census (in a country where ethnic background matters a great deal and 
the last census predates the civil war) and voter registration; and 
perhaps 12,000 by next summer to secure the election (including 
protection for candidates, voters, voting places, and integrity of 
ballot boxes and vote counts). Localities may therefore have to rely in 
large part on local security forces and it is very important that these 
forces, and those who pay them, work on the side of transitional 
government.
    While the acceleration of police training is needed and welcome, 
the amount of money proposed to rebuild the other institutions of law 
enforcement and criminal justice seems rather meager. Funds requested 
for rule of law ($10 million) amount to 36 cents per Afghan, yet 
Afghanistan's formal justice system is essentially nonexistent. The 
request for elections and governance support amounts to roughly $2.75 
per potential voter (using U.S. Census Bureau population estimates).\4\ 
By contrast, the supplemental requests roughly $125,000 per expatriate 
technical adviser. Such advice may be needed but compares rather 
unfavorably with the roughly $1,300 per year that AID pays its national 
hires or the $840/year that we plan to pay national police and soldiers 
to provide vital security services.
---------------------------------------------------------------------------
    \4\ U.S. Census Bureau, ``IDB Summary Demographic Data for 
Afghanistan,'' available online at : www.census.gov/cgi-bin/ipc/ 
idbsum?cty=AF
---------------------------------------------------------------------------
    Indeed, in the current supplemental request, 5% less reconstruction 
funding for Iraq could more than double the amount of new money 
available for reconstruction in Afghanistan. Stability in Afghanistan 
is a vital interest of the United States. Since time is money and we do 
not have all the time in the world to achieve stability, we better use 
money.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Dr. Durch.
    Ambassador Tomsen.

 STATEMENT OF HON. PETER TOMSEN, FORMER U.S. SPECIAL ENVOY AND 
  AMBASSADOR TO AFGHANISTAN, 1989-1992 AND U.S. AMBASSADOR TO 
                 ARMENIA, 1995-1998, McLEAN, VA

    Ambassador Tomsen. Thank you, Mr. Chairman.
    Mr. Chairman, thank you for this hearing. Thank you also 
for your leadership and commitment in helping Afghanistan to 
attain the stability, peace, security, and economic revival it 
so desperately needs and so richly deserves.
    The Chairman. Thank you.
    Ambassador Tomsen. The bipartisan Afghan Freedom Support 
Act, which Senator Hagel took the lead in sponsoring in the 
Senate, and this committee, under the able leadership of 
yourself, sir, and former Chairman Biden, advanced to passage, 
laid out a clear and comprehensive road map toward success in 
Afghanistan. The President signed the AFSA into law in 2002.
    Mr. Chairman, there are recent indications that the 
Administration is belatedly attempting to implement the 
farsighted provisions of the Afghan Freedom Support Act. Since 
early September, the Administration is finally matching 
concrete action with rhetoric and promises. Its request for 
$1.2 billion for Afghanistan in the emergency supplemental, 
joined with the $600 million for Afghanistan in the fiscal year 
2004 budget, demonstrate the necessary high level of serious 
attention--determination and purpose, which has been lacking 
since the destruction of the Taliban/al-Qaeda regime. The 
administration's approach appears correctly aimed at restoring 
lost momentum in Afghanistan, addressing the growing security 
threat posed by the ominous Taliban comeback, instilling 
interagency discipline both in Washington and Afghanistan while 
giving fresh impetus to reconstruction.
    Mr. Chairman, I have two suggestions for action by the 
committee for you to consider. You've already mentioned the 
first one. Thank you, sir.
    The second one is Senate support for increased funding for 
Afghanistan in priority areas. In this regard, let me draw 
attention to the House Appropriations Committee's bill, which 
has been reported out. It recommends more funding than the 
President has requested in a number of critical areas, 
including education, road-building, private-sector development, 
irrigation, power generation, support for the Karzai 
government's infrastructure, elections, health, anti-narcotics, 
and police. Even if both Senate and House approve these 
increases, the emergency supplemental request for Afghanistan 
reconstruction will still be about 2 percent of the $87 
billion.
    I would suggest that additional funds also be provided for 
expansion of the PRTs. The $50 million requested by the 
administration will prove severely inadequate to meet the 
ambitious goal of doubling the number of PRTs and ensuring that 
the civil affairs projects they implement are not under-funded. 
In this connection, I would mention that only $14 million was 
allocated for fiscal year 2003 implementation of civil affairs 
projects by the PRTs in Afghanistan. The newspapers, New York 
Times, Washington Post, other media, report the outstanding 
General Petreas' comments in Northern Iraq, only Northern Iraq, 
and he says he's spent in 6 months over $25 million so far in 
that limited area.
    I think I would urge some caution in some of the comments 
earlier that Afghanistan's absorptive capacity is limited. I 
don't think it is. I think that a lot more could have been 
spent and should have been spent so far.
    The New York University study, which was headed up by 
Barney Rubin, mentions that only $197 million has actually been 
spent on projects in Afghanistan to date, despite the $4.5 
billion that was pledged.
    I have some comments on security, but it's already been 
covered in your statement and by others at this hearing.
    I would like to suggest two other cautions related to 
political as well as security aspects, Mr. Chairman. The first 
is that the United States keep out of the Afghan political 
briar patch. The U.S. and the international community have a 
golden opportunity to support the legitimately chosen and 
internationally recognized moderate Afghan regime headed by 
President Karzai. President Karzai, Foreign Minister Abdullah, 
and their moderate colleagues reflect the democratic 
aspirations and moderate outlook of most Afghans. The new U.S. 
initiative must, however, avoid a too-tight U.S. embrace of 
President Karzai and his regime. Unfortunately, steps by senior 
U.S. officials in Afghanistan have already given ammunition to 
allegations by the Taliban and other opposition forces that 
President Karzai is an American puppet. Such direct U.S. 
involvement in Afghan internal politics is ultimately 
counterproductive. Afghans want their President to be following 
his own agenda, not that of a foreign power.
    Unfortunately, an Afghan perception of American 
interference emerged from last year's loya jurga. One Afghan 
participant in that important event, whom I respect, told me 
that of the 1,500 Afghan loya jurga delegates, 1,000 went home 
to their villages stating that the Americans manipulated the 
loya jurga.
    The bottom line is that we should not follow the examples 
of British, Soviet, and Pakistani king-making in Afghanistan. 
We should remain aloof from Afghan politics, even while 
assisting the legitimate Karzai government. We must encourage 
cooperation and compromise and let the Afghans themselves 
determine the balances in their leadership.
    The second caution is a note that the U.S. initiative's new 
push should also avoid repeating the blow-back effect created 
during the Afghan-Soviet war and the Taliban period. Both 
Clinton administrations and the first year of the George W. 
Bush administration outsourced most of U.S./Afghan policy to 
Pakistan. And Pakistan's policy, managed by the Pakistani 
Military's Inter-Services Intelligence Directorate, or ISI, 
promoted Afghan radicals supported by Pakistani extremist 
parties, and, later, al-Qaeda.
    Some argue that President Musharraf has been doing as much 
as he can since publicly siding with the United States and the 
war on terrorism. I don't agree with that. I think President 
Musharraf can do more. He should not be permitted to dodge 
criticism of ISI's continuing support to the Taliban and other 
anti-Karzai radical Afghan militants based in Pakistan.
    Last year, President Musharraf, addressing a news 
conference, took responsibility for guiding the ISI. The 
September 7, 2002, edition of the Pakistani Daily News quoted 
him as stating, ``The government formulates policies and tells 
ISI what to do. They, ISI, do not do on their own. Hence, if 
there is anything wrong, the government is to blame, not the 
ISI.'' Therefore, it's most important that the United States 
not again be drawn into Pakistan's own maneuvering to put its 
favorite Afghans in Kabul.
    There are recent developments which, once again, have 
raised Afghan suspicions on this score, and I can go into them 
if you wish.
    Let me end by stating that Afghan reconstruction, when it's 
successful, will have tremendous regional and global benefits 
for the United States. Success in Afghanistan, Mr. Chairman, is 
often set in the context of negative results, such as counter-
terrorism, counter-narcotics, ending violations of human and 
gender rights. These are all worthy goals and in U.S. interests 
to pursue. But success in Afghanistan will also create positive 
results for the region, for the United States, and for the 
world. Afghanistan's turmoil has long been an obstacle to 
regional economic and democratic development. A peaceful, 
developing Afghanistan could instead become a facilitator of 
regional economic and democratic development.
    Afghanistan is located at the center of Eurasia. Global 
trade, transportation, and energy corridors potentially could 
crisscross a stable Afghanistan promoting economic cooperation 
rather than geopolitical competition among the nearby great 
powers of Eurasia. The resulting jump in Eurasian trade through 
Afghanistan would encourage the movement of ideas, including 
free market democracy along the trade routes, much as Buddhism 
and, later, Christianity spread through Asia via the maze of 
Eurasian Silk Road trading conduits 2,000 years ago.
    The new approach by the administration could, thus, 
usefully include a long-term Afghan strategy, which this 
committee has recommended previously. This strategy would 
incorporate broader regional goals to parallel Afghanistan's 
reconstruction goals. It is not farfetched to envision a future 
regional ASEAN-type free-trade zone in Central Asia, a U.S. 
Government-supported track-2 process toward this goal, or a 
Helsinki-style conference in the region to assist stability, 
economic cooperation, human rights, and open communication 
among the regional states surrounding Afghanistan.
    Mr. Chairman, let me conclude by expressing hope that 
Congress will approve the administration's request for 
additional funds for Iraq and Afghanistan. Success in 
Afghanistan will encourage success in Iraq, and vice versa. To 
repeat that common refrain, failure is not an option, either in 
Afghanistan or in Iraq.
    Thank you, sir.
    [The prepared statement of Ambassador Tomsen follows:]

 Prepared Statement of Hon. Peter Tomsen, Former United States Special 
     Envoy and Ambassador to Afghanistan, 1989-1992, United States 
                    Ambassador to Armenia, 1995-1998

    Mr. Chairman, members of the Committee, thank you for this hearing. 
Thank you also for your leadership and commitment in helping 
Afghanistan to attain the stability, peace, security and economic 
revival it so desperately needs and so richly deserves.
    The bipartisan Afghan Freedom Support Act (AFSA) which Senator 
Hagel took the lead in sponsoring in the Senate, and this Committee 
under the able leadership of Chairman Lugar and former Chairman Biden 
advanced to passage, laid out a clear and comprehensive roadmap toward 
success in Afghanistan. The President signed the AFSA into law in 
December, 2002. The bill correctly assumed that the well-executed, 
quick, American-led military victory over the Taliban-Al Qaeda was only 
the first of multiple innings. As in Iraq, securing that victory has 
also entailed planning and executing a successful reconstruction 
strategy to succeed in subsequent innings.
    To this end, AFSA called on the Administration to formulate a 
comprehensive Afghan policy and to provide sufficient resources to 
fulfill America's share of the costs of Afghan reconstruction. It 
correctly stressed the importance of Afghan institution rebuilding, 
Afghan ownership of the reconstruction process and careful interagency 
coordination to ensure that State, DOD, USAID and the CIA would all 
read from the same sheet of music in rebuilding Afghanistan. The bill 
recommended the creation of a Coordinator in the State Department to 
oversee interagency cooperation. The AFSA further stressed the 
importance of ensuring women's rights and implementing an effective 
anti-narcotics policy. It set aside one billion dollars for ISAF 
expansion to strengthen the hand of the legitimate national government 
in Kabul and to weaken the power of the warlords in Afghanistan's 
regions.
    These sensible recommendations in Congress' Afghan Freedom Support 
Act were not just pulled out of a hat. They were the product of a 
series of hearings in both Houses of Congress and a great deal of 
focused, hard work and well informed deliberation by Senators, members 
of Congress and their staffs.
    Mr. Chairman, until just last month, most policy and operational 
elements in the AFSA had so far either not been implemented, or had 
been only marginally implemented. In Washington and Afghanistan, drift, 
policy incoherence, interagency compartmentalization and squabbling, 
unfulfilled promises, plus under-funded, slow and poorly managed 
execution of reconstruction projects continued to characterize the 
Administration's approach to Afghanistan--two years after the U.S.-led 
coalition's brilliant military victory over the Taliban and Al Qaeda, 
and nine months after passage of the AFSA.
                        a fresh u.s. initiative
    Mr. Chairman, there are recent indications that the Administration 
is attempting to reverse the drift in its Afghan policy, restore lost 
momentum, address the growing security threat posed by the ominous 
Taliban comeback, instill interagency discipline in both Washington and 
in Afghanistan, and give real impetus to reconstruction. We can lament 
that these initiatives did not immediately follow up the military 
victory over the Taliban almost two years ago. We can lament that 
Congress' recommendations on problems of under-funding, interagency 
disunity and lack of a coherent umbrella strategy on Afghanistan 
identified in last year's AFSA were mostly ignored.
    It is, therefore, most welcome that, since early September, the 
Administration is finally matching concrete action with rhetoric and 
promises. Its request for $1.2 billion for Afghanistan in the Emergency 
Supplemental, joined with the $600 million for Afghanistan in the FY 
'04 Budget, demonstrate the necessary high level of serious attention, 
determination, and purpose which has been lacking since the destruction 
of the Taliban-Al Qaeda regime.
                       request for senate action
    In June, 2002, this Committee stepped up to the plate and 
cooperated closely with its counterparts on Chairman Henry Hyde's 
Committee in the House to obtain congressional approval of the AFSA. 
Below are two recommendations which the Committee could now undertake 
to support the Emergency Supplemental. Early attention to these 
recommendations in the Senate or in Conference would further strengthen 
execution of AFSA's key provisions.

          (a) Fortify Ambassador Taylor's position as Coordinator of 
        non-military assistance to Afghanistan. Ambassador Taylor's 
        ability to manage reconstruction programs would be 
        significantly strengthened by placing all non-military funds 
        for Afghanistan in an account which he supervises. Different 
        agencies and offices scattered around the government continue 
        to separately manage their own budgets. This omission has added 
        to the bureaucratic disunity, confusion and red tape which have 
        undermined our economic, humanitarian, democracy and security 
        programs in Afghanistan. Ambassador Taylor brilliantly managed 
        the U.S. assistance programs for the Newly Independent States 
        before being asked to assume his current responsibilities on 
        Afghanistan. He is thoroughly acquainted with the U.S. 
        assistance bureaucracy; he is known and respected by his 
        counterparts in the international assistance community. 
        Centralizing the non-military assistance budget for Afghanistan 
        under Coordinator Taylor will significantly upgrade the 
        efficiency and quality of U.S. assistance to Afghanistan.

          (b) Senate support for increased funding for Afghanistan in 
        priority areas. The House Appropriations Committee has reported 
        out a bill which recommends more funding than the President has 
        requested in a number of critical areas, including in 
        education, private sector development and power generation, 
        support for the Karzai government's infrastructure, elections, 
        health, anti-narcotics and police. Even if both Senate and 
        House approve these increases, the Emergency Supplemental 
        requests for Afghanistan will still be less than 2% of the $87 
        billion. I would suggest that additional funds also be provided 
        for expansion of the Provincial Reconstruction Teams (PRTs). 
        The $50 million requested by the Administration will prove 
        severely inadequate to meet the ambitious goal of doubling the 
        number of PRTs and ensuring that the civil affairs projects 
        they implement are not under-funded.
    rising security threats challenge economic, democratic progress
    The Administration's initiative on Afghanistan will need to give 
priority attention to improving security. The Taliban have regrouped. 
Staging from Pakistan, Taliban attacks on U.S.-led coalition forces, 
local Afghan government officials and international aid workers have 
eroded or stopped reconstruction activity in many areas along the 
Afghan-Pakistan border. The Taliban, in cooperation with Al Qaeda and 
supported by elements in the Pakistani ISI and Pakistani radical Muslim 
parties, will likely next focus on provinces adjoining Kabul as well as 
Kabul itself. Confrontations between warlords in some regions of 
Afghanistan and increasing criminal activity further undermine 
security.
    These worrisome security trends could postpone the Bonn 
Conference's roadmap of a constitutional Loya Jirga in December and 
Afghan elections in 2004. Deteriorating security will also block or 
delay implementation of women's' programs, from school attendance to 
seeking employment opportunities outside the home. Unable to get their 
produce to market due to insecure roads, Afghan farmers will plant more 
opium and sell it to the sophisticated opium mafia operating from 
Pakistan, Central Asia and Russia. The disarmament, demobilization and 
re-integration (DDR) process could also be further delayed.
    The Administration has wisely decided to give more attention to 
rebuilding Afghanistan's national police force. This emphasis will 
improve security throughout Afghanistan, undercut the warlords' local 
monopoly of power, and nicely complement the training and equipping of 
the Afghan army. NATO ISAF deployment outside Kabul, which the United 
Nations Security Council has just approved, will also buttress security 
in Afghanistan.
                       some positive developments
    Mr. Chairman, Administration officials from today's earlier panel 
have described in detail the Administration's fresh initiative to 
regain lost momentum in Afghanistan. This effort will be bolstered by a 
number of positive developments in Afghanistan.
    Afghanistan enjoyed a bumper wheat crop this year. Two million 
refugees have returned--the largest voluntary repatriation of refugees 
ever recorded. Sharing of revenue with the Kabul government began last 
year with $80 million remitted. So far, about $140 million has been 
transferred by warlords to the central government this year. There 
appears to be a consensus building on a division of labor between NGOs 
and the PRTs. Kabulis, assisted by some foreign investors, are 
beginning to restore small business activity which is contributing to a 
surge in trade, shopping, and construction in Kabul. Some long-delayed 
mega-projects are finally going forward. President Bush's intervention 
forced acceleration of work by USAID contractors on the long-delayed 
repair of the Kabul-Kandahar road. Millions of Afghan children are back 
at school. If security improves, the Bonn process can continue along 
its implementation path, although the 2004 elections will almost 
certainly choose a President, not a Parliament.
         u.s. must keep out of the afghan political briar patch
    The U.S. and the international community have a golden opportunity 
to support the legitimately chosen and internationally recognized 
moderate Afghan regime headed by President Karzai. President Karzai, 
Foreign Minister Abdullah and their moderate colleagues reflect the 
democratic aspirations and moderate outlook of most Afghans. The new 
American initiative's goal to strengthen the Karzai regime and its 
reach into Afghanistan's regions and provinces will have beneficial 
effects in both the short and long run. As that government revives 
Afghan institutions and expands its economic and security presence 
outside Kabul, warlord rule and radical Taliban influence will slowly 
weaken.
    The new U.S. initiative must, however, avoid a tight U.S. embrace 
of President Karzai and his regime. Unfortunately, steps by senior U.S. 
officials in Afghanistan have already given ammunition to allegations 
by the Taliban and other opposition forces that President Karzai is an 
American puppet. Such direct U.S. involvement in Afghan internal 
politics is ultimately counterproductive. Afghans want their President 
to be following his own agenda, not that of a foreign power.
    It is well to remember that no country has ever succeeded in 
deciding who rules in Afghanistan. The British imposed Shah Shuja--he 
was executed by the Afghans. The Soviets for eight years tried to forge 
unity between the bickering Khalqi and Parchami Afghan communist 
factions. Moscow appointed, removed, assassinated, and exiled numerous 
Afghan communist leaders during this period, but never succeeded in 
establishing a stable Afghan leadership. In an environment we never 
understood, the U.S. reaped similar negative consequences in playing 
musical chairs with Saigon generals in the 1960s.
    Unfortunately, an Afghan perception of American interference 
emerged from last year's Loya Jirga. One Afghan participant in that 
important event whom I respect told me that, of the 1,500 Afghan Loya 
Jirga delegates, 1,000 went home to their villages stating that the 
Americans manipulated the Loya Jirga. A U.S. official recounted to me 
that we failed to get a Prime Minister appointed because we were 
``outmaneuvered'' by Afghans at the Loya Jirga opposing the idea.
    The bottom line is that we should not follow the examples of 
British, Soviet and Pakistani kingmaking in Afghanistan. We should 
remain aloof from Afghan politics, even while assisting the legitimate 
Karzai government. We must encourage cooperation and compromise, and 
let the Afghans themselves determine the balances in their leadership. 
Our diplomats, military personnel and aid workers should not appear to 
be just another faction--or factions--maneuvering within the murky, 
emotional Afghan polity. We are far more likely to succeed in 
Afghanistan if we are not seen as the latest in the historic queue of 
foreigners trying unsuccessfully to select Afghan leaders.
                      stop outsourcing to pakistan
    The new U.S. initiative should also avoid repeating the 
``blowback'' effect created during the Afghan-Soviet war and the 
Taliban period. Both Clinton Administrations and the first year of the 
George W. Bush Administration ``outsourced'' U.S. Afghan policy to 
Pakistan. And Pakistan's policy, managed by the Pakistan's military's 
Interservices Intelligence Directorate (ISI), promoted Afghan radicals 
supported by Pakistani extremist parties and later Al Qaeda. Today, 
General Musharraf and his allies in the Pakistani military are 
following a two-track policy administered by ISI of: (a) cooperating 
with the U.S. in hunting down Al Qaeda elements in Pakistan, most of 
them foreigners, and (b) continuing to preserve their two-decade-long 
investment in radical Afghans, including the Taliban, and the 
virulently anti-American Gulbuddin Hekmatyar. In the 1980s and 1990s, 
Pakistan's ISI, with Osama bin Ladin and Pakistani religious parties, 
constructed the extremist Muslim infrastructure straddling the Afghan-
Pakistani frontier. That infrastructure continues to harbor almost all 
of the Taliban cabinet, Hekmatyar, and probably Osama bin Ladin 
himself.
    Some argue that President Musharraf has been doing as much as he 
can since publicly siding with the U.S. in the war on terrorism. But 
President Musharraf can do more. He should not be permitted to dodge 
criticism of ISI's continued support to the Taliban and other anti-
Karzai radical Afghan militants based in Pakistan. Last year, President 
Musharraf, addressing a news conference, took responsibility for 
guiding the ISI. The September 7, 2002 edition of the Pakistani daily 
``News'' quoted him as stating: ``The government formulates policies 
and tells ISI what to do. They (ISI) do not do on their own. Hence, if 
there is anything wrong, the government is to be blamed, not the ISI.''
    The U.S. should not again be drawn into Pakistan's own maneuvering 
to put its favored Afghans in Kabul. In the 1980s and 1990s, the CIA 
coordinated with ISI in supporting the Afghan extremists, in particular 
Hekmatyar, while keeping Afghan moderates such as Hamid Karzai and 
Abdul Haq at arms length. After 9/11, moderate Afghan leaders were 
stunned when Secretary of State Colin Powell at an Islamabad news 
conference seemed to be promoting Pakistan's agenda in calling for 
Taliban representation in the post-Taliban government. During CENTCOM 
commander Tommy Frank's November, 1991 war strategy visit to Islamabad, 
the CIA introduced Afghan warlord Gul Agha to him as one deserving U.S. 
support. Gul Agha, with CIA and U.S. Special Forces backing, was 
subsequently able to re-occupy the governor's headquarters in Kandahar. 
President Karzai recently managed to replace Gul Agha, but only after 
seventeen months of the warlord's corrupt, despotic rule which 
witnessed a resurgence of Taliban presence in the Kandahar region. This 
month's news reports about the release of the former Taliban Foreign 
Minister, Mullah Mutawakil, from an American prison in Kandahar has 
reignited Afghan suspicions that Islamabad and Washington are again 
attempting to manipulate Afghan politics.
          afghan reconstruction: regional and global benefits
    Success in Afghanistan is often set in the context of negative 
results, such as counter-terrorism, counter-narcotics, ending violation 
of human and gender rights. These are all worthy goals and in U.S. 
interests to pursue.
    But success in Afghanistan will also create positive results, for 
the region, for the U.S and for the world.
    Afghanistan's turmoil, for example, has long been an obstacle to 
regional economic and democratic development. A peaceful, developing 
Afghanistan could instead become a facilitator of regional economic and 
democratic development.
    Afghanistan is located at the center of Eurasia. Global trade, 
transportation and energy corridors potentially could criss-cross a 
stable Afghanistan, promoting economic cooperation rather than geo-
political competition among the nearby Great Powers of Eurasia. As in 
the Silk Road era, Afghanistan could be the connecting point for trade 
along continental North-South and East-West axes, bringing together 
markets and economics, moving Caspian basin and Russian Siberian 
resources to resource-starved South Asia, and moving Chinese products 
west to the Middle East and Europe.
    The resulting jump in Eurasian trade through Afghanistan would 
encourage the movement of ideas, including free market democracy, along 
the trade routes--much as Buddhism and later Christianity spread 
through Asia via the maze of Silk Road trading conduits two thousand 
years ago. Eventual rising living standards and middle class 
development in the broader Eurasian region would follow, reinforcing 
democratic and free market currents. So would the success of Karzai 
government in restoring Afghanistan to the democratic track it was on 
before the Soviet invasion ushered in more than two decades of war.
    The Administration's new approach could thus usefully include a 
long-term Afghan strategy which will incorporate broader regional goals 
to parallel Afghanistan reconstruction goals. The two sets of 
objectives would reinforce one another. Bold creativity and thinking 
big could produce lasting benefits. It is not far-fetched to envision a 
future regional ASEAN-type free trade zone in Central Asia; a U.S. 
government-supported track II process toward this goal; or a Helsinki-
style conference in the region to assist stability, economic 
cooperation, human rights and open communication among the regional 
states surrounding Afghanistan. The Helsinki conference model could 
also begin the process of recognizing controversial but de facto 
borders, including the Durand Line between Pakistan and Afghanistan and 
the Line of Control separating Kashmir. Many South Asian and Western 
scholars believe that giving international legality to the Durand Line 
and the Line of Control is the only way to solve these disputes. A 
broadly inclusive Helsinki-style regional conference would give 
``cover'' to leaders in Afghanistan, Pakistan and India to conclude 
productive boundary negotiations. Once the negotiations are underway, 
the International Court of Justice in The Hague could assist the 
parties in reaching a final resolution.
    Mr. Chairman, let me conclude by expressing hope that Congress will 
approve the Administration's request for additional funds for Iraq and 
Afghanistan. Success in Afghanistan will encourage success in Iraq, and 
vice-versa. Failure is not an option in either country.

    The Chairman. Thank you very much, Ambassador Tomsen.
    The predicted second vote has commenced, which means that 
my colleagues are probably voting and hopefully will be 
returning very shortly. I think in fairness to our witnesses, 
we will recess temporarily again so that you will be heard in 
full and hopefully by a larger audience, Ms. Lindborg. And 
then, as Senators return now, if some have questions for our 
previous panel, they may wish to raise those. Hopefully, we'll 
have some stability after the second vote, and proceed in a 
more orderly way with each of our witnesses in our questions.
    So, for the moment, the hearing is recessed again, and we 
will be back shortly.
    [Recess.]
    The Chairman. The hearing is called to order again.
    Let me ask Senator Biden if he has additional questions for 
the first panel. I asked them, and they have patiently stayed 
in reserve.
    Senator Biden. I apologize, gentlemen. We had back-to-back 
votes, and we were being importuned on the floor by an upcoming 
vote that relates to things that you have some interest in.
    No, I thank you for waiting. But with your permission, Mr. 
Chairman, I may have one or two questions in writing. And, 
general, I'd like to explore, in a written question, timetables 
with you. Again, not looking to hold you down to precise--but 
just to get a sense of what we're looking at, in terms of, (a) 
the possibility of expanding ISAF, what NATO is looking--what 
we're looking down the road and hoping for, and what the ANA is 
likely to look like. And then I want to talk a little bit about 
police forces. But I will not do that with you now. I may do a 
few questions. No hurry in getting back on it. Doesn't have to 
be in right away, but I would like it for the record. OK?
    And I thank you very much. I apologize for you having to 
wait for me to come back.
    The Chairman. Thank you very much, Senator Biden.
    Obviously, we're delighted for you to stay as long as you 
wish, but we thank you all, and the panel is excused from 
official duty at this point. We hope you'll be responsive to 
questions from Senator Biden and others in writing when they 
come.
    Thank you very much.
    Now, we have had initial statements by Dr. Durch and by 
Ambassador Tomsen, and I'll call now upon Ms. Lindborg for her 
statement.
    Thank you for your patience.

  STATEMENT OF MS. NANCY LINDBORG, EXECUTIVE VICE PRESIDENT, 
       MERCY CORPS, MEMBER OF INTERACTION, WASHINGTON, DC

    Ms. Lindborg. Thank you. Thank you, Mr. Chairman, Senator 
Biden. Thank you very much for this opportunity to speak about 
the challenges in Afghanistan. And thanks especially for the 
continued leadership and commitment that both of you have shown 
in this issue. It's been very appreciated.
    The burden of going last, I'll try not to be too 
repetitive, but I will offer a slightly different perspective, 
which is one from an NGO that's worked in Afghanistan since 
1986, which is the case for a number of our NGO colleagues. And 
I've just returned, and we have, until recently, worked without 
serious incident in Afghanistan--under the chaos of the 
mujadin, under the rule of the Taliban--but in just the last 10 
months, Mercy Corps alone has had two staff members killed, 
four staff members kidnaped, gunfire sprayed at our vehicles, 
two cars burned, and a bomb lobbed at our sub-offices. And 
other agencies have had similar experiences. Since September 
2002, armed attacks against the assistance community have gone 
from about one a month to a current average of one every 2 
days. Ten aid workers have been murdered since March.
    And I have with me here the latest 15-page weekly summary 
from our NGO security network that summarizes the many 
bombings, kidnapings, robberies, and killings of Afghan 
citizens and army and police members that don't make it into 
the headlines, the night letters that are posted at mosques 
warning communities not to cooperate with assistance programs. 
And on October 6, there was a notice posted on two mosques in 
Kandahar city warning all staff members of aid agencies to quit 
their jobs within 6 days.
    Currently, half of the country's 32 provinces are currently 
deemed high risk for aid work, according to UNAMA. It is 
clearly in the best interest of a confluence of bad actors--the 
poppy growers, the Taliban, and the warlords, and various power 
brokers--to keep the country destabilized. And as increasing 
parts of the country are declared to be no-go zones by both 
national and international assistance workers, communities are 
left with decreasing confidence in the future of the new 
Afghanistan.
    Of particular concern is the impact of this on the Bonn 
process, which others have spoken about. I think that basically 
in the 22 months since the Taliban failed, the international 
community has failed to provide the two essential ingredients 
for both security and democracy, as this hearing is focused on, 
and that's security in a serious and committed way, and enough 
financial assistance.
    And this week, I'm pleased both by the comments of the 
previous panel, but by the two important opportunities that we 
have to signal our commitment to a safe and democratic 
Afghanistan. One is the unanimous resolution passed by the U.N. 
Security Council on Monday that enables the NATO-led ISAF to 
expand. And I know that both of you have been very vocal about 
the need to do this. And hopefully now there will be no further 
barriers to doing so. And coupled with the opportunity to put 
additional funding into Afghanistan, I'm hopeful that that will 
help us turn the tide.
    I think, as you both know, Afghanistan has been seriously 
underfunded as it has struggled to emerge from the conflicts. 
There has been a--if you compare it with the per-capita 
spending in recent conflicts, such as Rwanda, East Timor, 
Kosovo, Bosnia, where there was an average of $250 per person 
on an annual basis, in 2002, there was an average investment of 
$64 per person in Afghanistan, which is a serious and troubling 
comparison.
    The additional funds that the supplemental that you're 
currently discussing provides for Afghanistan are essential and 
can push forward a number of critical programs. I understand 
there's been an amendment put forward just this morning by 
Senators Biden and Byrd that would put an additional $387 
million into the request, and I urge you to support the request 
at that higher level.
    However, ending the----
    Senator Biden. Just for the record, so I can go back to the 
floor, it's Byrd and Biden.
    Ms. Lindborg. I'm giving precedent to those who are 
present.
    Senator Biden. No, I know you are. I know you are.
    Ms. Lindborg. But I stand corrected.
    Senator Biden. I appreciate it very much. I just want 
Senator Byrd to hear that.
    But I'm kidding. Go ahead.
    Ms. Lindborg. Any increase in foreign assistance 
underscores the need for a secure environment in which 
reconstruction and democracy can be effective. And this is a 
lesson that we've learned in a lot of other environments. In 
fact, I participated as a member of the CSIS/AUSA blue-ribbon 
commission on post-conflict reconstruction this past year, 
which included Members of Congress, bipartisan Members of 
Congress, military leaders, senior policy experts from the 
government, and the international and non-governmental sector. 
Really the No. 1 finding was that security is the essential 
ingredient for any reconstruction to go forward and that unless 
the security needs are addressed up front, the spoilers will 
find the weak areas and retain leverage to affect the political 
outcomes, they will spoil the peace. And I think this is a 
description of what's happened in Afghanistan over the past 
year and a half.
    I understand that if the Foreign Relations Authorization 
bill is passed, it could include an amendment that's based on 
some of the findings in this commission. And while I'm aware 
the prospects for that legislation remain uncertain, I hope 
that it could still be considered in the future.
    And I'm also very encouraged to hear that in the coming 
year, this committee may focus more heavily on our country's 
ability to respond more effectively in post-conflict 
reconstruction environments, and I find that very heartening.
    However, despite that lesson, as you know, and many, many 
calls for an expanded ISAF, until this week it remained 
confined to Kabul. Instead, the U.S. response was to create the 
PRTs. And I hate to the be only one today to not jump on the 
PRT bandwagon, but I think that although they were a creative 
experiment, in the four pilots thus far they lacked the mandate 
and they lacked the resources to provide either security or 
reconstruction. They were not strategically located in insecure 
areas. Anywhere they were, aid workers were also able to work, 
and they focused on often duplicative efforts to build small-
scale projects such as schools and clinics.
    The military has a core competency that nobody else has, 
which is the provision of security. There are many other local 
and international organizations with the core competency to 
provide community development assistance. And I think that as 
we move forward, if the PRTs are to be a part of the security 
environment, they need to have a substantially evolved mandate 
to refocus on security.
    The announced expansion of ISAF to the PRT in Kunduz, it's 
a good first step, in terms of signaling that it will expand, 
but it must go far beyond that, the ISAF must, if it is to 
truly and effectively address the security needs of 
Afghanistan.
    The British have recently begun their version of a PRT in 
Mazar, with a much more explicit mandate to provide security 
and a focus on disarmament and a reconstruction of large 
government infrastructure projects. That's an approach worth 
watching if we do intend to remain with the PRT model.
    Obviously, the long-term solution is in the development of 
the Afghanistan National Army and police. It's far behind 
schedule. I was hopeful to hear what the previous speakers had 
to say about that, moving that forward.
    Finally, I would just note that the solution is not to 
channel all assistance through the military or to provide all 
aid workers with firearms and military escorts, which I fear is 
sometimes the conclusion that one reaches. Rather, we need to 
focus on creating the ambient environment, ambient security 
that enables Afghanistanis to invest in their future and for 
reconstruction, democracy, and development work to go forward. 
Aid workers are not asking for armed escorts and guards, just 
as the people of Afghanistan are not asking, each and every one 
of them, to have armed escorts. Rather, we need to focus on 
creating the overall secure environment that allows people to 
confidently invest in their future.
    I saw a lot to be very optimistic about in my recent visit, 
but it was mainly confined to Kabul and to the safer parts of 
Kandahar City. There are good things happening. I visited women 
who have doubled their income through micro-credit programs and 
have exciting plans for the future of their families. I visited 
with my Mercy Corps country teams, where people who have worked 
for us for 12 years are absolutely committed to staying the 
course, despite the very real risks that they face, and they 
see this as a critical turning point for their country, and 
they are devastated that that future may be slipping through 
their fingers.
    As you consider the supplemental request that's on the 
Floor, I would urge you to ensure that whatever needs to happen 
to enable ISAF to truly expand and to truly, in a genuine 
committed way, address security needs in Afghanistan, that you 
do so. And, second, I urge you to support the increased 
allocation in the Byrd and Biden amendment to increase the part 
of this supplemental that would benefit Afghanistan.
    I don't think that there's so much an absorptive capacity 
problem in Afghanistan. There's much more capacity than we're 
currently using. There is just security constraints with--there 
are many projects that are stalled that could be further 
invested in if there was a secure environment that enabled it 
to go forward.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

  Prepared Statement of Ms. Nancy Lindborg, Executive Vice President, 
           Mercy Corps, Member of InterAction, Washington, DC

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to speak about the challenges in Afghanistan, and thank you 
especially for the continued leadership and commitment you have 
demonstrated on this important issue.
    I have just returned from Afghanistan last week. Mercy Corps had 
until recently worked without serious incident in Afghanistan since 
1986, under the chaos of the mujahedin and under the rule of the 
Taliban. But just in the last ten months, Mercy Corps alone has had two 
staff members killed, four staff members kidnapped, gunfire sprayed at 
one of our vehicles, two cars burned and a bomb lobbed at one of our 
sub-offices.
    Other agencies have had similar experiences, as since September 
2002, armed attacks against the assistance community have gone from one 
a month to a current average of one every two days. Ten aid workers 
have been murdered since March.\1\ And I have in hand the latest 15-
page weekly summary from the NGO security network summarizing the many 
bombings, kidnappings, robberies and school burnings that don't make it 
into the headlines. Night letters are posted at mosques warning 
communities not to cooperate with western aid agencies and threatening 
them not to attend the funerals of those killed while doing so.\2\ On 
October 6th, a notice was posted at two mosques in Kandahar City 
warning that all local staff members working for any international 
organization have a deadline of six days to resign from their jobs.
---------------------------------------------------------------------------
    \1\ Barbara Stapleton, ACBAR Security meeting, October 2, 2003, 
Kabul.
    \2\ Afghanistan Non-Governmental Organization Security Office 
(ANSO) Weekly Situation Summary, Report Number--038/03.
---------------------------------------------------------------------------
    Currently half of the country's 32 provinces have areas deemed high 
risk for aid work, according to UNAMA. It is in the best interest of a 
confluence of bad actors--poppy growers, Taliban and warlords--to keep 
the country destabilized. And as increasing parts of the country are 
declared to be no-go zones by both national and international 
assistance workers, communities are left with decreasing confidence in 
the future of a new Afghanistan.
    On June 17th, more than 80 NGOs issued a call for expanded 
International Security Assistance Forces (ISAF), citing the chilling 
impact of insecurity on the ability of Afghan families to invest in 
their own future, on the reconstruction progress and on the process of 
elections and voter registration.
    Of particular concern is the impact of this rising insecurity on 
the Bonn Process, which calls for a new constitution and elections by 
June 2004. Elections require an environment free from violence, 
intimidation and coercion. Large parts of the south and southeast are 
currently too unsafe for election monitors to travel, threatening to 
undermine efforts to enable the Afghan people to freely choose their 
own government by the June 2004 deadline.
    In the twenty-two months since the Taliban fell, the international 
community has failed to provide the two essential ingredients for 
democracy and reconstruction: security and sufficient financial 
assistance. We have squandered precious time and, even more 
importantly, the confidence of the Afghan people that we won't walk 
away from them again, as many of them believe we did a decade ago.
    This week, we have two important opportunities to signal our 
commitment to a safe and democratic Afghanistan: On Monday, the United 
Nations Security Council unanimously passed a resolution that approves 
the expansion of the now NATO-led International Security Assistance 
Force (ISAF) beyond the limits of Kabul city, which enables us to make 
a genuine commitment to security. And this week you and your colleagues 
have the chance to put critically needed new funding into Afghanistan 
with the passage of the President's Emergency Supplement Request.
    Since 2002, Afghanistan has been consistently under-funded. Despite 
early pledges at the Tokyo donor conference in 2002, and an April 2002 
declaration of a Marshall Plan for Afghanistan by President Bush, 
Afghanistan has only received a fraction of the $10.2 billion the World 
Bank/UNDP assessment identified as necessary for the first five years. 
The majority of those initial donor pledges have not yet fully 
materialized, nearly two years later, and even those funds currently 
committed are shockingly low compared to other post-conflict settings. 
In 2002, donors spent an average of $64 per person in Afghanistan, 
compared to an average of $250 per person in Rwanda, East Timor, Kosovo 
and Bosnia.\3\
---------------------------------------------------------------------------
    \3\ In four recent post-conflict settings (Rwanda, East Timor, 
Kosovo and Bosnia), donors spent an average of $250 per person in aid 
versus per capita expenditures of $64 for Afghanistan. Using that as 
the yardstick, Afghanistan assistance would equal $5.5 billion per year 
for each of the next four years. At the Tokyo 2002 conference, donors 
pledged $4.5 billion in reconstruction funding over five years. Even 
more sobering is the contrast to the proposed Iraq annual figure of $20 
billion for Iraq for this year alone. CARE International and the Center 
on International Cooperation, Policy Brief, September 15, 2003
---------------------------------------------------------------------------
    It is time to launch a new, comprehensive assessment to determine 
how much Afghanistan really needs over the next five years to move 
towards political stability, security and legitimate economic growth. 
The initial World Bank assessment was done quickly and without full 
information. It is time to conduct a more thorough assessment and 
pledge to respond on the basis of need.
    The additional funds for Afghanistan requested in the new emergency 
supplemental are essential and will push forward critical programs. 
House leadership has already voted to increase the President's request 
for Afghanistan, as they have noted the high priority that Afghanistan 
represents and the many important projects not yet funded. I urge you 
to do the same. However, any increase in foreign assistance funds 
underscores the need for a secure environment in which reconstruction 
and democracy can be effective, a lesson drawn from the cumulative 
experiences of the past decade. This last year I participated as a 
member of the CSIS/AUSA Blue Ribbon Commission on Post-Conflict 
Reconstruction where a diverse group of bipartisan members of Congress, 
military leaders and senior policy experts from the US government, 
international organizations and the non-governmental sector considered 
how we as a country might better organize our response to the 
continuing challenges of wining the peace by rebuilding failed nations.
    One key finding of the Commission was that ``Security is the sine 
qua non of post-conflict reconstruction . . . if security needs are not 
met, both the peace in a given country and the intervention intended to 
promote it are doomed to fail. Unless comprehensive security needs are 
addressed up front, spoilers will find the weak areas and retain 
leverage to affect the political outcomes, vitiating the peace.'' \4\
---------------------------------------------------------------------------
    \4\ Findings of this commission are summarized in ``Play to Win,'' 
January 2003, a joint report of CSIS and AUSA available at 
www.pcrproject.org.
---------------------------------------------------------------------------
    I understand that if the Foreign Relations Authorization bill is 
passed, it is likely to include an amendment that is based on some of 
the findings and recommendations of that Post-Conflict Commission. 
While I am aware that prospects for this legislation are uncertain, I 
hope such an amendment can still be considered in the future, as we 
will continue to wrestle with these issues if the last decade is any 
indicator. I am also encouraged to hear that in the coming year this 
Committee intends to focus more heavily on our country's ability to 
respond effectively to post-conflict situations.
    Despite these lessons from the past and our continued calls for an 
expanded International Security Assistance Force (ISAF), however, those 
5,300 troops have until this week been constrained by a mandate to 
operate only within the city of Kabul, while the rest of Afghanistan 
has spiraled into unrest and violence.\5\ Instead, the US response was 
to create Provincial Reconstruction Teams (PRTs), small groups of 40--
100 military personnel. Although a creative experiment, the PRTs have 
thus far lacked the mandate and resources to provide either security or 
reconstruction. They have not been strategically located in those 
insecure areas inaccessible to aid workers, but rather have focused on 
often-duplicative efforts to build small-scale projects such as school 
and clinics. The military has a core competency held by no one else, 
which is the provision of security. There are many other local and 
international organizations whose core competency is to provide 
community development assistance at a lower cost and with greater 
expertise if the security environment permits.
---------------------------------------------------------------------------
    \5\ The 4,800 ISAF members in Afghanistan on a per capita basis 
equal one peacekeeper per 5,380 Afghans. This is compared with Kosovo 
(1 per 48), Bosnia (1 per 58), East Timor (1 per 86) and Rawanda (1 per 
3,350) Care International Policy Brief, January 2003.
---------------------------------------------------------------------------
    The PRTs must have a serious shift in focus and mandate if they are 
to play a useful and coordinated role in the expansion of ISAF. The 
announced expansion of ISAF to the PRT in Kunduz is a good first step, 
but it must go far beyond that to address effectively the security 
needs of Afghanistan and reach into the more insecure parts of the 
country. The British have recently begun their version of a PRT in 
Mazar with a more explicit mandate to provide security with a focus on 
disarmament, army and police training, and reconstruction of large 
government infrastructure. This approach is well worth watching as a 
model for evolving the PRT approach.
    Clearly the long-term solution for Afghanistan is the development 
of its own national army and police force. Efforts to create either 
force are currently far behind schedule, with only 4,000 of the 70,000 
proposed army force trained to date. According to the most optimistic 
assumptions, the central government will only have 9,000 soldiers to 
deploy by mid-2004. The police training effort is similarly behind 
schedule. The requested supplement funds will be a critical boost to 
these efforts, but until these forces are prepared to take a more 
active role, we must address the security gap that exists now or risk 
all the progress already seen in Afghanistan.
    The primary purpose of my recent trip to Afghanistan was to meet 
with the Mercy Corps country team and with colleague agencies to 
determine how and if we might be able to continue operations in the 
current and very dangerous environment. In various meetings held in 
Kabul and Kandahar, I heard many excellent and constructive 
recommendations worth considering: Patrol key roads in insecure 
regions, increase attention to the border areas through which a stream 
of Taliban fighters pass. Stop assistance to the many militias under 
warlord command. Roll out regional training of the Afghan National Army 
and local police to increase their presence beyond Kabul. Refocus the 
PRTs to have a security mandate and position them in insecure areas 
that aid agencies cannot reach.
    The solution is not to channel all assistance through the military 
or provide all aid workers with firearms and military escorts. Rather, 
we need to focus on creating ambient security, a secure environment 
that enables Afghans to invest in their future and for reconstruction, 
democracy and development work to go forward. Aid workers are not 
asking for armed escorts and guards, but rather a strategic deployment 
of peacekeepers into those areas most insecure and an increased focus 
on hastening the longer-term solutions of Afghan army and police 
training.
    As you consider the President's Emergency Supplemental Request, I 
will close with two key recommendations:

          1. I strongly urge you to ensure that ISAF has all the 
        resources needed to expand beyond Kabul with a clear and 
        genuine commitment to provide security in key provinces. Both 
        Chairman Lugar and Senator Biden have strongly supported this 
        in the past, and the UN Security Council resolution adopted 
        unanimously on October 13 finally opens the door to achieving 
        this important goal. Expanding ISAF only through the PRTs as 
        currently configured or into already secure parts of the 
        country will not be enough. A flexible and more strategically 
        deployable ISAF is critical for immediate and short-term 
        security, while the slow process of training Afghan police and 
        army members continues.

          2. I urge you to support the increased House allocation of 
        $1.176 billion for Afghanistan within the President's Emergency 
        Supplement Request. These funds are critical. The House 
        increase is a bi-partisan reflection of the high priority that 
        Afghanistan must be given. These funds are a badly needed boost 
        to Afghan assistance and will hopefully serve as a prod for 
        other nations to join in with substantial packages of their 
        own.

    In my recent visit to Afghanistan, it is apparent there is much to 
be hopeful about--there is a building boom in Kabul and Kandahar and 
evidence of flourishing new businesses. More than two million refugees 
have returned and a record four--five million children have returned to 
school, up from three million last year. With your support, we can help 
ensure this progress is not jeopardized and instead moves forward even 
more quickly.
    Thank you again for your ongoing support and important leadership 
on these issues.

    The Chairman. Well, thank you very much, Ms. Lindborg.
    Let me suggest to my colleagues that we sort of take 10-
minute turns and take advantage of this expert panel that we 
have before us.
    I'd like to ask you, Dr. Durch, as I tried to sketch out 
with your testimony, the 17,000 troops that you mentioned--
these are international forces as I understand it--how close 
are we to having 17,000 presently? Is that an idea of what we 
have there now, or our goal? It was not clear to me where they 
come from and how many we anticipated.
    Dr. Durch. Thank you, sir. Yes, 17,000 would be the goal. 
There's about 5,000 to 5,500 in Kabul now. The Germans want to 
put 450 troops into Kunduz, which, on my model, is about the 
right number for that town.
    I was not proposing forces to blanket the country, but to 
have areas of operation like Kabul in the other seven cities, 
but then critically link them together so that you get a kind 
of a necklace effect and provide security that people can use, 
once the roads are repaired, for commerce.
    The Chairman. This is sort of a minimal number, as you say, 
for cities with comparable security as Kabul and a little bit 
of a link.
    Dr. Durch. Yes.
    The Chairman. Now, you listened to Ms. Lindborg, and she's 
talking about an overall security atmosphere, not requiring 
security with each aid worker and what have you. At the same 
time, I'm trying, as I'm sure most listeners to this would be 
doing, to think through how we ever get to that kind of 
atmosphere, even with 17,000 people. You know, early on, when 
many of us questioned this by the ratios of population or 
square miles in Bosnia, for example, or Kosovo, to the numbers 
of people we had, the results were very, very starkly different 
from Afghanistan. This is a very thin situation and a pretty 
large country. I'm curious as to how we get to a point ever, 
really, of having this confidence on the roadways, quite apart 
from the cities, that would be sufficient for aid people, and 
NGOs and what have you, to simply go out and to do good.
    I thought Ms. Lindborg made a very good point that the 
Taliban and the warlords and the poppy growers and what have 
you, are people who almost have a vested interest in chaos or 
indifference from the international community, but they're not 
a majority of the country necessarily. Where do the people 
stand? Are they supportive of the United States? If you had 
pollsters going out now as the Pew Foundation has been doing 
with countries all over the world, asking, ``What's your 
general feeling about Americans these days?'' how would things 
stack up? Is there, in other words, a supportive community for 
us or for the Germans if they are to go out, or for anybody 
else among the 17,000--or are, in fact, they likely to be 
targets in the same way the aid workers are?
    Dr. Durch. Senator, working backward, I don't have active 
poll data that I can give you. We could certainly look it up 
and check. I do know that in terms of the expansion of the 
international security presence, my sense is that there's 
widespread support for that, and it's been asked for for almost 
2 years, and that support still exists.
    The ISAF expansion that I was sketching is a component of a 
larger system of security. That's why I've given them a very 
specific task. And in the larger studies, we've always said 
that this number is contingent on Operation Enduring Freedom 
still being there to engage the primary problem from the U.S. 
perspective in the al-Qaeda and the Taliban. So that remains 
the American job.
    These guys have a limited task of security in the towns and 
over the roads as we get the roads fixed so that we don't have 
to pay attention to everything. I think the PRTs can coexist 
with an expanded ISAF as a visible American fix-it presence on 
the ground if they get some more resources, and I think all 
these things can work together.
    And then behind it all, we have the army, the highway 
patrol, all of these local resources that we're training up 
that we should have been, I think, training faster, that we're 
now reaching an appropriate rate, but, again, the rate of 
training for them and the timeline for Bonn are beginning to 
collide. But that's ultimately the issue. The international 
forces are a stopgap measure. But also, I used the analogy of a 
trellis for the PRCs. ISAF itself is a trellis. I would like to 
see the Afghan forces come join international forces, gain 
field experience, hand off, so the internationals can move onto 
the next task or go home. And I think the faster it looks like 
we're training local forces, the more we're likely to get 
contributions from our allies to expand ISAF, because they see 
a light at the end of the tunnel. They see a replacement force 
that's already in hand or in training. And by all accounts, the 
training is very good, and I think the new plans are very good.
    We have--if you were to set Iraq aside, which is a very 
large set-aside, I understand, but comparable peacekeeping in 
the Balkans, let's say, we have drawn down more forces from the 
Balkans over the last 2 or 3 years than would be needed for 
this concept in ISAF, and many of the same countries provide 
troops to both missions. The troop providers for ISAF currently 
have provided, like, two-thirds to three-quarters of the troops 
in IFOR and in SFOR and KFOR, which were historically the most 
dense, in terms of peacekeepers to people, of any mission. We 
went in very strong, 50 to 1, basically. Iraq is about 150 
Iraqis per U.S. soldier. So by Balkan standards, we're thin. In 
Kabul, the deployment is thinner still. So it is a risk. I 
think it's a risk we have to take, because the alternative is, 
I think, even greater risk to the international community and 
to the transition.
    The Chairman. But initially now, we have 5,500 ISAF people 
there now. We need 17,000. We're still 11,500 short on the ISAF 
part of it.
    Dr. Durch. That's right.
    The Chairman. Now, I ask this, because this is going to be 
difficult to fill. When I visited Germany in August, we went 
through their manpower situation, and the Chancellor said, 
``We're going to help out in Afghanistan. Don't want to touch 
Iraq, but this is where we're going to make our contribution as 
a NATO partner,'' which is helpful. But essentially the 
Germans, as I understood their figures at that time, have about 
25,000 personnel who do this sort of thing wherever they are. 
Only a third of those do they deploy abroad at any one time.
    Dr. Durch. Right.
    The Chairman. Another third are in retraining, another 
third are in refreshment and recuperation and so forth, which 
is not unlike other forces. They have thirds. But I said, 
``Well, are you going to have any more?'' And they said, 
``Well, we might go to 30,000 at some point.'' That would be 
instead of having, say, 8,500 available, or maybe 10,000. But 
that's it. And this is a pretty big country.
    You extrapolate into the other situations. Some of us in 
the Senate talk about people being sent here and there, but the 
fact is with the large countries of the world, there are not 
many people that go here and there. And I am trying to add up--
how you get to 17,000 is a tough thing to do unless the United 
States does it. Now, at that point, we still come back to the 
mission of the Taliban and al-Qaeda. By this time, they should 
be subdued, but they aren't. In fact, their forces are very 
busy on the borders. We're asking for more cooperation from 
Pakistan, and getting some. But, at the same time, anybody who 
is in an armed forces out there is still engaged in very, very 
tough straits, looking for the last remnants or sometimes, 
unfortunately, being attacked by them. So all that's going on 
in the background, with this very thin ISAF force that we've 
already discussed. I'm just trying, in my own mind's eye, to 
think through how we come to some degree of closure on the very 
basics of a thin security situation given the potential 
participation. Do you have any suggestions, or have you written 
on that subject?
    Dr. Durch. Most of our European allies are contributing 
something to peacekeeping someplace, mostly in NATO operations, 
as opposed to U.N. Most of the major third-world contributions 
are contributing to U.N. operations, so the Bangladeshis, the 
Pakistanis, the Indians contributing substantial forces in 
Africa, for example.
    The political situation in Afghanistan is such that 
probably Pakistani and Indian forces, not so good.
    The Chairman. Yes.
    Dr. Durch. Russian forces, not so good.
    I suspect that if you sat NATO down, if you sat the EU down 
and really had a serious heart-to-heart talk and said, look, 
guys, if you don't want to do Iraq, we have another problem 
here that really needs some assistance. Seventy-five percent of 
the world's heroin is constructed there. Most of it comes your 
way. You've really got a national security interest in 
controlling this problem. So help us out. Twenty-five, thirty-
thousand deployable troops, yes, I--some of that has to do with 
volunteerism versus conscription, and it's a complicated 
problem for the Germans; it might be a little bit less 
complicated for our friends in Paris. The Dutch have done one 
tour; they could probably do another--the Belgians, the Swedes, 
the Norwegians, and some others. I think probably if it were, 
in fact, assigned No. 1 priority, which I think it ought to be, 
for our friends in Europe, they could come up with the troops 
to deal with this modest increment, I think. As I said, they 
basically demobilized that many from the Balkans in the last 2 
or 3 years, and they kept them there for years on end.
    The Chairman. So that's the one prime suggestion, that we 
have this heart-to-heart talk with our NATO allies and say, 
this is the No. 1 objective for NATO. Now we need to 
collectively get to the 17,500.
    Dr. Durch. Yes, sir.
    The Chairman. Well, thank you.
    Senator Biden.
    Senator Biden. Thank you. Let me pick up where you and the 
chairman left off.
    I couldn't agree with you more, doctor. I think that this 
is a place where we may be able to do some real good, allow 
everybody to save face, and really begin--I mean this 
sincerely--allow everybody to rebuild the relationships that 
have been badly fractured between, among us and our NATO allies 
and us and the EU. We're kidding ourselves if we suggest this 
is not--there has not been some real damage done to the 
relationship.
    And we, at one point--there were serious people talking 
about the possibility of total NATO deployment if NATO, 
including the French, were prepared to participate. There's 
probably a maximum of 30,000 people if they did everything that 
they--that could be done. And it seems to me this is the place 
where--we had a colleague we both served with for a long time, 
Lawton Chiles, and I'll never forget one day on the Floor, I 
had been here only a couple of years, and he was my seat-mate, 
and there was a bill that didn't seem like a very big thing, 
and it passed. And Lawton was ecstatic. And I looked over to 
him, and I said, ``Lawton, what's the big deal?'' He said, 
``Joe, it's so seldom when conscience and convenience cross 
paths in American politics. It's time to celebrate.''
    Well, this is a place where conscience and convenience, I 
believe, cross paths, with a little bit of diplomacy. The 
French are fully capable of supplying up to 5,000 forces in 
Iraq, if--I mean, excuse me, in Afghanistan, if they chose to. 
It's going to be a long haul. It's a big push. The Germans can 
do more. NATO generally can do more. And the Turks and maybe--
and, again, I'm not the President or the Secretary of State, 
but it seems to me one of the things I'd be working on now is 
that the Turks are ready to provide a division, there is real 
question whether or not the governing council in Iraq is 
prepared to accept them even if they're there. It seems to me 
this is a place where--even though the Turks had one time 
around the barrel in Afghanistan, this may be--knowing now the 
international community has put its stamp on this, and if 
they're convinced we will provide the lift capacity, the intel, 
et cetera, which I assume this is--all rests on. If we don't do 
that, then none of this matters. So I think there's a 
possibility here, with a awful lot of hard work and a little 
bit of luck, this may be able to be done.
    But my question relates to--assuming that is done--and I 
have--and thank you very much for your specificity. I mean, you 
laid out here 17,000--total forces 16,520--how they are spread 
out from Kabul, to Kandahar, Herat, et cetera, and you have a 
rationale behind why that number is needed in those places, 
including garrisoned forces, based on the threat level and 
population level for highway security as well, in addition. So 
have this access, as the chairman said, connecting the dots. 
And we were in Afghanistan shortly after, quote, ``we won.'' 
Every minister I spoke to, from Kanuni on, was making the point 
that none of this does much good--it doesn't do much good to 
open up a university in Kabul if something can't get on the 
road in Herat and make the trip to the university. And so how 
are we going to connect this, and how was commerce going to 
thrive if you did not have the ability to transit the country?
    But one of the things we--propositions we started off 
with--and this is more like a monologue than a question, and I 
apologize for this, but--was that we were--we had a brief 
moment there, in my view, where the sponsoring interfering 
surrounding five nations, who have historically decided to get 
their piece of the action on the ground that they'd protect as 
their own interest within--I mean, think about Afghanistan. 
Here you have Afghanistan divided ethnically--Pashtun, Tajik, 
et cetera--yet there's never been, to the best of my knowledge, 
in recent history, a desire to split the country. It's been who 
can dominate the country, who can be in charge of the country. 
As opposed to the Balkans, as opposed to the situation in the 
former Yugoslavia, where there was no desire to maintain, other 
than among the Serbs--there was a desire to break off into 
smaller pieces. And each of these factions within the country 
had their sponsor, whether it was Iran or Pakistan or 
Tajikistan, et cetera, and there was a brief moment there where 
they were all prepared to have an ISAF force come in, because 
we would essentially become the apartheid cops. They weren't at 
all sure that any of the surrounding countries were going to 
continue to be their sponsors, they weren't at all sure, 
relative to us and/or their competing forces, they could 
sustain their dominance in their particular area. So as I met 
with the warlords and the man we're about to confirm as 
Ambassador, I hope, who had--was there at the same time, when 
we met with each one of the various warlords, they're all ready 
to accept international forces at the time, not because they're 
so noble, but they figured their best bet to maintain their 
influence and not have anyone else trench upon their authority 
was to have that occur.
    It seems to me that it's a very different circumstance 
right now. They seem fairly secure. Again, I'll stick with 
Ismail Khan as an example. He seems fairly secure in his 
position in western Afghanistan. And he seems--and I don't want 
to overstate this--to have maintained very good relationships 
with the Iranians.
    And so my question is this, how would you characterize--
let's start with you, doctor, but also you, Mr. Ambassador, 
and, Nancy, you, as well, because you're there more than any of 
us--how engaged are the sponsors--the Iranians, the Pakistanis, 
et cetera--in interfering with and maintaining their 
traditional relationships with the warlords or ethnic groups 
within, Afghanistan? I'm not looking for an essay, but just 
generally, is it increasing, diminishing? Is it helpful, 
hurtful?
    Dr. Durch. Senator, my impression is that the Pakistani 
engagement is serious and perhaps mixed. The Iranian engagement 
is serious, and it depends on whether you're talking about the 
government or the hardliners, who basically control the 
military and foreign policy. In terms of the north, it seems a 
little more quiescent. But I think I would defer to Ambassador 
Tomsen for a more detailed explanation.
    Senator Biden. Ambassador.
    Ambassador Tomsen. Thank you. And I'd also later defer to 
Nancy. As you mentioned, she's been out there.
    Iran is, of course, predominantly Shi'a, and it doesn't 
have much of an ability in 85 percent Sunni Afghanistan to make 
inroads. It could pay off people, it can reach out to the 
Shi'a, but it's always been limited by this factor. It's also 
been limited by an antipathy toward Iran by most Afghans. This 
is very historical. It goes back to invasions from Iran into 
Afghanistan. Great suspicions there.
    So their ability to interfere is limited. They have 
interfered, especially the revolutionary guards, the security 
side. They want to maintain some influence in Afghanistan, much 
as they want to maintain influence on the other side in Iraq 
with certain groups, usually radical Shi'a groupings.
    In regards to Pakistan, I'm afraid we've had about 25 years 
of Pakistani interference and a buildup of Pakistani assets in 
the radical Islamic groupings in the North-West Frontier 
Province, Madrassas, the infrastructure along the Indo-
Pakistani frontier. That infrastructure is still there. It 
spews out fighters that go into Kashmir, as well as into 
Afghanistan. Many of the fighters in Kashmir are from 
Afghanistan. Most of the fighters that died at the Indian 
Parliament were from Konar Province in Afghanistan, taken out 
by the ISI. Plus, you have most of the Taliban cabinet still in 
Quetta and areas along the North-West Frontier Province, 
including the Defense Minister, former Defense Minister.
    I was on a TV show, Senator, yesterday with Ahmad Rashid, 
and he just returned from a trip to Afghanistan and 
Baluchistan, and he said that the Taliban operations now remind 
him of the Taliban operations in 1995 and 1996, when they were 
moving in quite substantially into Afghanistan. And he 
anticipated that this would get worse, not better.
    Senator Biden. I think he's right.
    Ambassador Tomsen. Yes. So our diplomacy with Pakistan, our 
bilateral diplomacy, is extremely important. It's more 
important than the expansion of ISAF, in terms of security in 
Afghanistan. There's one face of ISI which cooperates with us; 
there's another face of ISI which is still protecting and 
feeding this asset that they've built up over 25 years. They're 
waiting for the Americans to leave, and Musharraf is still 
playing both sides of the street, in my judgment.
    The other states neighboring Afghanistan have a 
geopolitical reason to cooperate with the Coalition in 
Afghanistan.
    Senator Biden. Ms. Lindborg, do you have anything to add?
    Ms. Lindborg. I would add a couple of observations, and 
certainly from the perspective of having worked for over a 
decade in both Quetta and throughout the southern part of 
Afghanistan. Our base of operations has historically been in 
Kandahar, Helmut, and Uruzgan. And we are seeing, over these 
past 10 months, a very strong resurgence of the kind of 
individuals who were quite active, as when we were there, under 
the Taliban. And the night letters that are saying, you know, 
you can't listen to music, you can't go to the funerals of 
those who were killed for working for assistance agencies, are 
becoming more and more in evidence. They're being posted in 
the--they're not even night letters anymore, they're day 
letters, and we see the traffic going back and forth. So I 
would echo and support what Peter said about that being 
absolutely vital.
    I would add to that a couple of points, and that is, you 
know, during the bombing, the people in one of the districts in 
Uruzgan, which is the traditional seat of the Taliban, actually 
defied the Taliban in order to protect the Mercy Corps office 
there. They kept our vehicles, our computers from the Taliban, 
because they understood that they were the ones--that the 
community people were the ones who would ultimately benefit, 
and they said, you know, hands off on this.
    And to get to your question, Senator Lugar, there is, I 
think, still a strong reservoir of support and goodwill among 
the Afghan people. When I was there last week, it was evident 
that we are well supported and well received once we're in the 
communities where we're working, and it's the traveling between 
the communities that becomes extremely dangerous.
    To get to the point of how do you--when we're dealing with 
a scarce resource, how do you address security, I think we're 
very well aware of that challenge, and I think there are 
strategic things that we can do that we have not yet done. We 
can more strategically deploy peacekeeping forces on the 
primary roads. You can increase border activities. We can 
decrease support for some of the warlords, in addition to 
what's coming across the border from Pakistan.
    As I mentioned in my testimony, there is this confluence of 
actors who benefit from having a destabilized Afghanistan. It's 
not just the Taliban, it's the huge opium industry, and there's 
all the various warlords, power brokers, who don't want to have 
a strong central government, and they're all able to 
opportunistically work together right now and keep out 
development.
    Senator Biden. Well, Mr. Chairman, if I may proceed in one 
followup on a point with the Ambassador.
    Mr. Ambassador, one of the most difficult things, I find at 
least, to explain to my constituency, the public at large, the 
press, is how all these dots are connected. For example, I'm of 
the view--and I'd like you to critique what I'm about to say--
and I'd like an honest critique if you disagree, because I have 
respect for your view--I have thought the calculus for 
Musharraf has been the degree to which he thinks U.S. policy in 
the region from Pakistan to Turkey is well thought out, totally 
committed, and fully engaged, and likely to succeed. It's the 
degree to which he is willing to increase the risk to him to 
take on this historically ungovernable province in the 
northwest, as well as the ISI's cozy relationship with the 
Pashtun for decades.
    And if I were to draw a graph, graph this relationship 
immediately after the bombing, quote, ``succeeded'' and before 
we went into Iraq--this is not an argument not to go into Iraq, 
but before we went into Iraq--the degree of cooperation was 
rising relative to him cracking down on his own intelligence 
services and his willingness to take on the more radical 
elements within his country. So the degree to which we seem to 
be--have an incoherent or not totally coherent policy in 
Afghanistan--I mean, in Iraq and/or even in the Middle East, 
Israeli-Palestinian issue, that that heated up his radical 
base, is the degree to which he backs off.
    And so what I'd like to posit here is--for your 
consideration, and either one of you can chime in; this is the 
last thing I will ask--is as much of an advocate for the 
international security force that I have been from the 
beginning, if the Lord Almighty came down and said you could do 
one of two things, you could have an incredibly robust 
international security force put in place immediately or you 
could show significant success with international support in 
Iraq, as well as in--on the road map, which do you want? I 
would take the latter in order to secure Afghanistan.
    Ambassador Tomsen. You mean the road map?
    Senator Biden. The road map and--I mean, the two pieces 
here.
    Ambassador Tomsen. Yes.
    Senator Biden. There's basically three big pieces we're 
dealing with--I mean, there are many more, but you can divide 
it anyway you want--Afghanistan, Iraq, and the road map, the 
peace process between the Israelis and the Palestinians. To the 
extent that it looks like we're failing and/or not succeeding 
or not internationalizing the two most western problems we have 
in the region, that is Iraq and the road map, is the extent to 
which it seems to me the calculus for Musharraf and his 
government is, I'd better cut my deal, make my peace, make my 
accommodation with the more radical elements of my own country, 
rather than go out and be cracking down on anybody.
    Is that a calculus that is inaccurate. Well, I mean, in 
other words, how do these relate--or do they relate? Maybe they 
have nothing to do with one another. But I don't know how we 
succeed without Musharraf--and it may be indirectly--I mean, 
the chairman was saying, how do you get to 16,200 or 17,800? 
And even if you do get to that number, is that enough in an 
environment where you don't have much greater cooperation--not 
marginally better, but much better cooperation--this is Joe 
Biden part, and I don't want to lay this on the chairman--but 
much better cooperation with the Pakistani Government in 
dealing with the Pashtun and all that that entails, from the 
Taliban to al-Qaeda, cooperation, et cetera.
    Do you understand what I'm trying to get at?
    Ambassador Tomsen. I do. I think so.
    Senator Biden. Talk to me about that for a second, if you 
would.
    Ambassador Tomsen. The way I'd approach the answer is that 
Musharraf and the Pakistani generals who are running Pakistan 
think, and have some evidence for this, that the Americans are 
not good finishers; you could go around the world to different 
places and gather up arguments in this regard--and then when 
they look at Iraq and the road map and they look at the 
strength of the United States and its abilities to meet its 
commitments around the world, and then they look at 
Afghanistan, how long will the United States be in Afghanistan, 
he makes his calculations on--major calculations from that sort 
of scenario. But his main analysis, point of analysis, will be 
the situation in Afghanistan and the situation in Pakistan, of 
course. And he has the generals around him. He wants to keep 
their support. Of course, he has the Pakistani religious 
parties. And he has this infrastructure that the generals, 
through ISI, have built up along the frontier for the last 30 
years, and they're not going to sweep it away. And they're 
going to try to play both sides of the street, and he'll go as 
far as he needs to with the Americans on picking up al-Qaeda 
types or--and maybe moving a regiment up to a part of the 
frontier, but they will continue to play both games at once and 
watch us very closely to see how we will proceed, and also to 
see how things are proceeding in Afghanistan.
    In the meantime, this infrastructure, with the Taliban in 
it and the al-Qaeda and people like Gullboddin Hekmatyar, who 
has come back from Iran and is now shifting between Konar 
Province in Afghanistan in the area near Chitral on the 
Pakistan side, and he's sending people up into Uruzgan, as far 
as Uruzgan, too, they will continue to operate freely from 
northern Pakistan into Afghanistan, and they will not be 
inhibited. ISI knows every meter along the frontier. They know 
where--if Osama bin Laden is still there, they know where he 
is. They certainly know where Mullah Omar is, and they know 
what all of these Taliban leaders are doing and what operations 
they're mounting across the frontier. Even though they say, we 
don't have total control, they certainly know everything that's 
happening. And, in my judgment, they could be doing--Musharraf 
could be doing a lot more to control Taliban-al-Qaeda 
activities.
    Senator Biden. What pressure points do we have? You're 
President of the United States, you have an altar call with--to 
use an old phrase--with General Musharraf. What do you tell 
him? What pressure points--is it productive for us to lay in 
conditions with the Pakistanis about aid issues relating 
directly to economic aid, or military aid, with the Pakistanis?
    Ambassador Tomsen. I'd list three pressure points, sir. One 
is what I talked about at the end of the statement--the 
constituencies in Pakistan--economic especially, but others, as 
well--that would benefit enormously if Afghanistan were stable 
and the trade routes would reopen across Central Asia; 
Pakistani light industrial goods could go north into Russia, 
energy could come south in the Caspian. That's one argument I'd 
make.
    Another is geopolitical. Their biggest concern in the 
Pakistani military is Indo-U.S. relations. And as the Indo-U.S. 
military relationship continues to go forward, it's going to 
spook them more and more. And if they----
    Senator Biden. In which direction?
    Ambassador Tomsen. Yes, it could spook them in two possible 
directions, one to accommodate us more and the Afghans more, 
and the other is to turn more toward developing further this 
extremist variant, which they have created, and make it even 
more dangerous, and try to develop more instability inside 
Afghanistan, and centers for Islamist influence inside 
Afghanistan. They could go that way, too. But they wouldn't 
have much support for that route, Senator, in this day and age. 
Saudi Arabia is cracking down on funding, money-laundering and 
extremism in Saudi Arabia. The Syrians are less active. So 
there's not many--as opposed to, say, 10 years ago when they 
were developing the Taliban, there's not many allies that the 
Pakistani military can turn to, and it is a geopolitical or 
geo-strategic vice which is moving against them if the United 
States and India and Russia should cooperate more, and some of 
that cooperation would be targeted against Pakistan.
    The final point, pressure point, is economic. In the 
supplemental, you have $200 million, for instance, set aside 
for Pakistan in loan guarantees. But that is linked to 
Pakistan's total cooperation in the war on terrorism, which 
Musharraf says that he cooperates in now, and the President 
could mention that, as well, and maybe point out things that we 
know that they're doing, and say, we'd like to see these things 
stop. We want to see this proceed that is, even more help for 
you, but we can't do it, our hands are tied by Congress.
    Senator Biden. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Biden.
    Let me ask you, Ambassador Tomsen, you mentioned, and I 
just jotted down, ``keep out of the political briar patch'' in 
the politics of Afghanistan, which is probably always good 
advice. But Senator Biden's question has been linking problems 
in Pakistan with Afghanistan. Some observers that we have heard 
indicate they believe that the United States, in our feelings 
that there ought to be fair and democratic elections in 
Pakistan, helped accelerate an election in Pakistan that 
resulted in some unfortunate aspects. The results apparently in 
two provinces very near Afghanistan have members that appear to 
be Taliban supporters. When President Musharraf came and had 
coffee with our committee, we asked him very candidly about all 
of this, and obviously he was not happy with those results. 
Especially since people were advocating, as members of 
parliament from those areas, that he be separated from one of 
two responsibilities, he indicated he was not about to bow to 
all of that. But the fact is, democracy worked. The people 
expressed themselves, and the results were not very salutary 
for Musharraf or for us.
    I don't think the Senator from Delaware and I really know 
exactly who would elect whom, nor would we try to divine what 
the constitution will be. If you heard an earlier panel, they 
said that they're going to get a copy to us in due course. 
There will be a debate about that. There are many who would 
observe that democracy, if it does proceed--and you've 
suggested some antecedents that are important that require 
security--the census, voter registration, these sorts of things 
take some doing. In the panel we had on the Iraq constitutional 
procedures and their elections, we have discovered that there 
are some pressures from other countries that they get on with 
this constitution right away. In fact, our own Secretary of 
State has suggested a fairly accelerated timetable as he's 
tried to negotiate with friends at the U.N. And yet we've found 
people are disagreeing as to who ought to elect the people who 
devise the constitution.
    What are the roles and who votes on those? In other words, 
this is very, very tough going. Afghanistan will be having 
elections. We don't know how that may come out.
    You're probably right, we should not get involved in the 
briar patch, but, on the other hand, Americans probably do care 
a lot about how that election comes out. For example, if 
Taliban supporters--not the Taliban themselves, but rather the 
people who generally have that point of view--came back, and 
wanted to adopt the Sharia Code again, and put women back in 
the position they were in before, and say, that's democracy, 
that's the way we feel about these things, a good number of 
Americans understandably would be very upset about that. Now, 
we could say, well, that's the way it goes, you know, we did 
the best we could, and we have fostered a constitution, and we 
got some pretty good rolls and people finally came to the polls 
and they came in good numbers--but then where would we be? You 
know, we're maybe back to square one in the war against 
terrorism. After all, the problem before was neglect. We all 
left. Taliban came in and, by and large, we saw the results of 
this. They weren't very happy, we think, for the Afghan people, 
but clearly they weren't very happy for us with camps and 
people who used the camps and finally attacked us.
    So to what extent is our democratic ethic, our tolerance 
for whatever happens in Afghanistan, going to contribute to 
security for us? In other words, if at the end of this we have, 
in fact, a country that, by a democratic election has elected 
people who are going to bring hostility for Americans, and who 
are going to lend them support to the war of terrorists against 
us, what do we do about that?
    Ambassador Tomsen. Well, if that would happen, you know, if 
the Taliban would win the election and come to power in 
Afghanistan, we'd be in very difficult circumstances, indeed.
    The Chairman. And they did in Pakistan, just across the 
border. They just got there and had an election, and we 
encouraged it.
    Ambassador Tomsen. But what I'd like to say is, I think 
there is about a 1 percent chance that that will happen, and 
I----
    The Chairman. Now, why is that? Why are you so optimistic 
about it?
    Ambassador Tomsen. Even in Pakistan, sir, it's a coalition 
government, in Baluchistan in the North-West Frontier Province. 
There is not a extremist majority, although they have a 
plurality in each place. In all of the elections in Pakistan's 
history for their national assembly, the religious parties 
never got over 6 percent of the vote, and that's the national 
scene. And they never did that well before this election after 
9/11 in Baluchistan in the North-West Frontier Province.
    If things go well in--oh, one more point is that the 
mullahs, the Pashtun mullahs, are in control of the Taliban. 
But, in Afghanistan and also Pakistan, you have the tribal 
aristocracy, which has traditionally run the tribal areas, and 
they are anti-extremist, and there's always been political 
competition between them.
    If our security and reconstruction programs are successful 
in Afghanistan, we need to do better than we have for the last 
2 years. We will see definitely a loya jurga like we saw last 
June, which is filled out by mostly tribal and clan leaders 
from around Afghanistan, mullahs. And over 50 percent of 
Afghanistan is non-Pashtun, and they don't like the Pashtun 
mullahs who brought the Taliban.
    In fact, if I could reinforce what Nancy mentioned earlier 
to you in answer to your earlier question, the Afghan 
population does not want to see either the warlords or the 
extremists come back. They hate them. They're anti-warlord and 
they're anti-Taliban. Also, the Afghan population, as a whole, 
wants peace. You see this overwhelming desire everywhere after 
23 years of war and destruction. So here, too, reconstruction 
and security programs, if they go better in Afghanistan and we 
begin to make progress, I think you'll see a leadership like 
Hamid Karzai emerge again in Afghanistan, from a loya jurga 
process or election process.
    [A follow-up response was forwarded to Chairman Lugar by 
Ambassador Tomsen.]

                                           October 20, 2003
    Dear Chairman Lugar,

    During your hearing on Afghanistan last Thursday, you asked whether 
elections in Afghanistan might result in a victory for Afghan Muslim 
extremists. You noted that religious coalitions had won provincial 
elections in Pakistan's NWFP and Baluchistan Provinces.
    There was not enough time to answer your question at the hearing. 
Hence, this follow-up letter.
    Historically, the traditionalists have won Afghan elections to the 
National Assembly (1965 and 1969 Afghan elections) or to Loya Jirgas. 
Most of the rural population in Afghanistan is divided into tribes 
(south, east) and clans (the north). The rural populace generally 
elected their local khans to represent their interests in Kabul. While 
conservative and religious, these local leaders were relatively more 
wealthy, prestigious, educated and experienced in running local jurgas 
through which community disputes are settled. (The jurga is not only 
national, it is a vehicle to solve any dispute over water sharing, land 
ownership and even intra-family disputes. When asked, I advise 
Americans wishing to provide assistance to Afghans to set priorities 
through the village or district jurga, run by the elders. Let the jurga 
help decide--and provide manpower plus other inputs.)
    The rural mullahs, who rose to prominence during the jihad, had 
marginal influence in the National Assembly and last year's Loya Jurga. 
This is partly because the tribal and clan leaders seek to exclude 
them; and it is partly because they are not at home in a democratic 
process. Rural mullahs were mostly strong supporters of the Taliban--
Mullah Omar's approach was to convene religious meetings to sanction 
his decisions as ``Emir,'' such as not to hand over Osama bin Ladin. In 
effect, the tribal/clan local leaders around the country dominated last 
year's Loya Jurga. It is interesting that Hamid Karzai head of the 
Pashun Popalzai tribe, was chosen as President in a secret ballot, 
receiving over 80% of the vote. His father, Abdul Ahad Karzai, 
assassinated by the Taliban/Al Queda in 1999, was Deputy Speaker of 
Parliament in the 1960s.
    On the downside, a lot of money continues to flow from religious 
centers in the Gulf through Pakistan to more senior Afghan clerics, 
like Rabbani and Sayyaf. They will challenge Karzai in the next 
presidential or National Assembly election, running on a ``Mujahidin,'' 
anti- U.S., anti-Western platform. If elected, they would re-institute 
a Taliban style totalitarian Muslim extremist dictatorship at home, and 
an anti-U.S., anti-Western foreign policy abroad.
    My own opinion is that Rabbani, supported by Sayyaf, will lose if 
facing Karzai. Rabbani was discredited by his tenure as ``President'' 
during the destructive Civil War period. More important, the great 
majority of Afghans, Pakistanis and Tajiks, suffered greatly under 
Rabbani's Islamists, and the following Taliban, rule. They oppose both 
the Jihadis and the warlords.
    The key to electoral success of Karzai and the moderates in the 
constitutional Loya Jirga, the planned National Assembly elections 
(scheduled for June, 2004 but likely to slip), or a direct presidential 
election will be accelerated progress in reconstruction and security. 
Rabbani and Sayyaf will try to argue that the Afghan people's misery 
has not been eased by the Western supported moderates--their Islamist 
rule will better deliver the goods. As Nancy said during your hearing, 
so far we have failed to provide enough, and also effective, assistance 
to advance reconstruction and security by the Karzai regime. Let's hope 
the new ``push'' the administration is highlighting will fill this gap. 
IFES should also have a civic education program on elections since 
there have not been elections in Afghanistan since the 1960s.
    If rendered wisely, international assistance will bolster the 
Karzai regime's ability to demonstrate to Afghan voters real progress 
in reconstruction and economic development areas, while improving the 
security situation and sidelining the warlords.
    Should Karzai, Abdullah and their allies succeed in the planned 
constitutional Loya Jurga this December and in the 2004 elections, this 
result would have a healthy influence on further democratic, human 
rights, anti-drugs and security progress inside Afghanistan, and also 
importantly on Pakistan and Iran in all of these areas. In this 
connection, the Pakistani military's requirement that candidates in the 
last Pakistani election have a college degree was interpreted to 
include Madrassa graduates. This proviso, which was meant to help 
religious party candidates, helped produce the religious coalitions in 
NWFP and Baluchistan. I have heard--but cannot confirm--that the 
Pakistani courts have since reversed the requirement.
            Kind regards,
                                     Peter [Tomsen]

    Ambassador Tomsen. But maybe we should turn to Nancy, too, 
who knows the internal scene as well----
    The Chairman. Well, indeed, we should. Would you comment on 
this?
    Ms. Lindborg. Well, I would simply add that, you know, the 
concern has been, since the fall of the Taliban, that without 
security we'd recreate the conditions that enabled them to rise 
in the first place. And the only real incentive for people to 
support the Taliban the first time around was the extraordinary 
insecurity that existed just prior. And we are back in that 
stage again in those crucial parts of the country, the south 
and southeast, where without an alternative, they will turn 
again to the Taliban, No. 1, because they have a track record 
for having provided a secure environment, nothing else, but 
they did create security. And No. 2, there is pressure for 
them, for the communities, to not support alternatives. They 
are being threatened by these night letters. They are--there 
are killings going on there in direct pressure to not support 
alternatives. And all of this, I think, underscores and points 
to how essential it is to not give more time for the confluence 
of spoilers to become more entrenched. I think that it's 
essential that we move quickly to provide the secure 
environment, even if it's only in strategic places, you know, 
identified as road security or those parts of the country that 
are the least secure, that are those parts of the population 
that, left alone, which is currently what is occurring as more 
and more parts of the south and southeast become no-go zones, 
that left alone they will return to their support for the only 
alternative being presented to them, which is the return to 
Taliban rule.
    The Chairman. We've discussed NATO and the message that we 
need to have there, that is, the persuasion or desire consensus 
to get to the 17,500, which is, sort of, not diminimus, but an 
important goal. We're at 5,500 people in that category, so 
that's some distance away, which gets to the security point at 
whichever level we're talking about. But what I wonder about is 
your perception as observers not just of Afghanistan, but of 
the international scene. I wonder whether other countries see 
the problem in Afghanistan, and the potential crisis of a 
return to prior conditions. As you say, Ms. Lindborg, the 
Taliban offers security; maybe that's the reason people let 
them go to begin with. They provided some security. Absent 
international commitment, including our own, but hopefully not 
exclusively that, we could have a recurrence of this. But do 
European countries see it that way, or do other countries 
outside of Europe? In other words, is this a priority for 
anybody but us?
    I ask this, because in other contexts, sometimes states 
from European countries say, we understand your anguish from 
September 11 and the tragedy that occurred in the World Trade 
Center and the Pentagon. We can understand why you're angry 
about that and why you would then say to the Taliban, either 
give up al-Qaeda or we come after you, but, on the other hand, 
we don't anticipate somebody's going after the Eiffel Tower or 
the Brandenburg Gate. You know, this is really not in the 
cards. We are not the focus of the war on terror or anybody 
else. That's your problem. So if you want to solve it, more 
power to you. And we say, well, after all, we're NATO allies. 
We're together. And to his credit, Lord Robertson, a great 
advocate for this, really went way out on the limb and offered 
leadership well beyond what our Department's intention, in my 
judgment, was prepared to do.
    Now, we've come along, and we all agreed in the first round 
not to rehash month by month all of the evolutions that have 
come up with this. But, on the other hand, I'm still troubled 
by the fact that I just don't see out there how we get to the 
17,500 arithmetically with NATO, with the Europeans, if the 
staying power is what Pakistan is looking for, or the Afghans, 
too. I just feel that this is coming up short, even as you've 
got the road map of how it might be successful, in part because 
other nations really do not see, troubling as it may be, that 
the Taliban would come back and that essentially bad things 
would happen to Afghans. But they would say historically that's 
been going on for a long time. What's new? You know, here you 
have a radical adjustment that you're suggesting, that there 
might be new life for this country and for the people that are 
there. But if so, you're sort of on your own, America. You are 
going to have to, sort of, make it happen. And then this 
requires quite a bit of argument in our politics as to the 
resources we have to make it happen, given other commitments or 
other problems that are on the trail that we're wrestling with 
as we speak on the floor.
    Can any of you offer some general comment as to why 
Afghanistan becomes interesting to the rest of the world in a 
way that we would like to see it interested--reform, change, 
democracy, human rights for women, other things that are 
important for us? Do other nations really share that? And if 
so, do you think they're prepared ultimately, even under strong 
persuasion, to bring to the floor the resources and money and 
personnel?
    Do you have a thought, Ms. Lindborg?
    Ms. Lindborg. I'll say two quick things and then pass it to 
my colleagues, who I'm sure have much more to comment on.
    But, first of all, I think that the tremendous amount of 
heroin that's flooding Europe out of Afghanistan is certainly 
of interest to----
    The Chairman. So that's a handle, at least. We ought to 
speak to everybody about the idea that if you've got a drug 
problem in your country, if you're a Brazilian or an Argentine 
or what have you, you've got a problem in Afghanistan.
    Ms. Lindborg. And I believe that it affects Europe much 
more than it does us on the--I mean, that's the prime market 
for Afghans in heroin.
    Second, you know, my understanding is that the U.S. 
Government did not support the expansion of ISAF. And either 
actively didn't support it or we opposed it from--depending 
upon who you talked to when.
    The Chairman. Yes, we're very conflicted, and Senator 
Biden's reflected that very well.
    Ms. Lindborg. And I think we've seen from the past--and 
certainly the Balkans were an interesting example of this--that 
when there isn't that leadership, others are not going to step 
up to the plate.
    And, third, I think that all--certainly Afghanistan is 
sensitive to the notion or the perception of an occupying 
force, and it's an extremely sensitive question, which is why 
having a U.N. mandate for an international force is a critical 
component for the peacekeeping force. And if we, this 
government, has dropped its objection and actively supports it, 
which my understanding, is a shift, and to do so under a U.N. 
mandate, my hope is that that will change the nature of the 
debate and the nature of the response.
    The Chairman. Ambassador Tomsen.
    Ambassador Tomsen. Yes, thank you. And I'd defer also to 
our colleague on the right here.
    I think Senator Biden's tactics, diplomatically, are 
splendid. That's the way to go with the Europeans. Look at Iraq 
and look at the importance of Afghanistan. The Europeans will 
tick off all of the points that we tick off on the importance 
of succeeding in Afghanistan.
    Another argument that we can make, sir, is what's in my 
statement, the positive outcome of stability in Afghanistan, 
which is located right in the center of Eurasia and will open 
up those global trade routes--east, west, north, south--and 
help Pakistan and South Asia generally, as well as Iran and 
other countries. We should not forget that side of the 
argument.
    I want to add something here about Afghanization. Nancy 
touched on it. We have to proceed gingerly in Afghanistan, 
because the Afghans are very sensitive. We don't want to join 
that long queue of foreigners who have attempted to choose 
Afghan leaders, because we will fail. The Soviets were there 
for 8 years. They tried all the tricks that they tried in 
Eastern Europe and Mongolia and elsewhere, they assassinated 
Afghan leaders, they played musical chairs, and they failed, 
and they failed miserably. If we get the image in Afghanistan 
of an occupier, we're going to have problems.
    So I also agree with Nancy's point, to the extent that you 
can internationalize this under a U.N. mandate and still get 
the job done--I want to quickly add that--we should do that.
    The Chairman. Dr. Durch.
    Dr. Durch. Senator, I'd like to endorse both sets of 
comments just made. I think, you know, we have a larger common 
project with our European allies in terms of the values we 
assign to democracy and human rights and open markets and human 
dignity. And I think the European Union's been working on a 
project for the last half year trying to knit itself--half 
century--trying to knit itself together and is only beginning 
to reach out now with an active foreign policy. We saw one 
military extrusion in the Congo this summer, which worked 
pretty well.
    So I think we need to encourage that, not necessarily as 
a--you know, a separate pillar. Maybe through NATO, and 
Afghanistan gives us an excellent lever to do that.
    I think we need to think about this like NPR thinks about 
fundraising. We need to extend some matching grants to our 
allies and give them something to match, whether it's logistics 
support or communications or whatever it is, and knowing that 
they'll have reach-back to the OEF will protect and we'll 
protect them. And cast it as a common objective.
    In terms of Afghanistan being a serious problem for a 
generation, well, sometimes you get inured to chronic pain, but 
it doesn't mean you have to suffer it if there's an 
alternative. I think we can come up with the troops. I think if 
we accelerate the training of local forces and stress that, and 
stress that the money's going to be there to build the rule-of-
law institutions that go behind them, and if the elections go 
OK, then this will look like a time-limited enterprise, that 
we're really helping to stand something up that will have some 
chance of being stable when we let it go.
    A final remark, though, going back to my initial points, 
that one of the five lessons that we know from history is that 
a troubled country that's surrounded by sharks, essentially, is 
probably doomed. And so we really have to stress the role of 
Pakistan, getting them onboard with the peace process, not 
undermining it and getting their own border situation under 
control. How we do that, I would defer to my more learned 
colleagues. But if we don't do that, then we're really on a 
treadmill and we're running backward.
    The Chairman. I think that's a good point, the neighborhood 
is a very difficult one, and we have foreign policy issues with 
a number of the neighbors.
    But let me defer now to my colleague.
    Senator Biden. I just want to make one somewhat 
provocative, not suggestion, but comment. I wonder what history 
would have said had we decided, instead of going into Iraq, 
that we went into the North-West Province of Pakistan with 
150,000 American forces to get al-Qaeda and the remnants of the 
Taliban, I wonder what that would have done. And I'm being 
obviously very provocative, but--because I--maybe I've been 
hanging around with the chairman for too many years. An awful 
lot of the theories that we come up with as to how to proceed 
in American foreign policy run up against reality. And the 
reality is, as long as Pakistan is unwilling or unable to deal 
with the radicalization or the maintenance of a radical 
province, among other things, as long as there is essentially a 
no-man's land where there is safe haven for the Taliban, for 
extremists to go either into Kashmir and/or into Afghanistan, I 
don't know how you solve this problem. I don't know how you--
other than--I guess what you're saying, Nancy, is success 
begets success, or one of you said it earlier in a different 
context, that to the extent that we show staying power, to the 
extent that we stabilize things on the ground, to the extent to 
which we then have--increase our leverage of being able to get 
Islamabad to act responsibly, to get the Iranians to back off, 
to get, you know, whatever. But, you know, there is, sort of, 
that immovable object. You've got a province that hasn't been 
governable for--correct me if I'm wrong, Mr. Ambassador--
forever. And it is essentially what--you know, if you think of 
the Wild West, it's the no-man's land where the bad guys could 
hang out for respite and before they headed back into--all the 
way from Albuquerque to Dodge. I mean, you know, they--so what 
do you think would have happened had we--when the next 
President comes along or this President says, I'm not going to 
sustain this any longer. We're going in. I want to tell you, 
Musharraf, we're going in, and we're going to find, you know, 
root out the Taliban, if we could. I'm not sure we could.
    Talk to this again----
    Ambassador Tomsen. Well, there's some 20 million people 
there in those two provinces. There are 140 million altogether 
in Pakistan. So I think it would not be advisable. I think it's 
one of those cases where it's easy to get in, but hard to get 
out, and you wouldn't accomplish your objective. Indeed, in 
this particular area, things would get worse, rather than 
better.
    The answer, though, is Musharraf and his government. They 
can do much more. They do have instruments to influence and, in 
many areas, control Baluchistan and the North-West Frontier 
Province, not only through security forces, but through 
economic means. And they could certainly stop over 80 percent 
of these incursions that are going into Afghanistan attacking 
our troops, attacking the troops of the Kabul government, 
police posts, et cetera. They could certainly stop the 
overwhelming majority of those activities if they wanted to.
    Senator Biden. Thank you very much. Thank you, Mr. 
Chairman. Thank you both. And, Ms. Lindborg, as they say, keep 
your head down.
    The Chairman. Well, we both very much appreciate your 
testimony; likewise, your patience with all of our floor 
problems. We have been delighted to have this opportunity, the 
two of us, to question you more extensively. And we have, I 
believe, established a good combination for the record of your 
initial papers as well as the questions and responses.
    We look forward to staying in touch with you and we hope 
that you will continue to furnish good counsel to our 
committee.
    With that, our hearing is adjourned.
    [Whereupon, at 5:13 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


 Responses of Amb. William B. Taylor, State Department Coordinator for 
   Afghanistan, to Additional Questions for the Record Submitted by 
                      Senator Russell D. Feingold

                              afghanistan
    Question 1. How do you think the Afghan people view their situation 
since the fall of the Taliban government? What is the visible evidence 
that they are better off now than a year ago?

    Answer. The large majority of the Afghan people see that they are 
better off now that the Taliban are gone. The people of Afghanistan 
enjoy more freedom and equality, greater security, and better 
opportunity today than two years ago. While some Afghans are frustrated 
with the pace of reconstruction, the visible evidence is irrefutable. 
Afghans are better fed; agricultural output increased 82% in 2002 and 
will increase again in 2003. Life expectancy is increasing, thanks in 
part to USG construction of health clinics and provision of rural 
health care to over 2.5 million Afghans. Girls and boys are returning 
to schools, with approximately 200 schools, 25 million textbooks, and 
in-service training courses for 1,600 teachers provided by the USG. 
Under the transitional government of Afghanistan legal reform, police 
training, and infrastructure development are all improving the everyday 
lives of Afghans. A new constitution will be decided upon by a 
representative Loya Jirga this year and Afghans will participate in 
free elections next year. Perhaps the most evident sign of change is on 
the streets of Kabul, women are free to walk unescorted, kites are 
flying, and music is playing--all were banned under the Taliban.

    Question 2. The Afghan government has accused Pakistan of doing too 
little to prevent militants from regrouping on the borders. Since 
September, Pakistan has begun to raid tribal villages in search of al-
Qaeda and Taliban remnants and has made arrests. Why is Pakistan 
conducting raids now, when they didn't conduct raids earlier? How 
effective are these efforts? How can the United States do a better job 
at pressuring Pakistan to increase their efforts at rooting out al-
Qaeda and the Taliban? What is your assessment of the goals of Pakistan 
in Afghanistan?

    Answer. For the United States to succeed in its goal of a stable, 
democratic and prosperous Afghanistan, we must also be successful in 
Pakistan. Within these broader objectives, we are working with both 
countries to end the security threat from their common border area. The 
United States, Pakistan and Afghanistan's other neighbors all share 
with the current government of Afghanistan a common objective in seeing 
Afghanistan emerge as a non-threatening, stable, prosperous, and 
democratic country. In the past two years, Pakistan has apprehended 
over 500 suspected Taliban/al-Qaeda suspects, including Rhalid Sheik 
Mohammad and Ramzi bin al Shibh, and Pakistan ranks fourth in the world 
in the amount of terror-related assets frozen. These people are as much 
of a threat to Afghanistan as to the United States, Pakistan, or any 
other country. For over a century, the tribal areas along the Pakistan-
Afghanistan border have had substantial autonomy. However, recognizing 
the significant threat that insurgents pose to regional stability, 
Pakistan recently mounted successful operations in the tribal areas, 
netting eighteen suspects and killing eight. Pakistan recognizes that 
the problems along its border are a threat to it, and is responding to 
our requests for increased control in these areas. They are expanding 
government control in these areas for the first time in 150 years. The 
increased presence on the ground is helping to make them more effective 
in capturing Taliban and al-Qaeda. We are helping to make their efforts 
more effective with intelligence cooperation, funding for equipment and 
computer databases, a national criminal fingerprint system, and 
construction of border posts and roads.

                                   - 

</pre></body></html>
